1a

A P P E N DI X A

P U B LI S H E D
U NI T E D S T A T E S C O U R T O F A P P E A L S
F O R T H E F O U R T H CI R C UI T
N o. 1 7 -4 4 2 7
U N I T E D S T A T E S O F A M E R I C A,
Pl ai ntiff – A p p ell e e,
v.
P A T R I C K E M A N U E L S U T H E R L A N D,
D ef e n d a nt – A p p ell a nt.
A p p e al f r o m t h e U nit e d St at e s Di st ri ct C o u rt f o r t h e
W e st e r n Di st ri ct of N o rt h C a r oli n a, at C h a rl ott e.
M a x O. C o g b u r n, J r., Di st ri ct J u d g e. ( 3: 1 5 -c r -0 0 2 2 5 M O C -D C K -1)
A r g u e d: M a r c h 2 0, 2 0 1 9

D e ci d e d: A p ril 1 9, 2 0 1 9

2a
B ef o r e W I L K I N S O N, H A R RI S, a n d
Q U A T T L E B A U M, Ci r c uit J u d g e s.
Affi r m e d b y p u bli s h e d o pi ni o n. J u d g e Wil ki n s o n
w r ot e t h e o pi ni o n, i n w hi c h J u d g e H a r ri s a n d J u d g e
Q u attl e b a u m j oi n e d.
A R G U E D :
B arr y
J o el
P oll a c k,
R O B BI N S,
R U S S E L L, E N G L E R T, O R S E C K, U N T E R EI N E R &
S A U B E R, L L P, W a s hi n gt o n, D. C., f o r A p p ell a nt.
A m y Eli z a b et h R a y, O F F I C E O F T H E U N I T E D
S T A T E S A T T O R N E Y, A s h e vill e, N o rt h C a r oli n a, f o r
A p p ell e e. O N B R I E F : D a w n E. M u r p h y-J o h n s o n,
MI L L E R
&
C H E V A LI E R
C H A R T E R E D,
W a s hi n gt o n, D. C., f o r A p p ell a nt. R. A n d r e w M u r r a y,
U nit e d St at e s Att o r n e y, O F F I C E O F T H E U N I T E D
S T A T E S A T T O R N E Y, C h a rl ott e, N o rt h C a r oli n a, f o r
A p p ell e e.
W I L K I N S O N, Ci r c uit J u d g e:
D ef e n d a nt P at ri c k S ut h e rl a n d a p p e al s f r o m
hi s c o n vi cti o n s f o r fili n g t h r e e f al s e t a x r et u r n s a n d
o b st r u cti n g a g r a n d j u r y p r o c e e di n g. S ut h e rl a n d
p ri n ci p all y c o nt e n d s t h at p r o vi di n g f a b ri c at e d l o a n
d o c u m e nt s t o a U. S. Att o r n e y’ s offi c e w a s t o o di st a nt
f r o m a n o n g oi n g g r a n d j u r y p r o c e e di n g t o m e et t h e
n e x u s r e q ui r e m e nt s et f o rt h i n U nit e d St at e s v.
A g uil a r , 5 1 5 U. S. 5 9 3 ( 1 9 9 5), a n d M a ri n ell o v.
U nit e d St at e s , 1 3 8 S. Ct. 1 1 0 1 ( 2 0 1 8). T h e di st ri ct
c o u rt p r o p e rl y i n st r u ct e d t h e j u r y o n t h e n e x u s

3a
r e q ui r e m e nt, h o w e v e r, a n d t h e j u r y’ s d et e r mi n ati o n s
p u r s u a nt t o t h at i n st r u cti o n w e r e b a s e d o n t h e
s u b st a nti al e vi d e n c e p r e s e nt e d at t ri al. F o r t h e
r e a s o n s t h at f oll o w, w e affi r m.
I.
T hi s c a s e i n v ol v e s t h e d ef e n d a nt’ s att e m pt s t o
a v oi d p a yi n g t a x e s, a n d hi s s u b s e q u e nt eff o rt s t o
c o v e r u p t h o s e c ri m e s. S ut h e rl a n d o w n e d o r o p e r at e d
s e v e r al i n s u r a n c e b u si n e s s e s t h at s ol d p r o d u ct s o ut
of t h e U nit e d St at e s a n d B e r m u d a. H e r o ut e d hi s
i nt e r n ati o n al
t r a n s a cti o n s
t ho ug h
St e w a rt
T e c h n ol o g y S e r vi c e s ( S T S), a B e r m u d a c o m p a n y.
D ef e n d a nt cl ai m s t h at hi s si st e r, B e v e rl y St e w a rt,
o w n e d a n d c o nt r oll e d S T S, b ut S ut h e rl a n d a ct u all y
m a n a g e d all it s d a y -t o-d a y aff ai r s. D e s pit e all e g e dl y
o w ni n g a
m ulti -milli o n -d oll a r b u si n e s s, St e w a rt
w o r k e d at t h e B e st W e st e r n h ot el i n C o d y, W y o mi n g
f o r l e s s t h a n $ 1 0 a n h o u r. At o n e p oi nt, s h e w a s
u n a bl e t o p a y a $ 6 0 0 f e e wit h o ut h e r h ot el e a r ni n g s.
B et w e e n 2 0 0 7 a n d 2 0 1 1, S T S s e nt S ut h e rl a n d,
h i s wif e, o r c o m p a ni e s t h at h e o w n e d m o r e t h a n $ 2. 1
milli o n i n wi r e t r a n sf e r s. I n e a c h of t h e t a x y e a r s
2 0 0 8, 2 0 0 9, a n d 2 0 1 0, S T S a n d S ut h e rl a n d t r e at e d
t h e s e wi r e t r a n sf e r s i n i n c o n si st e nt m a n n e r s t h at
p r o vi d e d S ut h e rl a n d t a x a d v a nt a g e s. S e e J. A. 1 2 5 2 6 2 ( G o v e r n m e nt e x hi bit 1 2 A,
w hi c h c o m pil e s
i nf o r m ati o n f r o m 1 2 7 wi r e t r a n sf e r s). T o wit,
S ut h e rl a n d t r e at e d t h e v a st m aj o rit y of t h e wi r e
t r a n sf e r s f r o m S T S t o hi s c o m p a ni e s a s b o n a fi d e
l o a n s o r c a pit al c o nt ri b uti o n s, w hi c h o r di n a ril y a r e
n ot t a x a bl e i n c o m e f o r t h ei r r e ci pi e nt. B y c o nt r a st,

4a
S T S t r e at e d n e a rl y all of t h e wi r e t r a n sf e r s a s
e x p e n s e s t h at h a d b e e n p ai d t o S ut h e rl a n d. If t h e
wi r e t r a n sf e r s w e r e i n f a ct e x p e n s e s p ai d t o
S ut h e rl a n d, a s S T S r e c o r d e d t h e m, t h e n S ut h e rl a n d
a n d hi s c o m p a ni e s s h o ul d h a v e r e p o rt e d t h e wi r e
t r a n sf e r s a s t a x a bl e i n c o m e. F a r f r o m r e p o rti n g t h e m
a s i n c o m e, h o w e v e r, S ut h e rl a n d eit h e r t r e at e d t h e
t r a n sf e r s f r o m S T S t o hi m a n d hi s wif e a s b o n a fi d e
l o a n s o r f ail e d t o a c c o u nt f o r t h e m i n hi s g e n e r al
l e d g e r alt o g et h e r. I n t h e e n d, Sut h e rl a n d di d n ot
r e p o rt t h e $ 2. 1 milli o n a s i n c o m e o n hi s t a x r et u r n s.
S ut h e rl a n d’ s t r e at m e nt of t h e S T S t r a n sf e r s
mi r r o r e d hi s t r e at m e nt of ot h e r i n c o m e. I n d e e d, t h e
d ef e n d a nt s e e m e d t o t hi n k t h at m a r ki n g i n c o m e a s a
c a pit al c o nt ri b uti o n o r l o a n w a s a f o ol p r o of s c h e m e.
F o r e x a m pl e, t h r e e S ut h e rl a n d c o m p a ni e s — I n si g n e
C o n s ulti n g, I n si g n e, I n c., a n d X Y Z E nt e rt ai n m e nt —
s e nt al m o st $ 4 2, 0 0 0 t o K r y ot e c h H ol di n g s, a n ot h e r
S ut h e rl a n d c o m p a n y, b et w e e n 2 0 0 7 a n d 2 0 0 9. T h e
p a yi n g c o m p a ni e s r e c o r d e d e a c h t r a n sf e r a s a n o n t a x a bl e m a r k eti n g e x p e n s e, w hil e K r y ot e c h t r e at e d
t h e p a y m e nt s a s n o n -t a x a bl e c a pit al c o nt ri b uti o n s.
T h e n et r e s ult: n o n e of S ut h e rl a n d’ s c o m p a ni e s
w o ul d p a y t a x e s o n t h o s e f u n d s. Si mil a rl y, I n si g n e,
I n c., r e c ei v e d m o r e t h a n $ 1 2 5, 0 0 0 i n t a x a bl e f e e s
f ro m a n ot h e r fi r m, Gl o b al Fi n a n ci al S y n e r gi e s,
b et w e e n 2 0 0 6 a n d 2 0 1 0 — y et S ut h e rl a n d d e s c ri b e d
t he
m aj o rit y of t h e m a s n o nt a x a bl e c a pit al
c o nt ri b uti o n s. C o m e t a x d a y, d e s pit e t h e milli o n s of
d oll a r s fl o wi n g t h r o u g h hi s a c c o u nt s, S ut h e rl a n d
r e p o rt e d j u st $ 8 8, 9 7 9 of i n c o m e i n 2 0 0 8; $ 1 6, 6 6 9 i n
2 0 0 9; a n d $ 7 2, 4 1 5 i n 2 0 1 0.

5a
B ut t h e s c h e m e w a s s h o rt li v e d. I n A p ril 2 0 1 2,
S ut h e rl a n d w a s s e r v e d wit h g r a n d j u r y s u b p o e n a s
s e e ki n g fi n a n ci al r e c o r d s f r o m hi s c o m p a ni e s,
i n cl u di n g I n si g n e C o n s ulti n g, I n si g n e Fi n a n ci al
S e r vi c e s, I n si g n e, I n c., K r y ot e c h H ol di n g s, a n d X Y Z
E nt e rt ai n m e nt.
J u st
t hr e e
m o nt h s
l at e r,
S ut h e rl a n d’ s att o r n e y s e nt t o t h e U. S. Att o r n e y’ s
offi c e a l ett e r t h at p u r p o rt e d t o e x pl ai n a w a y a l a r g e
n u m b e r of t r a n s a cti o n s r el ati n g t o t h e s u b p o e n a e d
m at e ri al s. Wit h r e s p e ct t o t h e wi r e t r a n sf e r s f r o m
S T S t o S ut h e rl a n d’ s c o m p a ni e s, t h e l ett e r s ai d t h at
e ac h
t r a n sf e r
w as
a
loa n
t h at
w as
“ c o nt e m p o r a n e o u sl y d o c u m e nt e d b y w ritt e n a n d
f ull y-e x e c ut e d l o a n a g r e e m e nt s,” J. A. 1 3 0 9. T h o s e
a g r e e m e nt s w e r e att a c h e d t o t h e l ett e r.
I n 2 0 1 5, a f e d e r al g r a n d j u r y i n di ct e d
S ut h e rl a n d f o r fili n g f al s e r et u r n s i n t h e t a x y e a r s
2 0 0 8, 2 0 0 9, a n d 2 0 1 0, i n vi ol ati o n of 2 6 U. S. C. §
7 2 0 6( 1), a n d f o r o b st r u cti n g, i nfl u e n ci n g, o r i m p e di n g
t h e 2 0 1 2 g r a n d j u r y i n v e sti g ati o n, o r att e m pti n g t o
d o s o, i n vi ol ati o n of 1 8 U. S. C. § 1 5 1 2( c)( 2). S e e al s o
i d. § 2 ( ai di n g a n d a b etti n g).
T h e e vi d e n c e at t ri al n ot o nl y o utli n e d t h e
fi n a n ci al
mi s d e e d s d e s c ri b e d a b o v e, b ut al s o
d e m o n st r at e d t h at t h e l o a n d o c u m e nt s S ut h e rl a n d
s e nt t o t h e U. S. Att o r n e y’ s offi c e i n J ul y 2 0 1 2 h a d
b e e n f a b ri c at e d. R e a d t o g et h e r, t h e d o c u m e nt s
i m pl a u si bl y pl e d g e d t h at S ut h e rl a n d w o ul d gi v e S T S
1 2 0 % of t h e p r o c e e d s of a n y s al e of hi s b u si n e s s e s.
W hil e t h e d o c u m e nt s h a d p u r p o rt e dl y b e e n si g n e d b y
S ut h e rl a n d’ s
si st e r,
e vi d e n c e
r e v e al e d
t h at
S ut h e rl a n d c o m m o nl y si g n e d d o c u m e nt s f o r h e r. T h e

6a
loa n
d o c u m e nt s f r o m
S ut h e rl a n d,
m o r e o v e r,
c o nfli ct e d wit h i nt e r n al a c c o u nti n g d o c u m e nt s f r o m
S T S (t h e p u r p o rt e d l e n d e r). Fi n all y, t h e g o v e r n m e nt
i nt r o d u c e d d o c u m e nt s i n w hi c h S ut h e rl a n d cl ai m e d
to h ave
ma d e l o a n p a y m e nt s b y t r a n sf e r ri n g
i nt e r e st s i n hi s ot h e r b u si n e s s e s t o S T S. B ut t h e s e
r el at e d d o c u m e nt s w e r e b o g u s a n d b a c k d at e d. A
d o c u m e nt s u p p o s e dl y si g n e d i n 2 0 1 1, f o r e x a m pl e,
d e s c ri b e d h o w S ut h e rl a n d’ s b u si n e s s e s h a d “ r e c ei v e d
l o a n s f r o m [ S T S] i n 2 0 11, 2 0 1 2, a n d 2 0 1 3.” J. A. 1 3 3 3.
L e giti m at e d o c u m e nt s d o n ot r ef e r e n c e p ot e nti al
f ut u r e t r a n s a cti o n s i n t h e p a st t e n s e, j u st a s b o n a
fi d e l o a n s d o n ot r e q ui r e f a k e p a y m e nt t r ail s.
T h e j u r y h a d littl e t r o u bl e s e ei n g t h r o u g h
S ut h e rl a n d’ s m a ni p ul ati o n s of hi s a c c o u nti n g r e c o r d s
a n d att e m pt s t o f a b ri c at e l o a n d o c u m e nt s t o c o v e r
hi s t r a c k s. It f o u n d S ut h e rl a n d g uilt y o n all c h a r g e s.
A n d t he
di st ri ct c o u rt
ulti m at el y s e nt e n c e d
S ut h e rl a n d t o a t e r m of t hi rt y -t h r e e m o nt h s i n
p ri s o n. D ef e n d a nt n o w a p p e al s.
II.
S ut h e rl a n d’ s p ri m a r y c h all e n g e i s t o hi s
c o n vi cti o n o n t h e g r a n d j u r y o b st r u cti o n c o u nt u n d e r
1 8 U. S. C. § 1 5 1 2( c)( 2). * S e cti o n 1 5 1 2( c)( 2) p r o vi d e s:
*

S ut h e rl a n d al s o c h all e n g e s t h e s uffi ci e n c y of t h e e vi d e n c e
f o r hi s f al s e t a x r et u r n c o n vi cti o n s, a n d, i n a f o ot n ot e, t h e
di st ri ct c o u rt’ s l o s s c al c ul ati o n s at s e nt e n ci n g. W e h a v e
r e vi e w e d t h e r e c o r d a n d c o n cl u d e d t h at t h e f al s e t a x r et u r n
v e r di ct s w e r e s u p p o rt e d b y s u b st a nti al e vi d e n c e, a n d t h at t h e
di st ri ct c o u rt’ s f a ct u al d et e r mi n ati o n s at s e nt e n ci n g w e r e n ot

7a
“ W h o e v e r c o r r u ptl y . . . o b st r u ct s, i nfl u e n c e s, o r
i m p e d e s a n y offi ci al p r o c e e di n g, o r att e m pt s t o d o s o,
s h all b e fi n e d u n d e r t hi s titl e o r i m p ri s o n e d n ot m o r e
t h a n 2 0 y e a r s, o r b ot h.” T h e st at ut e i n cl u d e s t h r e e
c o r e el e m e nt s. T h e g o v e r n m e nt m u st s h o w t h at t h e
d ef e n d a nt
( 1)
“ c o r r u ptl y”
( 2)
“ o b st r u ct[ e d],
i nfl u e n c e[ d],
o r i m p e d e[ d]” ( 3)
an
“ offi ci al
p r o c e e di n g,” o r att e m pt e d t o d o s o. S e e U nit e d St at e s
v. Y o u n g , 9 1 6 F. 3 d 3 6 8, 3 8 4 ( 4t h Ci r. 2 0 1 9). T h e
g o v e r n m e nt
m u st al s o d e m o n st r at e a “ n e x u s”
b et w e e n t h e o b st r u cti v e a ct a n d t h e offi ci al
p r o c e e di n g, a s e x pl ai n e d i n A g uil a r , 5 1 5 U. S. 5 9 3,
a n d M a ri n ell o , 1 3 8 S. Ct. 1 1 0 1.
A.
S ut h e rl a n d c o nt e n d s t h at t h e g o v e r n m e nt
f ail e d t o p r o v e a n e x u s b et w e e n hi s c o n d u ct a n d a n
offi ci al p r o c e e di n g. H e w a s, h e s a y s, o nl y “ att e m pti n g
t o i nfl u e n c e t h e U. S. Att o r n e y’ s Offi c e,” n ot t h e g r a n d
j u r y. S u p p. B r. f o r A p p ell a nt, at 6. H e c o rr e ctl y
n ot e s — a n d t h e g o v e r n m e nt d o e s n ot c o nt e st — t h at
t h e U. S. Att o r n e y’ s i n v e sti g ati o n i s n ot b y it s elf a n
offi ci al p r o c e e di n g. T h e t e r m “ offi ci al p r o c e e di n g” i s
d efi n e d b y 1 8 U. S. C. § 1 5 1 5( a)( 1) t o i n cl u d e, i nt e r
ali a , “ a F e d e r al g r a n d j u r y” o r “ a p r o c e edi n g b ef o r e a
F e d e r al G o v e r n m e nt a g e n c y w hi c h i s a ut h o ri z e d b y
l a w.” F BI i n v e sti g ati o n s, f o r e x a m pl e, a r e n ot offi ci al
p r o c e e di n g s
b ec a us e t h e
st at ut o r y l a n g u a g e

cl e a rl y e r r o n e o u s. S e e U nit e d St at e s v. S h e p h a r d , 8 9 2 F. 3 d
6 6 6, 6 7 0 ( 4t h Ci r. 2 0 1 8) ( d e s c ri bi n g cl e a rl y e r r o n e o u s
st a n d a r d f o r f a ct u al d et e r mi n ati o n s at s e nt e n ci n g).

8a
i n cl u di n g “ a p r o c e e di n g b ef o r e a F e d e r al G o v e r n m e nt
a g e n c y w hi c h i s a ut h o ri z e d b y l a w,” § 1 5 1 5( a)( 1)( C),
“i m pli e s ‘ s o m e f o r m al c o n v o c ati o n of t h e a g e n c y i n
w hi c h p a rti e s a r e di r e ct e d t o a p p e a r, i n st e a d of a n y
i nf o r m al i n v e sti g ati o n c o n d u ct e d b y a n y m e m b e r of
t h e a g e n c y.’” Y o u n g , 9 1 6 F. 3 d at 3 8 4 ( q u oti n g U nit e d
St at e s v. E r m oi a n , 7 5 2 F. 3 d 1 1 6 5, 1 1 7 1 ( 9t h Ci r.
2 0 1 3) ( F B I i n v e sti g ati o n)); s e e al s o U nit e d St at e s v.
R a m o s , 5 3 7 F. 3 d 4 3 9, 4 6 0-6 4 ( 5t h Ci r. 2 0 0 8) ( B o r d e r
P at r ol i n v e sti g ati o n). T h e s a m e l o gi c e q u all y a p pli e s
t o t h e i n v e sti g ati o n b y t h e U. S. Att o r n e y’ s offi c e i n
t hi s c a s e, m e a ni n g t h at it s i n v e sti g ati o n w a s n ot a n
offi ci al p r o c e e di n g.
T h e t e r m “ offi ci al p r o c e e di n g” t h u s i m pli e s
s o m et hi n g m o r e f o r m al t h a n a m e r e i n v e sti g ati o n.
T h at li miti n g t e r m p r e v e nt s a st at ut o r y s p r a wl i n
w hi c h t h e c o u ntl e s s c o m m u ni c ati o n s of citi z e n s wit h
o n e a g e n c y o r a n ot h e r of t h e f e d e r al g o v e r n m e nt l a y
t he
gr o u n d w or k f or
a
p ot e nti al o b st r u cti o n
p r o s e c uti o n. S e e M a ri n ell o , 1 3 8 S. Ct. at 1 1 0 9-1 0
( r e a di n g t a x o b st r u cti o n st at ut e n ot t o e xt e n d t o
“ r o uti n e, d a y-t o-d a y w o r k c a r ri e d o ut i n t h e o r di n a r y
c o u r s e b y t h e I R S,” i d. at 1 1 1 0). T hi s b a c k a n d f o rt h
b et w e e n citi z e n s a n d g o v e r n m e nt w o r k s a s a g e n e r al
m att e r t o t h e b e n efit of b ot h. M u c h of t hi s a cti vit y i s
a
w h oll y l e giti m at e eff o rt t o “i nfl u e n c e” t h e
g o v e r n m e nt. S e e 1 8 U. S. C. § 1 5 1 2( c)( 2). A n d i n d e e d
it i s n ot f a r-f et c h e d to t hi n k t h at a n o b st r u cti o n
st at ut e e n c r o a c hi n g t o o a g g r e s si v el y o n i n n o c e nt
citi z e n/ a g e n c y i nt e r a cti o n s w o ul d i nf ri n g e t h e b a si c
ri g ht t o p etiti o n g u a r a nt e e d b y t h e Fi r st A m e n d m e nt
of o u r C o n stit uti o n. S e e U. S. C o n st. a m e n d. I
(“ C o n g r e s s s h all m a k e n o l a w . . . a b ri d gi n g . . . t h e

9a
ri g ht of t h e p e o pl e . . . t o p etiti o n t h e G o v e r n m e nt f o r
a r e d r e s s of g ri e v a n c e s.”). T h e n, t o o, a st at ut e t h at
c hill s o r b u r d e n s e x c e s si v el y t h e ri g ht of p e r s o n s t o
p r ot e st o r p r o v e t h ei r i n n o c e n c e i n t h e f a c e of a
g o v e r n m e nt i n v e sti g ati o n w o ul d r u n c o u nt e r t o t h e
o p e r ati o n of c ri mi n al j u sti c e a s w e h a v e k n o w n it.
T h e r e a r e t h u s i m p o rt a nt s af e g u a r d s t o
p r e v e nt t h e a b u s e of § 1 5 1 2( c)( 2). A s t h e C o u rt h el d
i n A g uil a r , “it i s n ot e n o u g h t h at t h e r e b e a n i nt e nt
t o i nfl u e n c e s o m e a n ci ll a r y p r o c e e di n g, s u c h a s a n
i n v e sti g ati o n i n d e p e n d e nt of t h e c o u rt’ s o r g r a n d
j u r y’ s a ut h o rit y.” 5 1 5
U. S. at 5 9 9. P r o vi di n g
m at e ri all y f al s e d o c u m e nt s wit h a n i nt e nt o nl y t o
i nfl u e n c e t h e U. S. Att o r n e y’ s i n v e sti g ati o n, t h e r ef o r e,
w o ul d n ot a m o u nt t o a vi o l ati o n of § 1 5 1 2( c)( 2). S e e
Y o u n g , 9 1 6 F. 3 d at 3 8 7 (“[ T] h e G o v e r n m e nt h a s
si mil a rl y f ail e d t o p r o vi d e e vi d e n c e d e m o n st r ati n g
t h at Y o u n g . . . d e si g n e d hi s c o n d u ct t o t h w a rt [t h e
g r a n d j u r y] i n v e sti g ati o n, r at h e r t h a n d e si g ni n g hi s
c o n d u ct t o o b st r u ct a n F B I i n q ui r y . . . .”). T o b e
cl e a r, k n o wi n gl y gi vi n g f al s e d o c u m e nt s t o a
p r o s e c ut o r wit h o ut t h e i nt e nt t o o b st r u ct a g r a n d
j u r y m a y vi ol at e ot h e r f e d e r al st at ut e s. E. g. , 1 8
U. S. C. § § 1 0 0 1( a), 1 5 1 9. J u st n ot § 1 5 1 2( c)( 2).
S e cti o n 1 5 1 2( c)( 2) al s o r e q ui r e s p r o of t h at a
p a rti c ul a r g r a n d j u r y p r o c e e di n g w a s “ r e a s o n a bl y
f o r e s e e a bl e” t o a d ef e n d a nt w h o h a s b e e n c h a r g e d
wit h o b st r u cti n g t h at p r o c e e di n g. Y o u n g , 9 1 6 F. 3 d at
3 8 6 ( citi n g A rt h u r A n d e r s o n L L P v. U nit e d St at e s ,
5 4 4 U. S. 6 9 6, 7 0 7 -0 8 ( 2 0 0 5)). W hil e t h e g r a n d j u r y
d o e s n ot y et h a v e t o b e c o n v e n e d, it i s n ot e n o u g h f o r
t h e g o v e r n m e nt t o a r g u e t h at a d ef e n d a nt c o ul d h a v e

10a
s p e c ul at e d t h at s o m e offi ci al p r o c e e di n g li e s
s o m e w h e r e i n t h e offi n g. T h e Y o u n g c a s e ill u st r at e s
t h e p oi nt. I n t h at c a s e, t h e d ef e n d a nt h a d
i nt e nti o n all y mi sl e d F BI a g e nt s. B ut t hi s c o u rt
v a c at e d d ef e n d a nt’ s c o n vi cti o n b e c a u s e “t h e o nl y w a y
t h e j u r y c o ul d h a v e c o n cl u d e d h e f o r e s a w a
p a rti c ul a r g r a n d j u r y i n v e sti g ati o n w o ul d b e t h r o u g h
s p e c ul ati o n.” Y o u n g , 9 1 6 F. 3 d at 3 8 7.
A s s o oft e n i n l a w, t h e r e i s a b al a n c e t o b e
st r u c k. T h o u g h o b st r u cti o n st at ut e s a r e s u s c e pti bl e
t o a b u s e, t h e y al s o e xi st f o r g o o d r e a s o n. Offi ci al
p r o c e e di n g s a r e c r u ci al t o t h e c o n d u ct of g o v e r n m e nt.
T h e y a r e e ntitl e d t o g o f o r w a r d f r e e of c o r r u pti n g
i nfl u e n c e s t h at n ot o nl y d el a y t h e m b ut i n c r e a s e t h e
c h a n c e s of f al s e a n d u nj u st o ut c o m e s. T h e f e d e r al
g r a n d j u r y i n v e sti g ati o n i n t hi s c a s e i s b ut o n e
e x a m pl e of s u c h a n “ offi ci al p r o c e e di n g.” S e e J. A.
1 0 6 6 (j u r y i n st r u cti o n t h at t h e g r a n d j u r y w a s a n
“ offi ci al p r o c e e di n g”). T h e g o v e r n m e nt h a s e v e r y
ri g ht t o p r o s e c ut e t h o s e w h o w o ul d c o r r u pt it.
C o m p r o mi s e d p r o c e e di n g s i n t u r n di mi ni s h p u bli c
c o nfi d e n c e i n t h e w o r ki n g s of g o v e r n m e nt a n d l e a d t o
t h e s o rt of c r e e pi n g c y ni ci s m t o w a r d it t h at aff e c t s s o
m a n y n ati o n s. S e cti o n 1 5 1 2( c)( 2) a n d ot h e r li k e
st at ut e s h el p t o p r ot e ct a g ai n st t h at e v e nt u alit y
h e r e.
B.
S ut h e rl a n d i n si st s t h e r e w a s a n i n s uffi ci e nt
n e x u s b et w e e n hi s c o n d u ct a n d t h e g r a n d j u r y. T h e
n e x u s r e q ui r e m e nt t h at t h e g o v e r n m e nt h a d t o p r o v e
u n d e r § 1 5 1 2( c)( 2) c o m e s f r o m A g uil a r
and

11a
M a ri n ell o . A g uil a r d e alt wit h a c o n vi cti o n u n d e r 1 8
U. S. C. § 1 5 0 3, a n ot h e r o b st r u cti o n st at ut e, f o r
“ c o r r u ptl y e n d e a v o ri n g t o i nfl u e n c e, o b st r u ct, a n d
i m p e d e t h e g r a n d j u r y i n v e sti g ati o n.” 5 1 5 U. S. at 5 9 8
(i nt e r n al q u ot ati o n m a r k s a n d alt e r ati o n s o mitt e d).
T h e S u p r e m e C o u rt h el d t h at t h e r e m u st b e a
“ n e x u s” b et w e e n a d ef e n d a nt’ s c o n d u ct a n d t h e
p r o c e e di n g h e o b st r u ct e d. T hi s m e a nt t h at hi s
a cti o n s n e e d e d t o h a v e a “ r el ati o n s hi p i n ti m e,
c a u s ati o n, o r l o gi c” t o t h e o b st r u ct e d p r o c e e di n g. I d .
at 5 9 9. I n ot h e r w o r d s, o b st r u cti o n m u st h a v e b e e n
“t h e n at u r al a n d p r o b a bl e eff e ct” o f t h e d ef e n d a nt’ s
a cti o n s. I d . (i nt e r n al q u ot ati o n m a r k s o mitt e d). T hi s
n e x u s r e q ui r e m e nt d e m o n st r at e d “ r e st r ai nt i n
a s s e s si n g t h e r e a c h of a f e d e r al c ri mi n al st at ut e” i n
o r d e r t o r ei nf o r c e t h e p ri n ci pl e s of d ef e r e n c e t o
C o n g r e s s a n d f ai r n oti c e t o t h e a c c u s e d. I d . at 6 0 0.
T h e A g uil a r n e x u s r e q ui r e m e nt h a s fl o w n a s
t h e c r o w fli e s st r ai g ht t o M a ri n ell o . I n t h at c a s e, t h e
C o u rt i nt e r p r et e d t h e r e a c h of 1 8 U. S. C. § 7 2 1 2( a),
w hi c h
p r o hi bit s
o b st r u cti o n
of
“t h e
d ue
a d mi ni st r ati o n of [t h e I nt e r n al R e v e n u e C o d e]. ”
M a ri n ell o , 1 3 8 S. Ct. at 1 1 0 5 ( e m p h a si s o mitt e d)
( q u oti n g § 7 2 1 2( a)). A j u r y f o u n d t h at M a ri n ell o h a d
o bf u s c at e d hi s t a x r e c o r d s wit h t h e i nt e nt t o g ai n a
p e r s o n al a d v a nt a g e, b ut n ot t h at h e k n e w of a n
o n g oi n g p r o c e e di n g r el at e d t o hi s t a x r e c o r d s o r
i nte n d e d t o i nt e rf e r e wit h it. T h e C o u rt h el d t h at t h e
g o v e r n m e nt h a d n ot p r o v e n e n o u g h t o s u st ai n a n
o b st r u cti o n c h a r g e. It n ot e d t h at t h e p ri n ci pl e s
o utli n e d i n A g uil a r “ a p pl y . . . wit h si mil a r st r e n gt h”
t o t h e I nt e r n al R e v e n u e C o d e o b st r u cti o n st at ut e. I d .
at 1 1 0 6.
Wit h o ut a n e x u s r e q ui r e m e nt, a n y

12a
i nt e r a cti o n s wit h t h e I R S c o ul d h a v e b e e n s u bj e ct t o
§ 7 2 1 2( a), i n cl u di n g “ d a y -t o-d a y w o r k c a r ri e d o ut i n
t h e o r di n a r y c o u r s e b y t h e I R S, s u c h a s t h e r e vi e w of
t a x r et u r n s.” I d . at 1 1 1 0. T h e C o u rt r ef u s e d t o
“t r an sf o r m e v e r y vi ol ati o n of t h e T a x C o d e i nt o a n
o b st r u cti o n c h a r g e,” i d., a n d t h u s r e q ui r e d a
“ r el ati o n s hi p i n ti m e, c a u s ati o n o r l o gi c” b et w e e n a
d ef e n d a nt’ s a cti o n s a n d a “ p a rti c ul a r a d mi ni st r ati v e
p r o c e e di n g.” M a ri n ell o , 1 3 8 S. Ct. at 1 1 0 9 ( q u oti n g
A g uil a r , 5 1 5 U. S. at 5 9 9).
T h e j u r y i n st r u cti o n s i n t hi s c a s e d r e w di r e ctl y
f r o m t h e p ri n ci pl e s i n A g uil a r a n d M a ri n ell o . T h e
di st ri ct c o u rt fi r st i n st r u ct e d t h e j u r y t h at it m u st
d e ci d e w h et h e r S ut h e rl a n d “ k n e w t h at” t h e g r a n d
j u r y p r o c e e di n g “ w a s p e n di n g” w he n h e di st ri b ut e d
t h e f al s e l o a n d o c u m e nt s. J. A. 1 0 6 6. It i n st r u ct e d t h e
j u r y t h at t h e d ef e n d a nt m u st h a v e a ct e d “ c o r r u ptl y
wit h t h e i nt e nt t o o b st r u ct, i nfl u e n c e o r i m p e d e t h e
offi ci al p r o c e e di n g.” I d . A n d, fi n all y, t h e di st ri ct c o u rt
c r aft e d a n i n st r u cti o n o n t h e n e x u s r e q ui r e m e nt
st r ai g ht f r o m A g uil a r : “ T h e g o v e r n m e nt m u st p r o v e
t h at t h e d ef e n d a nt . . . i nt e n d e d o r k n e w hi s a cti o n s
w o ul d h a v e t h e n at u r al a n d p r o b a bl e eff e ct of
i nt e rf e ri n g wit h t h e g r a n d j u r y.” I d .; A g uil a r , 5 1 5
U. S. at 5 9 9 (“[ I]f t h e d ef e n d a nt l a c k s k n o wl e d g e t h at
hi s a cti o n s a r e li k el y t o aff e ct t h e [ offi ci al]
p r o c e e di n g, h e l a c k s t h e r e q ui sit e i nt e nt t o
o b st r u ct.”). T h e j u r y i n st r u cti o n s, i n ot h e r w o r d s,
p r o p e rl y st at e d t h e n e x u s r e q ui r e m e nt t h at t h e j u r y
h a d t o a p pl y t o S ut h e rl a n d’ s c a s e.

13a
C.
T h e f a ct s of S ut h e rl a n d’ s c a s e fit c o mf o rt a bl y
wit hi n t h e
a bove
A g uil a r / M a ri n ell o
c rit e ri a,
e s p e ci all y w h e n vi e wi n g, a s w e m u st, t h e t ri al
e vi d e n c e i n t h e li g ht
m o st f a v o r a bl e t o t h e
g o v e r n m e nt a s t h e p r e v aili n g p a rt y. U nit e d St at e s v.
W hit e , 8 1 0 F. 3 d 2 1 2, 2 2 8 ( 4t h Ci r. 2 0 1 6). T h e offi ci al
p r o c e e di n g S ut h e rl a n d att e m pt e d t o i nfl u e n c e w a s
n ot s o m e f a r -off p o s si bilit y. T h e g r a n d j u r y h a d i n
f a ct c o n v e n e d. S ut h e rl a n d’ s a cti o n s, m o r e o v e r, s h o w
a cl e a r “ r el ati o n s hi p i n ti m e, c a u s ati o n o r l o gi c wit h
t h e” g r a n d j u r y p r o c e e di n g s. M a ri n ell o , 1 3 8 S. Ct. at
1 1 0 9 ( q u oti n g A g uil a r , 5 1 5 U. S. at 5 9 9). I n d e e d,
S ut h e rl a n d’ s a cti o n s a r e r el at e d t o t h e g r a n d j u r y i n
ti m e, c a u s ati o n, a n d l o gi c. T h e t e m p o r al a n d l o gi c al
r el ati o n s hi p s a r e cl e a r: S ut h e rl a n d di st ri b u t e d t h e
f al s e l o a n d o c u m e nt s j u st m o nt h s aft e r t h e g r a n d
j u r y s u b p o e n a w a s s e r v e d u p o n hi m, a n d t h o s e
d o c u m e nt s att e m pt e d t o e x pl ai n a w a y t r a n s a cti o n s
r efl e ct e d i n t h e s u b p o e n a e d d o c u m e nt s.
T h e c a u s al r el ati o n s hi p b et w e e n S ut h e rl a n d
a n d t h e g r a n d j u r y r e s t s i n p a rt o n t h e m e a ni n gf ul
diff e r e n c e s b et w e e n t h e p r o s e c ut o r i n hi s c a s e a n d
t h e F B I a g e nt i n A g uil a r . I n A g uil a r , t h e g o v e r n m e nt
h a d p r o v e n t h at t h e d ef e n d a nt h a d li e d t o a n F BI
a g e nt w h o h a d “ n ot b e e n s u b p o e n a e d o r ot h e r wi s e
di r e ct e d t o a p p e a r b ef o r e t h e g r a n d j u r y.” 5 1 5 U. S. at
6 0 1. T h e C o u rt h el d t h at n o r ati o n al j u r y c o ul d fi n d a
n e x u s b et w e e n t h e d ef e n d a nt’ s f al s e st at e m e nt s a n d
t h e p e n di n g g r a n d j u r y p r o c e e di n g. 5 1 5 U. S. at 6 0 0 0 2. At t h e s a m e ti m e, t h e C o u rt a c k n o wl e d g e d t h at
“ a j u r y c o ul d fi n d [ a] d ef e n d a nt g uilt y” if h e li e d t o a n

14a
i n di vi d u al w h o h a d al r e a d y b e e n s u b p o e n a e d t o
t e stif y b ef o r e t h e g r a n d j u r y. I d . at 6 0 2.
I n t h e i n st a nt c a s e, S ut h e rl a n d g a v e f al s e
d o c u m e nt s t o t h e U. S. Att o r n e y’ s offi c e. A p r o s e c ut o r
t a s k e d wit h p r e s e nti n g t o t h e g r a n d j u r y i s m o r e
a ki n t o a wit n e s s w h o h a s b e e n s u b p o e n a e d t h a n o n e
w h o h a s n ot. A s wit h a s u b p o e n a e d wit n e s s, t h e r e i s
a st r o n g li k eli h o o d t h at t h e U. S. Att o r n e y’ s offi c e
w o ul d s e r v e a s a c h a n n el o r c o n d uit t o t h e g r a n d j u r y
f o r t h e f al s e e vi d e n c e o r t e sti m o n y p r e s e nt e d t o it.
“[ A]tt o r n e y s f o r t h e g o v e r n m e nt,” aft e r all, m a y b e
p r e s e nt w hil e t h e g r a n d j u r y i s i n s e s si o n. F e d. R.
C ri m. P. 6( d)( 1). T h e c a u s al r el ati o n s hi p b et w e e n t h e
U. S. Att o r n e y’ s offi c e a n d t h e g r a n d j u r y i s t h at
e n vi si o n e d b y t h e A g uil a r d e ci si o n.
W e t h u s j oi n t h e S e c o n d Ci r c uit i n r e c o g ni zi n g
t h at t h e “ di s c r eti o n a r y a cti o n s of a t hi r d p e r s o n,” a s
h e r e, c a n f o r m p a rt of t h e n e x u s t o a n offi ci al
p r o c e e di n g. U nit e d St at e s v. R ei c h , 4 7 9 F. 3 d 1 7 9, 1 8 5
( 2 d Ci r. 2 0 0 7) ( S ot o m a y o r, J.). I n R ei c h , f o r e x a m pl e,
t h e c ri mi n al d ef e n d a nt h a d s e nt a n o p p o si n g p a rt y i n
a n e a rli e r ci vil p r o c e e di n g a f o r g e d c o u rt o r d e r t h at
w o ul d h a v e
m o ot e d t h at p a rt y’ s o ut st a n di n g
m a n d a m u s p etiti o n. T h e o p p o si n g p a rt y t h e n
wit h d r e w t h e p etiti o n. B e c a u s e it w a s “f o r e s e e a bl e”
t h at f o r gi n g a c o u rt o r d e r w o ul d c a u s e t h e o p p o si n g
p a rt y t o wit h d r a w it s p etiti o n, t h e “ e vi d e n c e [ w a s]
cl e a rl y s uffi ci e nt t o e st a bli s h a r el ati o n s hi p i n ti m e,
c a u s ati o n, o r l o gi c b et w e e n R ei c h’ s t r a n s mi s si o n of
t h e f o r g e d o r d e r a n d eff e ct s o n t h e [ of fi ci al]
p r o c e e di n g.” I d . at 1 8 6 (i nt e r n al q u ot ati o n m a r k s
o mitt e d). A s i n R ei c h , w h e r e f o r w a r di n g t h e f a k e o r

15a
f o r g e d d o c u m e nt h a d t h e f o r e s e e a bl e c o n s e q u e n c e of
r e a c hi n g
a n d i nfl u e n ci n g
an
o n g oi n g c o u rt
p r o c e e di n g, a r ati o n al j u r y c o ul d fi n d t h at
S ut h e rl a n d’ s gi vi n g f al s e e vi d e n c e t o t h e U. S.
Att o r n e y’ s offi c e i n c h a r g e of p r e s e nti n g e vi d e n c e t o
t h e g r a n d j u r y i n f a ct h a d o n e i nt e n d e d a n d
f o r e s e e a bl e c o n s e q u e n c e: t r a n s mi s si o n of t h o s e
d o c u m e nt s t o t h e g r a n d j u r y.
At t h e e n d of t h e d a y, S ut h e rl a n d’ s eff o rt s t o
c o r r u pt t h e g r a n d j u r y i n t hi s c a s e li e at t h e h e a rt of
t h e c o n d u ct p r o hi bit e d b y § 1 5 1 2( c)( 2). H e h a d
al r e a d y vi ol at e d t h e f e d e r al i n c o m e t a x l a w s m ulti pl e
ti m e s, a n d, i n a n eff o rt t o c o v e r u p hi s c ri m e s, h e
di st ri b ut e d p h o n y l o a n d o c u m e nt s t o p r o s e c ut o r s
wit h t h e i nt e nt t o i nfl u e n c e a n o n g oi n g f e d e r al g r a n d
j u r y p r o c e e di n g t h at w a s cl o si n g i n o n hi m. B e c a u s e
t h e j ur y
w a s p r o p e rl y i n st r u ct e d a n d f o u n d
S ut h e rl a n d g uilt y b a s e d o n a m pl e a n d s u b st a nti al
e vi d e n c e,
w e affi r m S ut h e rl a n d’ s § 1 5 1 2( c)( 2)
c o n vi cti o n.
III.
S ut h e rl a n d al s o r ai s e s s e v e r al i s s u e s r el at e d
t o t h e c o u r s e of hi s t ri al. Fi r st, h e a r g u e s t h at t h e
g o v e r n m e nt’ s cl o si n g a r g u m e nt w a s s o di s c o n n e ct e d
f r o m t h e e vi d e n c e t h at h e w a s d e ni e d a f ai r t ri al.
S e c o n d, h e a r g u e s t h at t h e di st ri ct c o u rt i m p r o p e rl y
a d mitt e d s e v e r al pi e c e s of e vi d e n c e t h at s h o ul d h a v e
b e e n e x cl u d e d a s i m p r o p e r c h a r a ct e r e vi d e n c e u n d e r
R ul e 4 0 4( b). W e a d d r e s s e a c h c o nt e nti o n i n t u r n.

16a
A.
T h e d ef e n d a nt c o nt e n d s t h at t h e p r o s e c uti o n
i m p r o p e rl y s u g g e st e d t h at all $ 2. 1 milli o n i n wi r e
t r a n sf e r s f r o m S T S t o S ut h e rl a n d o r hi s d o m e sti c
e ntiti e s s h o ul d h a v e b e e n t r e at e d a s i n c o m e. B e c a u s e
h e f ail e d t o o bj e ct at t h e ti m e, t h e m att e r i s b ef o r e u s
o n pl ai n e r r o r r e vi e w. S e e U nit e d St at e s v. Ol a n o ,
5 0 7 U. S. 7 2 5 ( 1 9 9 3) . S ut h e rl a n d h a s f ail e d t o i d e ntif y
a n y e r r o r, m u c h l e s s a pl ai n o n e. T h e e vi d e n c e
s u p p o rt e d t h e g o v e r n m e nt’ s cl o si n g a r g u m e nt t h at
S ut h e rl a n d s h o ul d h a v e r e p o rt e d t h e S T S wi r e
t r a n sf e r s a s i n c o m e. T h e g o v e r n m e nt p r o v e d t h at t h e
wi r e s h a d b e e n s e nt a n d pl a i nl y di s c r e dit e d t h e
f a b ri c at e d l o a n d o c u m e nt s d u ri n g t ri al.
E v e n if t h e cl o si n g a r g u m e nt h a d s o m e h o w
b e e n i m p r o p e r,
h o w e v e r, it
di d
n ot
aff e ct
S ut h e rl a n d’ s “ s u b st a nti al ri g ht s.” Ol a n o , 5 0 7 U. S. at
7 3 6. Cl o si n g a r g u m e nt s a r e j u st t h at — a r g u m e nt s.
T h e y a r e p r o n e t o e x a g g e r ati o n; w e r el y o n j u ri e s a n d
t h e a d v e r s a ri al p r o c e s s t o pl a c e t h e m i n p e r s p e cti v e.
T h e di st ri ct c o u rt i n st r u ct e d t h e j u r y t o t r u st it s o w n
r e c oll e cti o n s of t h e e vi d e n c e, a n d t h at cl o si n g
a r g u m e nt s w e r e n ot e vi d e n c e t h e m s el v e s. J. A. 9 8 0 8 1. A n d S ut h e rl a n d h a d t h e o p p o rt u nit y t o r e s p o n d
t o a r g u m e nt s h e f elt w e r e u n s u p p o rt e d b y t h e
e vi d e n c e wit h o bj e cti o n s o r b ett e r a r g u m e nt s of hi s
o w n. H e di d n eit h e r.
B.
S ut h e rl a n d al s o a r g u e s t h at t h e di st ri ct c o u rt
w r o n gl y a d mitt e d c h a r a ct e r e vi d e n c e o v e r hi s

17a
o bj e cti o n s. S ut h e rl a n d t a r g et s t h r e e pi e c e s of
e vi d e n c e: S ut h e rl a n d’ s 2 0 0 7 t a x r et u r n; S ut h e rl a n d’ s
st at e m e nt t o Mi c h a el J o n e s, hi s b u si n e s s p a rt n e r
u ntil 2 0 0 8, t h a t hi s fi n a n ci al t r a n s a cti o n s w e r e
diffi c ult t o t r a c e; a n d t e sti m o n y a b o ut J o n e s’ s p a st
l a w s uit a g ai n st S ut h e rl a n d. W e r e vi e w t h e di st ri ct
c o u rt’ s e vi d e nti a r y r uli n g s f o r a n a b u s e of di s c r eti o n,
a n d w e will n ot v a c at e a c o n vi cti o n if a n e r r o r w a s
h a r ml e s s. U nit e d St at e s v. B u rf o ot , 8 9 9 F. 3 d 3 2 6, 3 4 0
( 4t h Ci r. 2 0 1 8).
F e d e r al R ul e of E vi d e n c e 4 0 4( b)( 1) p r o hi bit s
e vi d e n c e of a “ c ri m e, w r o n g, o r ot h e r a ct” f r o m b ei n g
u s e d “t o p r o v e a p e r s o n’ s c h a r a ct e r i n o r d e r t o s h o w
t h at o n a p a rti c ul a r o c c a si o n t h e p e r s o n a ct e d i n
a c c o r d a n c e wit h t h e c h a r a ct e r.” B ut t h e r ul e d o e s n ot
p r o hi bit s u c h e vi d e n c e f r o m b ei n g u s e d f o r a n ot h e r
p u r p o s e, s u c h a s, f o r e x a m pl e, p r o vi n g m oti v e,
o p p o rt u nit y, o r i nt e nt. F e d. R. E vi d. 4 0 4( b)( 2). T h e
r ul e al s o d o e s n ot aff e ct t h e a d mi s si o n of e vi d e n c e
t h at i s “i nt ri n si c t o t h e all e g e d c ri m e.” U nit e d St at e s
v. Ot u y a , 7 2 0 F. 3 d 1 8 3, 1 8 8 ( 4t h Ci r. 2 0 1 3) (i nt e r n al
q u ot ati o n m a r k s o mitt e d). “[ E] vi d e n c e of ot h e r b a d
a ct s i s i nt ri n si c if, a m o n g ot h e r t hi n g s, it i n v ol v e s t h e
s a m e s e ri e s of t r a n s a cti o n s a s t h e c h a r g e d off e n s e,”
i d. (i nt e r n al q u ot ati o n m a r k s o mitt e d), o r if it i s
“ n e c e s s a r y t o c o m pl et e t h e st o r y of t h e c ri m e o n
t ri al,” U nit e d St at e s v. B a s h a m , 5 6 1 F. 3 d 3 0 2, 3 2 6
( 4t h Ci r. 2 0 0 9) (i nt e r n al q u ot ati o n m a r k s o mitt e d).
T h e c o nt e st e d pi e c e s of e v i d e n c e w e r e p r o p e rl y
a d mitt e d a s i nt ri n si c e vi d e n c e. S ut h e rl a n d’ s 2 0 0 7 t a x
r et u r n, f o r e x a m pl e, i n v ol v e d t h e “ s a m e s e ri e s of
t r a n s a cti o n s,” Ot u y a , 7 2 0 F. 3 d at 1 8 8, t h at w e r e at

18a
i s s u e i n t a x y e a r s 2 0 0 8-1 0. Aft e r all, S T S h a d al r e a d y
b e g u n t r a n sf e r ri n g m o n e y t o S ut h e rl a n d i n 2 0 0 7,
a n d s e v e r al of t h e f a b ri c at e d l o a n d o c u m e nt s
d e s c ri b e d t r a n s a cti o n s f r o m 2 0 0 7. T h e s a m e i s t r u e
of J o n e s’ s t e sti m o n y t h at, d u ri n g liti g ati o n b et w e e n
t h e m, S ut h e rl a n d s ai d t h at hi s “ a c c o u nti n g w a s v e r y
c o m pli c at e d” a n d t h at “f u n d s h a d m o v e d a r o u n d
a m o n g st v a ri o u s a c c o u nt s s o t h at it w o ul d h a v e
t a k e n [ a n] e x p e rt a v e r y l o n g ti m e t o fi g u r e o ut.” J. A.
4 5 6. O n c e a g ai n, i n d e s c ri bi n g hi s b o o k s a n d f u n di n g
m a n e u v e r s, S ut h e rl a n d w a s a m plif yi n g t h e v e r y t ri al
n a r r ati v e b ef o r e t h e j u r y.
S ut h e rl a n d al s o a r g u e s t h at J o n e s
w as
i m p r o p e rl y all o w e d t o t e stif y a b o ut a ci vil l a w s uit h e
h a d fil e d a g ai n st S ut h e rl a n d. B ut S ut h e rl a n d
p r e d o mi n at el y cit e s t o s al a ci o u s d et ail s of t h e
l a w s uit t h at w e r e eli cit e d d u ri n g c r o s s e x a mi n ati o n .
S e e J. A. 4 6 7, 4 9 8 -9 9. S ut h e rl a n d m a d e a st r at e gi c
c h oi c e at t ri al t o d el v e i nt o t h e d et ail s of J o n e s’ s
l a w s uit a g ai n st hi m, w hi c h d e m o n st r at e d J o n e s’ s
p ot e nti al bi a s. B ut S ut h e rl a n d c a n n ot n o w l a m e nt
t h e a d mi s si o n of t h at w hi c h h e u s h e r e d i nt o
e vi d e n c e. I n d e e d, S ut h e rl a n d di d n ot o bj e ct t o
J o n e s’ s b ri ef m e nti o n t h at h e w a s “i n liti g ati o n” wit h
S ut h e rl a n d d u ri n g di r e ct e x a mi n ati o n. J. A. 4 5 4.
T h at li mit e d t e sti m o n y p r o vi d e d c o nt e xt f o r
S ut h e rl a n d’ s st at e m e nt t h at hi s a c c o u nti n g w a s
c o m pl e x, a n d it w a s “ n e c e s s a r y t o c o m pl et e t h e st o r y
of t h e c ri m e o n t ri al.” B a s h a m , 5 6 1 F. 3 d at 3 2 6
(i nt e r n al q u ot ati o n m a r k s o mitt e d). T h e di st ri ct
c o u rt t h u s di d n ot a b u s e it s di s c r eti o n i n a d mitti n g
t h e s e pi e c e s of e vi d e n c e a g ai n st S ut h e rl a n d.

19a
I V.
F o r t h e f o r e g oi n g r e a s o n s, t h e j u d g m e nt i s i n
all r e s p e ct s
A F FI R M E D .

20a

A P P E N DI X B
U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E W E S T E R N DI S T RI C T O F N O R T H
C A R O LI N A
C H A R L O T T E D I VI S I O N
) D O C K E T N O.
) 3: 1 5 -C R -2 2 5
)
) V OL U M EI V
)
)
)

U NI T E D S T A T E S O F
A M E RI C A
v s.
P A T RI C K E M A N U E L
S UT H E RL A N D
D ef e n d a nt.

T R A N S C RI P T O F T RI A L
B EF O R E T H E H O N O R A BL E
J R.
U NI T E D S T A T E S DI S T RI C
O C T O B E R 2 7,
*

*

P R O C E E DI N G S
M A X O. C O G B U R N,
T C O U RT J U D G E
2016
*

T H E C O U R T: Y o u n e e d t o c h e c k a n d s e e t h e
d o c u m e nt s t h at w e r e i n.
Al s o, I’ m t r yi n g t o fi g u r e o ut
c o u nt f o u r i n t h e i n st r u cti o n s.
r el at e t o t h e o b st r u cti o n c h a r g e ?

w h at t o d o wit h
W h at d o c u m e nt s

M S. S U G A R: It’ s g oi n g t o – it’ s t h e d o c u m e nt s
p r o vi d e d b y M r. W y att, t h e l o a n d o c u m e nt s, t h e

21a
s u m m a r y of l o a n s, t h e l o a n r e p a y m e nt s, all of t h e
l o a n-r el at e d d o c u m e nt s. It’ s a s p e a ki n g i n di ct m e nt
s o it s et s o ut p r ett y cl e a rl y, I t hi n k, w h at t h e
c o n d u ct i s w e’ r e t al ki n g a b o ut.
T H E C O U R T: W h at n u m b e r s a r e t h o s e ?
M R. R Y A N: I b eli e v e it w o ul d b e t h e d o c u m e nt s
c o v e r e d i n b ot h of o u r sti p ul ati o n s w h i c h w o ul d b e
G o v e r n m e nt’ s 6 8 -M S. S U G A R: N o, t o b e cl e a r, t h e c o n d u ct i s o nl y
sti p ul ati o n 1 d o c u m e nt s, n ot sti p ul ati o n 2. It’ s
m e nti o n e d b ut it’ s n ot c h a r g e d. It’ s o nl y t h e 2 0 1 2
c o n d u ct t h at w a s c h a r g e d.
I n sti p ul ati o n 1, 6 8 t h r o u g h 8 9.
M R. D U N C A N: R e a d y f o r u s ?
T H E C O U R T: N ot y et. I’ m t r yi n g t o m a k e s u r e
w e’ v e g ot all t h e d o c u m e nt s i n t h at a r e s u p p o s e d t o
b e i n. T h e n w e c a n d o it. J u st o n t h ei r c a s e. Y o u still
h a v e -M R. D U N C A N: I n t h ei r c a s e.
T H E C O U R T: I k n o w y’ all h a v e a sti p ul ati o n y’ all
w a nt t o d o a n d y o u m a y h a v e s o m e wit n e s s e s, s o...
M R. D U N C A N: Y e s.
T H E C O U R T: W e’ v e g ot t o s e e w h e r e w e a r e wit h
r e g a r d t o t hi s c a s e.

22a
B ut y o u’ v e g ot -- t h e d o c u m e nt s t h at a r e i n a r e i n
sti p ul ati o n 1; i s t h at ri g ht ?
M S. S U G A R: Y e s.
T H E C O U R T: All ri g ht. S o t h o s e d o c u m e nt s a r e
i n. T h o s e a r e t h e d o c u m e nt s t h at t h e y t u r n e d -- M r.
W y att t u r n e d o v e r t o y o u r offi c e.
M S. S U G A R: Y e s, i n cl u di n g t h e l ett e r it s elf wit h
t h e r e p r e s e nt ati o n s m a d e i n t h e l ett e r.
T H E C O U R T: All ri g ht. N o w, l et m e -- w hil e I’ m
d oi n g t hi s, w hil e w e’ r e o n t hi s, w h at -- l et m e a s k
t hi s q u e sti o n.
W h at i s t h e -- w h at i s t h e
g o v e r n m e nt’ s p r o bl e m wit h t h e d ef e n s e’ s v e r si o n
v e r s u s t h e g o v e r n m e nt' s v e r si o n ? W h at a r e t h e y
a d di n g t o t hi s t h at y o u t hi n k i s n ot n e c e s s a r y ?
M S. S U G A R: W ell, I t hi n k t h at t h e w h ol e n oti o n
of t h e y di d n’t p r o vi d e t h e d o c u m e nt s t o t h e g r a n d
j u r y. I t hi n k it w a s r e all y i n r e s p o n s e t o t h e g r a n d
j u r y -T H E C O U R T: It i s -M S. S U G A R: -- i n v e sti g ati o n -T H E C O U R T: It i s i n r e s p o n s e -M S. S U G A R: -- i n r e s p o n s e t o t h e g r a n d j u r y
s u b p o e n a. I j u st t hi n k t h at t h at’ s n ot t h e el e m e nt s.
B ut a s l o n g a s t h e “i n r e s p o n s e t o” i s p ut i n t h e r e, I
t hi n k w e’ r e fi n e.
T H E C O U R T: A g r a n d j u r y s u b p o e n a.

23a
M S. S U G A R: G r a n d j u r y s u b p o e n a, y e s.
T H E C O U R T: W h at d o y o u s a y a b o ut t h at ?
M S. S H A H: I w o ul d t a k e i s s u e wit h
“ s u b p o e n a” i n t h e r e. T h e c h a r g e i s 1 5 1 2( c)
i nt e rf e r e n c e wit h a g r a n d j u r y p r o c e e di n g,
t hi n k – I t hi n k i n v e sti g ati o n i s j u st n ot
c h a r g e. T h e w a y it’ s w ritt e n i s a c c u r at e.
T H E C O U R T:
s u b p o e n a --

Aft e r

r e c ei vi n g

a

p utti n g
w hi c h i s
a n d so I
it s elf a

gr a n d j u r y

M S. S H A H: W e w o ul d o bj e ct.
T H
w h ol e
k n o w,
I mea

E C O U R T: -- t h at’ s w h at o c c u r s. T h at’ s t h e
-- if h e h a d n’t r e c ei v e d a s u b p o e n a, t h e n, y o u
h e w o ul d n’t k n o w t h e r e w a s a p r o c e e di n g. S o,
n, w h y w o ul d t h e y h a v e e v e r c h a r g e d hi m ?

M S. S H A H: T h e e vi d e n c e i s t h at -- o r t h e
sti p ul ati o n st at e s t h at d o c u m e nt s w e r e p r o vi d e d b y
o u r cli e nt’ s l a w y e r, p ri o r l a w y e r, t o t h e U. S.
Att o r n e y’ s Offi c e.
T H E C O U R T: I u n d e r st a n d t h at’ s t h e sti p ul ati o n.
B ut i n t e r m s of t h e c h a r g e, t h e y h a v e t o – it’ s g oi n g
t o b e -- I m e a n , h e h a d r e c ei v e d a g r a n d j u r y
s u b p o e n a.
M S. S H A H: T h e c u st o di a n of r e c o r d s f o r t h o s e
e ntiti e s h a d r e c ei v e d a g r a n d j u r y s u b p o e n a.
T H E C O U R T: Ri g ht. I’ m s u r e it c o ul d h a v e b e e n
o n e of t h e ot h e r m a s si v e n u m b e r of e m pl o y e e s t h e r e.

24a
W h at a b o ut -- s o w h at a r e y o u s a yi n g ? W h at a r e
y o u s a yi n g, M s. S u g a r ? I w a nt t o m a k e s u r e w e g et
t hi s ri g ht. I t hi n k t h e r e’ s g ot t o b e s o m e s p e cifi cit y i n
t hi s b e c a u s e t h e r e w a s a g r a n d j u r y s u b p o e n a
i s s u e d.
M S. S H A H: A n d j u st t o p oi nt o ut, M r. W y att di d
n ot r e p r e s e nt t h e e ntiti e s.
H e r e p r e s e nt e d
M r. S ut h e rl a n d i n hi s i n di vi d u al c a p a cit y.
T H E C O U R T: I u n d e r st a n d t h at. B ut h e di d n’t
s h o w u p i n a v a c u u m. Y o u c a n a r g u e t h at h e j u st
s h o w e d u p, h a d n o i d e a a n yt hi n g w a s g oi n g o n a n d it
w a s a g o o d d a y t o g o t o t h e U. S. Att o r n e y’ s Offi c e,
b u t t h e y c a n al s o a r g u e ot h e r wi s e.
M S. S H A H: I m e a n, eit h e r w a y t h e d o c u m e nt s i n
o u r vi e w w e r e n ot p r o vi d e d t o t h e g r a n d j u r y. T h e y
w e r e p r o vi d e d t o t h e U. S. Att o r n e y’ s Offi c e.
T H E C O U R T: B ut i n r e a di n g t h e c a s e s, i n
r e a di n g t h e c a s e s, if t h e p e r s o n k n e w -- t h e c a s e
w h e r e t h e y’ r e t al ki n g a b o ut gi vi n g it t o a n F BI a g e nt
i s n ot n e c e s s a ril y gi vi n g it t o t h e g r a n d j u r y, t h e r e
w a s n’t a g r a n d j u r y s u b p o e n a. It w a s n’t a g r a n d j u r y
i n v e sti g ati o n at t h at p a rti c ul a r p oi nt. A n d s o t h e -b ut t h e q u e sti o n w a s di d h e gi v e t h e m t o t h e F BI
a g e nt -- a n d I’ m s u r e t h at j u d g e m a y w ell h a v e
k n o w n t h at t h e s e t hi n g s c o ul d l e a d t o t h e g r a n d
j u r y, b ut t h e y s ai d it w a s n’t e n o u g h t h at h e j u st g a v e
it t o t h e a g e nt. T h at h e h a d -- b ut t h at w a s diff e r e nt
t h a n t h e r e a ct u all y b ei n g a k n o w n p r o c e e di n g g oi n g
o n.

25a
M S. S H A H: A n d al s o w h at’ s diff e r e nt a b o ut o u r
sit u ati o n i s t h at o u r cli e nt g a v e it p u r s u a nt t o a r ul e
t h at b a s e d o n -- b a s e d o n r e p r e s e nt ati o n s m a d e b y
t h e l a w y e r i n t h e -- hi s p ri o r l a w y e r m e a nt t h at it
w a s n ot g oi n g t o g o t o t h e g r a n d j u r y. It w a s j u st
g oi n g t o g o t o t h e U. S. Att o r n e y’ s Offi c e f o r
p r ei n di ct m e nt di s c u s si o n s.
M S. S U G A R: W ell, Y o u r H o n o r, t h e r e a s o n t h e s e
c a m e i n a n d t h e y w e r e n’t k e pt o ut u n d e r 4 0 8 i s
t h e r e’ s a s p e cifi c e x c e pti o n t o 4 0 8 if t h e r e i s
o b st r u cti o n. T h e s e w e r e t h e d o c u m e nt s t h at w e r e
p r o vi d e d a n d I d o n’t t hi n k t h at t h at i s s u e t h e y’ r e
r ai si n g h a s a n yt hi n g t o d o -M S. S H A H: It h a s e v e r yt hi n g t o d o
i nt e nt el e m e nt.

wit h t h e

T H E C O U R T: B ut h e r e’ s t h e d e al. Y o u’ v e all e g e d
n ot j u st a p r o c e e di n g, b ut a g r a n d j u r y. I m e a n, it
c o ul d j u st b e, y o u k n o w, i n r el ati o n t o a p r o c e e di n g,
b ut it’ s a g r a n d j u r y p r o c e e di n g.
M S. S U G A R: Y e s, Y o u r H o n o r.
T H E C O U R T: A n d s o t h at’ s w h at t h e i n di ct m e nt
c h a r g e s. S o t h e -- t h e el e m e nt s of t h e off e n s e h a v e
g ot t o i n cl u d e w h at w e’ r e d e ali n g wit h h e r e. S h e’ s
ri g ht i n t h at r e s p e ct. It’ s g ot -- t h at h a s -- it h a s t o
f oll o w t h at.
M S. S U G A R: All ri g ht. S o t h e p r o p o s e d l a n g u a g e
T h at’ s i n t h e d r aft n o w, “ mi sl e a di n g d o c u m e nt s i n
r e s p o n s e t o” -- I d o n’t t hi n k t h at t h e r e’ s a n yt hi n g
t h at s ai d it h a d t o g o di r e ctl y t o t h e g r a n d j u r y.

26a
T H E C O U R T: It d o e s n’t h a v e t o g o t o t h e g r a n d
j u r y, b ut h e h a s t o b e a w a r e t h e r e’ s a g r a n d j u r y
i n v e sti g ati o n a n d h e p r o vi d e s t h e d o c u m e nt s t o
c o r r u ptl y i nfl u e n c e t h at g r a n d j u r y. W e’ v e g ot t o
h a v e – y o u’ v e g ot t o h a v e -- it's c h a r g e d t o t h e g r a n d
j u r y. T h e r e’ s g ot t o b e s o m et hi n g t h at ti e s t h e g r a n d
j u r y t o t hi s c a s e.
M S. S
offi ci al
p e n di n g
el e m e nt
w e d o n’t

U G A R: W ell, el e m e nt n u m b e r 1 i s t h at t h e
p r o c e e di n g i d e ntifi e d i n c o u nt f o u r w a s
at t h e ti m e. T h at’ s al r e a d y i n cl u d e d i n
o n e. If y o u w a nt t o w rit e o ut “ g r a n d j u r y,”
h a v e a n y i s s u e.

T H E C O U R T: I k n o w it’ s i n cl u d e d -- I k n o w it’ s
i n cl u d e d i n c o u nt o n e.
S o h o w d o y o u s a y n u m b er t hr e e n e e ds t o r e a d?
M S. S H A H: I s a y it n e e d s t o r e a d c o n si st e nt wit h
o u r o ri gi n al i n st r u cti o n, w hi c h I’ m t r yi n g t o fi n d.
T H E C O U R T: I d o n’t t hi n k it h a s t o b e t o t h e
g r a n d j u r y, b ut t h e r e’ s g ot t o b e s o m e -- it d o e s n’t
h a v e t o b e -- i n ot h e r w o r d s, it’ s n ot o b st r u cti o n of
t h e g r a n d j u r y t o -- l et’ s s u p p o s e h e g a v e d o c u m e nt s
t o a g r a n d j u r y wit n e s s a n d t h at g r a n d j u r y wit n e s s
w e nt t o t h e g r a n d j u r y, t h at’ s o b st r u cti o n -- t h at
w o ul d p ut hi m i n o b st r u cti o n of t h e g r a n d j u r y a n d
t h e r e’ s c a s e l a w t o t h at eff e ct.
By t he sa me to ke n
i nfl u e n ci n g t h e g r a n d
di r e ctl y t u r n t h o s e o v e r
B ut t h e r e h a s t o b e s o

-- i n
j u r y.
to t he
me nex

ot h e r w o r d s, h e i s
H e d o e s n’t h a v e t o
g r a n d j u r y hi m s elf.
u s i n t e r m s of t h e

27a
el e m e nt s a n d t h e y’ r e g oi n g t o a r g u e, a s I w o ul d
a r g u e, t h at it’ s n ot -- t h at it’ s n ot h e r e a n d y o u’ r e
g oi n g t o a r g u e t h at it i s.
M R. D U N C A N: I m e a n, m a y b e t hi s i s t h e
a p p r o p ri at e ti m e t o m a k e o u r -T H E C O U R T: I k n o w y o u’ r e g oi n g t o b e m a ki n g a
m oti o n o n t hi s t o o. I u n d e r st a n d.
M R. D U N C A N: F o r m o st of t h e
w e’ v e b e e n di s c u s si n g h e r e. I t hi n k t
n ot o nl y k n o wl e d g e t h at t h e r e s
p r o c e e di n g p e n di n g, b ut i nt e nt t o
g r a n d j u r y --

r e a s o n s t h at
h er e h as t o b e
a gr a n d j ur y
i nfl u e n c e t h e

T H E C O U R T: Y e s, y o u d o.
M R. D U N C A N: -- wit h t h e s u b mi s si o n.
T H E C O U R T: Y e s, y o u d o.
M R. D U N C A N: A n d I d o n’t s e e t h at i n t h e
s u b mi s si o n. A n d M s. S u g a r m a y b e ri g ht -- m a y o r
m a y n ot b e ri g ht t h at 4 0 8 d o e s n’t p r e cl u d e t h e m
f r o m p utti n g t h e m i n f r o nt of t h e g r a n d j u r y, b ut if
t h at’ s w h at t h e l a w y e r i nt e n d e d i n -T H E C O U R T: W e d o n’t h a v e a n y -- w e d o n’t h a v e
a n y e vi d e n c e t h e ot h e r w a y.
M R. D U N C A N: W e d o n’t.
T H E C O U R T: I n ot h e r w o r d s, h e r e’ s w h at’ s
h a p p e n i n g. Y o u’ v e g ot a g r a n d j u r y i n v e sti g ati o n
g oi n g o n a n d i n t h e li g ht m o st f a v o r a bl e t o t h e

28a
g o v e r n m e nt h e p r o vi d e d t h e s e t o st o p t h e p r e s s e s, t o
g et t h e m n ot t o c h a r g e hi m, t h e s e d o c u m e nt s. A n d
t h e -- y o u k n o w, t h at al o n e, if t h e r e’ s a k n o w n g r a n d
j u r y i n v esti g ati o n g oi n g o n, g et s it t o t h e j u r y. N o w,
w h et h e r t h e y g et t o t h e -- w h et h e r t h e y g et t o t h e -w h at t h e i n st r u cti o n’ s g oi n g t o s a y, I d o n’t k n o w.
M R. D U N C A N: I d o n’t a g r e e t h at it g et s hi m t o
t h e j u r y.
T H E C O U R T: I u n d e r st a n d.
M R. D U N C A N: I t hi n k i n o r d e r t o g et t o t h e j u r y,
it’ s n ot e n o u g h t h at y o u k n o w t h e r e’ s a g r a n d j u r y
a n d t h at y o u p r o vi d e t h e d o c u m e nt s t o t h e U. S.
Att o r n e y’ s Offi c e. It h a s t o b e d o n e wit h a p a rti c ul a r
i nt e nt a n d t h at i s utt e rl y -T H E C O U R T: I a g r e e. It h a s t o b e -- t h e r e h a s t o
b e a s p e cifi c -- a n i nt e nt t o i nfl u e n c e t h e g r a n d j u r y.
T h e q u e sti o n i s, i s t h e r e e n o u g h e vi d e n c e t o d o t h at
w h e n t h e r e’ s a n i n v e sti g ati o n of t h e g r a n d j u r y g oi n g
o n a n d y o u gi v e it t o t h e f e d e r al p r o s e c ut o r ? I t hi n k
at t h at p oi nt y o u a r e i n -- y o u a r e i n t e n di n g t o
i nfl u e n c e t h e g r a n d j u r y. If y o u d o n’t k n o w t h at
t h e r e’ s o n e -- if t h e y c o m e o ut a n d i nt e r vi e w y o u o ut
at y o u r h o u s e a n d y o u li e t o t h e offi c e r s a n d y o u
d o n’t k n o w a n y i n v e sti g ati o n i s g oi n g o n, t h at’ s n ot
e n o u g h t o g et it.
M R. D U N C A N: W ell, I d i s a g r e e. I t hi n k t h at a n
i nt e nt t o i nfl u e n c e a U. S. att o r n e y n ot t o b ri n g
c h a r g e s i s n ot i d e nti c al t o a n i nt e nt t o i nfl u e n c e o r
o b st r u ct a g r a n d j u r y p r o c e e di n g r e g a r dl e s s of
w h et h e r a g r a n d j u r y i s sitti n g. If w h at y o u’ r e t r yi n g

29a
t o d o i s s a y pl e a s e d o n’t i n di ct m e, j u st b eli e v e m e,
y o u d o n’t n e e d t o d o t hi s, t h at’ s s a yi n g y o u d o n’t
e v e n n e e d t o g o t o t h e g r a n d j u r y. A n d I d o n’t t hi n k
-T H E C O U R T: A n d I u n d e r st a n d. I u n d e r st a n d
t h at i s t h e a r g u m e nt. B ut I t hi n k t h e y c a n m a k e t h e
s a m e a r g u m e nt t h at wit h a g r a n d j u r y i n v e sti g ati o n
g oi n g o n, t h e d oi n g of t h at w a s t o i nfl u e n c e t h e
g r a n d j u r y i n v e sti g ati o n it s elf.
M R.
D U N C A N:
W ell, I t hi n k l e g all y it’ s
i n s uffi ci e nt s o w e d o m o v e u n d e r R ul e 2 9 f o r a
r e q ui r e d fi n di n g o n c o u nt f o u r.
F o r t h e r e c o r d, w e m o v e f o r a r e q ui r e d fi n di n g o n
c o u nt s o n e t h r o u g h t h r e e a s w ell. I' m n ot g oi n g t o
a r g u e t h o s e.
T H E C O U R T: O k a y. L et m e h e a r f r o m t h e
g o v e r n m e nt b ot h o n t hi s i n st r u cti o n a n d o n t hi s
p a rti c ul a r a r g u m e nt.
M S. S U G A R: Wit h r e g a r d t o t h e a r g u m e nt,
t a ki n g t h e e vi d e n c e i n t h e li g ht m o st f a v o r a bl e t o t h e
g o v e r n m e nt, I b eli e v e w e h a v e m et all t h e el e m e nt s
of t h e off e n s e.
T h e gr a n d j ur y s u b p o e n as w er e s er v e d o n
c o m p a ni e s o w n e d b y t h e d ef e n d a nt. S u b s e q u e ntl y,
hi s att o r n e y r e a c h e d o ut a n d t ol d t h e U. S. Att o r n e y’ s
Offi c e c o n d u cti n g t h at i n v e sti g ati o n t h at pl e a s e d o
n ot c h a r g e m y cli e nt, a n d p r o vi d e d l o a n d o c u m e nt s.
T h e g r a n d j u r y i s t h e o nl y pl a c e w e c a n i n di ct
a n yt hi n g, Y o u r H o n o r. A n d I t hi n k t h at t a ki n g t h e

30a
f a ct s m o st f a v o r a bl e t o u s, t h at w e h a v e
b u r d e n a n d c a n g o t o t h e j u r y o n t hi s c o u nt.

m et o u r

T H E C O U R T: All ri g ht. D a vi d, g et m e 1 5 1 2. G et
m e t h e a ct u al st at ut e.
M R. D A VI S: Y e s, si r.
M R. D U N C A N: B y t h e w a y, I a g r e e t h at t h e
g r a n d j u r y i s t h e o nl y pl a c e t h e y c a n g o t o i n di ct, b ut
n ot g oi n g t h e r e i s n ot i nfl u e n ci n g t h e g r a n d j u r y.
T H E C O U R T: I n ot h e r w o r d s, y o u t hi n k h e j u st
h a s t o p r ett y m u c h s h o w u p at t h e g r a n d j u r y a n d li e
o r p r e s e nt t h e d o c u m e nt s; a n d if t h at -- if t h at i s t h e
c a s e, t h e n w e’ll h a v e o n e -- if t h e y g et -- if I l et it g o
a n d t h e y g et a c o n vi cti o n, w e’ll h a v e a c a s e -M R. D U N C A N: W e will.
T H E C O U R T: -- o n t h at i s s u e. O n t h at i s s u e. W e
d o n’t h a v e o n e n o w. If w e h a d o n e t h at s ai d t h at, y o u
wi n. It’ s a littl e o d d t h at w e d o n’t h a v e o n e y et,
w h e r e t h e y j u st s ai d, l o o k, if h e’ s n ot st a n di n g t h e r e
at t h e g r a n d j u r y p r e s e nti n g t h e d o c u m e nt s -- I
w o ul d t hi n k w e w o ul d h a v e o n e b y n o w. I m e a n, t hi s
c a n’t b e t h e fi r st ti m e t h at t hi s h a s e v e r c o m e u p.
I’ v e l o o k e d – I’ v e r e a d t h e c a s e s. I’ v e r e a d t h e c a s e s
a n d y o u h a v e s o m e a r g u m e nt s.
c
t
a
i

M R. D U N C A N: Y o u k n o w, m o st ti m e s t h e y’ ll
h a r g e u n d e r a diff e r e nt st at ut e a n d y o u d o n’t h a v e
hi s i s s u e b e c a u s e c o r r u ptl y i nt e n di n g t o i nfl u e n c e
n i n v e sti g ati o n, y o u k n o w, if t h at’ s w h at t h e y
n di ct e d, w e w o ul d n’t b e st a n di n g u p h e r e.

31a
M S. S H A H: T h e g o v e r n m e nt h a s at it s di s p o s al a
n u m b e r of o b st r u cti o n st at ut e s. It c h a r g e d t h e w r o n g
o n e i n t hi s i n st a n c e.
M R. Z A L K I N D: L et m e j u st r ai s e s o m et hi n g t o
Y o u r H o n o r. T hi s h a p p e n e d t o m e i n a c a s e. Y o u r
cli e nt g o e s t o t h e g r a n d j u r y, h e gi v e s a st at e m e nt t o
t h e g r a n d j u r y. H e c o m e s b a c k a n d h e s a y s t o y o u, I
mi s st at e d. Y o u h a v e a ri g ht t o g o b a c k t o t h e g r a n d
j u r y a n d c h a n g e t h at st at e m e nt. T h at -- I di d t h at i n
a c a s e. H e w a s n’t i n di ct e d f o r l yi n g t o t h e g r a n d j u r y.
I n t hi s c a s e t hi s d ef e n d a nt d o e s n’t k n o w t h at t hi s
i s g oi n g t o t h e g r a n d j u r y. H e d o e s n’t k n o w h e h a s a
ri g ht t o c o m e b a c k a n d s a y, l o o k, I g a v e y o u t h e
w r o n g d o c u m e nt s. I w a nt y o u t o t a k e t h e s e
d o c u m e nt s o ut. H e d o e s n’t h a v e t h at ri g ht, a n d w e
h a v e t h at u n d e r t h e -- I k n o w y o u k n o w t hi s, t h at w e
h a v e t hi s u n d e r g r a n d j u r y p r o c e e di n g s.
S o t h at r e all y i s s e p a r ati n g w h at t h e y’ r e a r g ui n g
w hi c h i s w e’ r e n ot d e ali n g wit h t h e g r a n d j u r y
b e c a u s e wit h t h e g r a n d j u r y y o u’ v e g ot c e rt ai n
ri g ht s, w hi c h w e d o n’t h a v e c e rt ai n ri g ht s h e r e w h e n
y o u’ r e gi vi n g it t o t h e U. S. att o r n e y.
N o w, t h e r e’ s a n i s s u e, d o y o u li e t o a U. S.
att o r n e y ? T h at’ s a diff e r e nt q u e sti o n. B ut t hi s i s
w h at y o u h a v e h e r e i n t hi s c a s e a n d y o u s h o ul d fi n d
a R ul e 2 9 o n t hi s p a rti c ul a r c o u nt.
T H E C O U R T: D a vi d, g et m e t h e st at ut e.
L et m e a s k a p r a cti c al q u e sti o n.
d o y o u h a v e?

W h at wit n e s s e s

32a
M R. Z A L KI N D:
Y o u r H o n o r.

W e h a v e a n u m b e r of wit n e s s e s,

M R. D U N C A N: W e h a v e eit h e r f o u r o r fi v e, w e’ r e
n ot s u r e y et. M o st of t h e m a r e s h o rt. O n e of t h e m i s
l o n g.
( D o c u m e nt s w e r e t e n d e r e d t o t h e C o u rt.)
T H E C O U R T: All ri g ht. I' m g oi n g t o -- f o r t h e
ti m e b ei n g I’ m g oi n g t o d e n y t h at. I’ m g oi n g t o t a k e
it u n d e r a d vi s e m e nt. I’ m g oi n g t o d e n y it at t hi s ti m e
a n d – w h at I’ v e g ot h e r e i s t hi s -- I g u e s s t hi s i s t h e
st at ut e. L et’ s s e e h e r e.
1 5 1 2( c)( 2), “ W h o e v e r c o r r u ptl y alt e r s, d e st r o y s,
m util at e s o r c o n c e al s a r e c o r d, d o c u m e nt o r ot h e r
o bj e ct, o r att e m pt s t o d o s o, wit h t h e i nt e nt t o
i m p ai r” -- i s t h at it ?
M R. D A VI S: S u b s e cti o n 2.
T H E C O U R T: O h, n u m b e r 2, e x c u s e m e.
“ W h o e v er
c o r r u ptl y
ot h e r wi s e
o b st r u ct s,
i nfl u e n c e s, o r i m p e d e s a n y offi ci al p r o c e e di n g, o r
att e m p t s t o d o s o.”
A n d i n t hi s c a s e it s p e cifi c all y st at e s t h e
p r o c e e di n g s a r e t h e g r a n d j u r y p r o c e e di n g s, n ot j u st
a g o v e r n m e nt i n v e sti g ati o n o r a 1 0 0 1 vi ol ati o n.
O k a y. I’ll l o o k at it. Ri g ht n o w it’ s g oi n g t o b e
d e ni e d.

33a
I g u e s s w e'll g o i nt o e vi d e n c e, t h e n. B ut -- y e a h,
I’ m g oi n g t o -- y o u k n o w, I’ m g oi n g t o g o a h e a d a n d
w o r k o n t hi s. A n d I’ m g oi n g t o w o r k off of t h e
d ef e n s e v e r si o n h e r e o n t hi s i n st r u cti o n s h o ul d w e g o
t h e r e.
Y e s, si r.
M R. D U N C A N: C o ul d I j u st a d d o n e a r g u m e nt t o
o u r R ul e 2 9 t h at m y c oll e a g u e p oi nt e d o ut t o m e,
w hi c h i s t h at u n d e r t h e i nt e r p r et ati o n t h at t h e
C o u rt h a s, a n d t h e g o v e r n m e nt h a s l ai d o ut, I t hi n k
t h e r e’ s a f ai r n oti c e/ d u e p r o c e s s i s s u e. I j u st d o n’t
t hi n k t h at p e o pl e h a v e f ai r n oti c e of w h at i s
p r o hi bit e d if t h e s e R ul e 4 0 8 p r off e r s c a n c o n stit ut e
o b st r u cti o n of a g r a n d j u r y p r o c e e di n g.
T H E C O U R T: O k a y. T h at will b e c o n si d e r e d. At
t h e p r e s e nt ti m e it’ s d e ni e d a n d y o u will st a rt y o u r
wit n e s s e s w h e n w e b ri n g t h e j u r y b a c k i n.
O n y o u r ot h e r -- o n t h e ot h e r c o u nt s it’ s d e ni e d.
M R. D U N C A N: T h a n k y o u, Y o u r H o n o r.
*

*

*

U NI T E D S T A T E S DI S T RI C T C O U R T
W E S T E R N DI S T RI C T O F N O R T H C A R O LI N A
C E R TI FI C A T E O F R E P O R T E R
I, C h e r yl A. N u c ci o, F e d e r al Offi ci al R e alti m e
C o u rt R e p o rt e r, i n a n d f o r t h e U nit e d St at e s Di st ri ct

34a
C o u rt f o r t h e W e st e r n Di st ri ct of N o rt h C a r oli n a, d o
h e r e b y c e rtif y t h at p u r s u a nt t o S e cti o n 7 5 3, Titl e 2 8,
U nit e d St at e s C o d e, t h at t h e f o r e g oi n g i s a t r u e a n d
c o r r e ct t r a n s c ri pt of t h e st e n o g r a p hi c all y r e p o rt e d
p r o c e e di n g s h el d i n t h e a b o v e -e ntitl e d m att e r a n d
t h at t h e t r a n s c ri pt p a g e f o r m at i s i n c o nf o r m a n c e
wit h t h e r e g ul ati o n s of t h e J u di ci al C o nf e r e n c e of t h e
U nit e d St at e s.
D at e d t hi s 2 1 st d a y of A u g u s t 2 0 1 7.
s/ C h e r yl A. N u c ci o
_________________________
C h e r yl A. N u c ci o, R M R -C R R
Offi ci al C o u rt R e p o rt e r

35a

A P P E N DI X C
U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E W E S T E R N DI S T RI C T O F N O R T H
C A R O LI N A
C H A R L O T T E D I VI S I O N
) D O C K E T N O.
) 3: 1 5 -C R -2 2 5
)
) V OL U M E V
)
)
)

U NI T E D S T A T E S O F
A M E RI C A
v s.
P A T RI C K E M A N U E L
S UT H E RL A N D
D ef e n d a nt.

T R A N S C RI P T O F T RI A L
B EF O R E T H E H O N O R A BL E
J R.
U NI T E D S T A T E S DI S T RI C
O C T O B E R 2 8,
*

*

P R O C E E DI N G S
M A X O. C O G B U R N,
T C O U RT J U D G E
2016
*

T H E C O U R T: Y e a h. I n f a ct, w e’ll p r o b a bl y -- I
k n o w t h e d ef e n s e i s g oi n g t o w a nt t o u s e a p o di u m t o
a r g u e; i s t h at c o r r e ct ?
M R. D U N C A N: C o r r e ct.
T H E C O U R T: S o
p o siti o n.

we nee d to

m o v e t h at i nt o

36a
O h, a n d at t h e e n d of all t h e e vi d e n c e, t h e d ef e n s e
r e n e w s it s m oti o n o n all c o u n t s t h at t h e y -- R ul e 2 9
t o di s mi s s.
M R. D U N C A N: Y e s. T h e r e’ s a p a rti c ul a r p a rt of
t h e R ul e 2 9 t h at I d o n’t t hi n k I p ut i n t h e fi r st ti m e
b ut I will r e n e w it t h at w a y, w hi c h i s t h at t h e -- w e
c o nt e n d t h at t h e r e i s n ot s uffi ci e nt e vi d e n c e of a
f al s e st at e m e nt wit h r e s p e ct t o si g n at o r y a ut h o rit y
o n t h e 2 0 0 8, 2 0 0 9 o r 2 0 1 0 t a x r et u r n s b e c a u s e t h e r e
i s n o f o r m a n d n o a s s e rti o n.
T H E C O U R T: O k a y. T h o s e will b e -- t h o s e will
b e d e ni e d. T h e C o u rt al s o d e ni e s t h e o b st r u cti o n of
j u sti c e at t hi s ti m e a n d will all o w t h e d ef e n s e t o
r e n e w all t h o s e m oti o n s at t h e e n d of t h e c a s e if
t h e r e i s a n a d v e r s e v e r di ct a g ai n st t h e d ef e n d a nt.
B ut I u n d e r st a n d a n d t h o s e will b e d e ni e d at t hi s
ti m e.
*

*

*

T H E C O U R T: All ri g ht. I s e v e r y b o d y r e a d y f o r
t h e m o st e x citi n g p a rt of t h e t ri al ?
M S. R A U S C H E R: It’ s m y f a v o rit e p a rt.
T H E C O U R T: M e r e a di n g t h e i n st r u cti o n s.
M R. D U N C A N: Y o u r H o n o r, I j u st w a nt t o b e
s u r e, t h at c oll o q u y w e h a d a b o ut t h e R ul e 2 9, di d
y o u c o n si d e r t h at o u r r e n e w al at t h e cl o s e of t h e
c as e?

37a
T H E C O U R T: U h -h u h.
M R. D U N C A N: Y o u di d.
T H E C O U R T: I di d. Y e a h, y o u’ r e o n t h e r e c o r d
a s -- y o u m a d e t h e -- y o u m a d e t h e m oti o n at t h e
e n d of t h e g o v e r n m e nt’ s e vi d e n c e a n d t h at’ s w h y I
b r o u g ht it u p, t o m a k e s u r e -- a n d y o u’ v e m a d e it
n o w at t h e cl o s e of all t h e e vi d e n c e wit h t h e -- a n
a d diti o n al a r g u m e nt.
M R. D U N C A N: C o r r e ct.
T H E C O U R T: T h e r e a s o n b ei n g a s st at e d.
M R. D U N C A N: O k a y. G o o d. T h a n k y o u.
T H E C O U R T: S o all t h at’ s o n t h e r e c o r d, e v e r y
bit of it. If y o u h a v e a b a d v e r di ct, y o u’ll h a v e
a n ot h e r s h ot of m a ki n g it t o o, s o...
M R. D U N C A N: Ri g ht. T h a n k y o u.
*

*

*

U NI T E D S T A T E S DI S T RI C T C O U R T
W E S T E R N DI S T RI C T O F N O R T H C A R O LI N A
C E R TI FI C A T E O F R E P O R T E R
I, C h e r yl A. N u c ci o, F e d e r al Offi ci al R e alti m e
C o u rt R e p o rt e r, i n a n d f o r t h e U nit e d St at e s Di st ri ct
C o u rt f o r t h e W e st e r n Di st ri ct of N o rt h C a r oli n a, d o
h e r e b y c e rtif y t h at p u r s u a nt t o S e cti o n 7 5 3, Titl e 2 8,
U nit e d St at e s C o d e, t h at t h e f o r e g oi n g i s a t r u e a n d

38a
c o r r e ct t r a n s c ri pt of t h e st e n o g r a p hi c all y r e p o rt e d
p r o c e e di n g s h el d i n t h e a b o v e -e ntitl e d m att e r a n d
t h at t h e t r a n s c ri pt p a g e f o r m at i s i n c o nf o r m a n c e
wit h t h e r e g ul ati o n s of t h e J u di ci al C o nf e r e n c e of t h e
U nit e d St at e s.
D at e d t hi s 2 1 st d a y of A u g u st 2 0 1 7.
s/ C h e r yl A. N u c ci o
_________________________
C h e r yl A. N u c ci o, R M R -C R R
Offi ci al C o u rt R e p o rt e r

39a

A P P E N DI X D
U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E W E S T E R N DI S T RI C T O F N O R T H
C A R O LI N A
C H A R L O T T E D I VI S I O N
) D O C K E T N O.
) 3: 1 5 -C R -2 2 5
)
) V OL U M E V
)
)
)

U NI T E D S T A T E S O F
A M E RI C A
v s.
P A T RI C K E M A N U E L
S UT H E RL A N D
D ef e n d a nt.

T R A N S C RI P T O F T RI A L
B EF O R E T H E H O N O R A BL E
J R.
U NI T E D S T A T E S DI S T RI C
O C T O B E R 2 8,
*

*

P R O C E E DI N G S
M A X O. C O G B U R N,
T C O U RT J U D G E
2016
*

T H E C O U R T: M oti o n s ?
M R.
D U N C A N:
We
m o v e f o r a j u d g m e nt
n ot wit h st a n di n g t h e v e r di ct o n all f o u r c o u nt s.
T H E C O U R T: All f o u r
gi v e y o u ti m e o n t h e – I’
c o u nt f o u r. I’ m g oi n g t o
fi r st t h r e e c o u nt s. I

c o u nt s. I’ m g oi n g t o -- I will
m still i nt e r e st e d i n t h e – i n
d e n y t h e m oti o n a s t o t h e
u n d e r st a n d t h e t h e o r y of

40a
a r g u m e nt t h e r e. I t hi n k t h e r e’ s pl e nt y of e vi d e n c e o n
w hi c h a j u r y – p r o p e rl y i n st r u ct e d j u r y c o ul d fi n d
t h e d ef e n d a nt g uilt y. A n d I al s o t hi n k s o o n c o u nt
f o u r, b ut I w a nt e d t o -- I w a nt t o l o o k -- I’ m g oi n g t o
gi v e y o u -- h o w l o n g w o ul d it t a k e y o u t o d o a -y o u’ r e g oi n g t o d o a n a p p e al, s o e s s e nti all y t o l et m e
h e a r w h at y o u r a r g u m e nt s a r e a s t o c o u nt f o u r, t h e
o b st r u cti o n of j u sti c e.
M R. D U N C A N: T w o w e e k s, Y o u r H o n o r.
T H E C O U R T: T w o w e e k s. A n d t h e n h o w l o n g
w o ul d t h e g o v e r n m e nt n e e d t o r e s p o n d o n t h at
m oti o n ?
M S. S U G A R: If w e c o ul d j u st h a v e t h e st a n d a r d
t e n d a y s, t h at w o ul d b e fi n e.
T H E C O U R T: T e n d a y s will b e fi n e. W h at w e’ll d o
i s I u n d e r st a n d y o u m a d e t h e m oti o n. I a m d e n yi n g
it a s t o c o u nt s o n e, t w o, a n d t h r e e. B ut a s t o c o u nt
f o u r, I will wit h h ol d r uli n g o n t h at u ntil I h a v e r e a d
t h e d o c u m e nt s o n t h at. I u n d e r st a n d w h at t h e -w h at y o u r t h e o r y i s o n t h at. E s s e nti all y y o u r t h e o r y
i s t h at t h e g o v e r n m e nt c h a r g e d t h e w r o n g t hi n g i n
t e r m s of o b st r u cti o n b y c h a r gi n g g r a n d j u r y i n t hi s
f a ct sit u ati o n. T h at’ s w h at I u n d e r st a n d.
M R. D U N C A N: Ri g ht.
T H E C O U R T: A n d I w o ul d c e rt ai nl y li k e t o h e a r
w h at Y o u’ r e s a yi n g a b o ut t h at, h a v e t h e g o v e r n m e nt
r e s p o n d t o t h at s p e cifi c all y, a n d t h e n I c a n m a k e a
d et e r mi n ati o n o n t h at p a rti c ul a r c o u nt.

41a
*

*

*

U NI T E D S T A T E S DI S T RI C T C O U R T
W E S T E R N DI S T RI C T O F N O R T H C A R O LI N A
C E R TI FI C A T E O F R E P O R T E R
I, C h e r yl A. N u c ci o, F e d e r al Offi ci al R e alti m e
C o u rt R e p o rt e r, i n a n d f o r t h e U nit e d St at e s Di st ri ct
C o u rt f o r t h e W e st e r n Di st ri ct of N o rt h C a r oli n a, d o
h e r e b y c e rtif y t h at p u r s u a nt t o S e cti o n 7 5 3, Titl e 2 8,
U nit e d St at e s C o d e, t h at t h e f o r e g oi n g i s a t r u e a n d
c o r r e ct t r a n s c ri pt of t h e st e n o g r a p hi c all y r e p o rt e d
p r o c e e di n g s h el d i n t h e a b o v e -e ntitl e d m att e r a n d
t h at t h e t r a n s c ri pt p a g e f o r m at i s i n c o nf o r m a n c e
wit h t h e r e g ul ati o n s of t h e J u di ci al C o nf e r e n c e of t h e
U nit e d St at e s.
D a t e d t hi s 2 1 st d a y of A u g u st 2 0 1 7.
s/ C h e r yl A. N u c ci o
_________________________
C h e r yl A. N u c ci o, R M R -C R R
Offi ci al C o u rt R e p o rt e r

42a

A P P E N DI X E
U NI T E D S T A T E S DI S T RI C T
W E S T E R N DI S T RI C T O F N O R T H
C H A R L O T T E D I VI S I O
D O C K E T N O. 3: 1 5 -c r -0 0 2 2 5 -M

C O U RT
C A R O LI N A
N
O C -D C K

U N I T E D S T A T E S O F A M E R I C A,
V s.
P A T R I C K E M A N U E L S U T H E R L A N D,
D ef e n d a nt.

)
)
)
)
)
)
)
)

O R D E R

T HI S
M A T T E R i s b ef o r e t h e c o u rt o n
d ef e n d a nt’ s M oti o n f o r J u d g m e nt of A c q uitt al o n
C o u nt F o u r of t h e I n di ct m e nt ( # 4 6) a n d t h e
g o v e r n m e nt’ s R e s p o n s e i n O p p o siti o n ( # 4 7). H a vi n g
c o n si d e r e d d ef e n d a nt’ s m oti o n a n d r e vi e w e d t h e
pl e a di n g s, t h e c o u rt e nt e r s t h e f oll o wi n g O r d e r.
O R D E R
I T I S, T H E R E F O R E, O R D E R E D t h at d ef e n d a nt’ s
M oti o n f o r J u d g m e nt of A c q uitt al o n C o u nt F o u r of
t h e I n di ct m e nt ( # 4 6) i s pl a c e d o n f o r o r al a r g u m e nt s
at t h e ti m e of S e nt e n ci n g. T h e Cl e r k of C o u rt i s
i n st r u ct e d t o all ot a t ot al of 1. 5 h o u r s f o r o r al
a r g u m e nt s a n d s e nt e n ci n g.

43a
Si g n e d: D e c e m b e r 5, 2 0 1 6

44a

A P P E N DI X F
U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E W E S T E R N DI S T RI C T O F N O R T H
C A R O LI N A
( C H A R L O T T E D I V I S I O N)
) C ri mi n al A cti o n:
) 3: 1 5 -C R -2 2 5
)
)
)
)
)
)

U NI T E D S T A T E S O F
A M E RI C A
Pl ai ntiff,
v s.
P A T RI C K
S U T H E R L A N D,
D ef e n d a nt.

W e d n e s d a y, J u n e 2 1, 2 0 1 7
C h a rl ott e, N o rt h C a r oli n a
T h e a b o v e -e ntitl e d a cti o n c a m e o n f o r a
S e nt e n ci n g
H e a ri n g P r o c e e di n g a n d F o rf eit u r e
P r o c e e di n g b ef o r e t h e
H O N O R A BL E
M A X O.
C O G B U R N, J r., U nit e d St at e s Di st ri ct J u d g e,
c o m m e n ci n g at 9: 3 4 a. m.
*

*

*

M S. S U G A R: Y o u r H o n o r, if I m a y. B ef o r e w e g et
I di d n’t k n o w if t h e C o u rt w a nt e d t o r ul e o n t h e -h e a r a b o ut t h e J N O V b ef o r e w e g ot t o t h e P S R
o bj e cti o n.

45a
T H E C O U R T: Y e a h. It’ s d e n i e d. It’ s d e ni e d.
M R. D U N C A N: T h e J N O V i s d e ni e d
a r g u m e nt.

wit h o ut

T H E C O U R T: It’ s d e ni e d.
M R. D U N C A N: A g ai n, n ot e o u r o bj e cti o n, Y o u r
H o n o r.
T H E C O U R T: I u n d e r st a n d.
*

*

*

C E R TI FI C A T E
I, T r a c y R a e D u nl a p, R M R, C R R, a n Offi ci al
C o u rt R e p o rt e r f o r t h e U nit e d St at e s Di st ri ct C o u rt
f o r t h e W e st e r n Di st ri ct of N o rt h C a r oli n a, d o h e r e b y
c e rtif y t h at I t r a n s c ri b e d, b y m a c hi n e s h o rt h a n d, t h e
p r o c e e di n g s h a d i n t h e c a s e of U N I T E D S T A T E S O F
A M E RI C A
v ers us
P A T RI C K
S U T H E R L A N D,
C ri mi n al A cti o n N u m b e r 3: 1 5 -C R -2 2 5, 8 o n J u n e 2 1,
2 0 1 7.
I n wit n e s s w h e r e of, I h a v e h e r et o s u b s c ri b e d m y
n a m e, t hi s 2 8t h d a y of A u g u st, 2 0 1 7.
/ S/ T r a c y R a e D u nl a p
T R A C Y R A E D U N L A P, R M R, C R R
O F FI CI A L C O U R T R E P O R T E R

46a

A P P E N DI X G

F I L E D: M a y 1 7, 2 0 1 9
U NI T E D S T A T E S C O U R T O F A P P E A L S
F O R T H E F O U R T H CI R C UI T
___________________
N o. 1 7 -4 4 2 7
( 3: 1 5-c r -0 0 2 2 5 -M O C -D C K -1)
___________________
U NI T E D S T A T E S O F A M E RI C A
v.

Pl ai ntiff - A p p ell e e

P A T RI C K E M A N U E L S U T H E R L A N D
D ef e n d a nt - A p p ell a nt
___________________
O R D E R
___________________
T h e p etiti o n f o r r e h e a ri n g e n b a n c w a s
ci r c ul at e d t o t h e f ull c o u rt. N o j u d g e r e q u e st e d a p oll
u n d e r F e d. R. A p p. P. 3 5. T h e c o u rt d e ni e s t h e
p etiti o n f o r r e h e a ri n g e n b a n c.
F o r t h e C o u rt
/ s/ P at ri ci a S. C o n n o r, Cl e r k

47a

A P P E N DI X H
U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E W E S T E R N DI S T RI C T O F N O R T H
C A R O LI N A
C H A R L O T T E D I VI S I O N
) D O C K E T N O.
) 3: 1 5 -C R -2 2 5
)
) V OL U M EI V
)
)
)

U NI T E D S T A T E S O F
A M E RI C A
v s.
P A T RI C K E M A N U E L
S UT H E RL A N D
D ef e n d a nt.

T R A N S C RI P T O F T RI A L
B EF O R E T H E H O N O R A BL E
J R.
U NI T E D S T A T E S DI S T RI C
O C T O B E R 2 7,
*

*

P R O C E E DI N G S
M A X O. C O G B U R N,
T C O U RT J U D G E
2016
*

L I N D A P O L K, G O V E R N M E N T W I T N E S S,
S W O R N,
DI R E C T E X A MI N A TI O N
*
B Y M S. S U G A R:

*

*

48a
Q. All ri g ht. A n d ulti m at el y, I’ m g oi n g t o s h o w y o u
w h at’ s m a r k e d f o r i d e ntifi c ati o n a s G o v e r n m e nt’ s
E x hi bit 1 2 A.
G e n e r all y, w h at i s i n t hi s d o c u m e nt ?
A. T hi s i s a d o c u m e nt w e c o m pil e d t o m a k e it e a si e r
f o r p e o pl e t o l o o k a n d s e e t h e i nf o r m ati o n t h at w e’ v e
g at h e r e d b e c a u s e it w a s e xt e n si v e . S o w e j u st
st a rt e d p utti n g t h e i nf o r m ati o n i n a n d s o rti n g it b y
d at e, a n d it’ s m u c h e a si e r t o fi n d w h at y o u’ r e l o o ki n g
f o r w h e n y o u d o s o m et hi n g li k e t h at. A n d w e w a nt e d
t o s h o w w h at w a s r e p o rt e d o n t h e wi r e s a n d al s o
w h at mi g ht b e r el at e d t o it wit hi n t h e b o o k s a n d
r e c o r d s.
Q. I s t hi s a s u m m a r y c h a rt of t h e wi r e s f r o m
St e w a rt T e c h n ol o g y a n d B e r m u d a a c c o u nt s t o
S ut h e rl a n d r el at e d a c c o u nt s i n 2 0 0 6 t o 2 0 1 0 ?
A. It i s.
Q. W o ul d it b e h el pf ul t o t h e j u r y k n o wi n g w h at
h a p p e n e d i n t h e b a n k a c c o u nt s a n d t h e g e n e r al
l e d g ers?
A. Y e s.
M S. S U G A R: W e’ d off e r 1 2 A i nt o e vi d e n c e.
M R. D U N C A N: N o o bj e cti o n.
T H E C O U R T: L et it b e a d mitt e d.
( G o v e r n m e nt’ s E x hi bit N o. 1 2 A w a s r e c ei v e d i nt o
e vi d e n c e.)

49a
Q. All ri g ht. A n d l et’ s j u st f o c u s o n t h e t o p. If y o u
c o ul d t ell t h e j u r y, w h at a r e t h e y l o o ki n g at h e r e ?
A. W e’ r e l o o ki n g at t h e d at e of t h e t r a n s a cti o n, t h e
a m o u nt of t h e t r a n s a cti o n, w h at a c c o u nt it w a s p ut
i nt o o r d e p o sit e d i nt o. T h at w o ul d b e t h e n a m e of t h e
c o m p a n y, a n d t h e l a st f o u r di git s of t h e a c c o u nt
n u m b e r, t h e o ri gi n at o r , w hi c h i s St e w a rt T e c h n ol o g y
S e r vi c e s, B a n k of B e r m u d a. If t h e r e i s a n y
d e s c ri pti o n I t ri e d t o p ut s o m et hi n g i n t h e r e. A n d
t h e n t h e r e a r e b a n k e x hi bit s t h at a r e e x hi bit
n u m b e r s t h at t h e C o u rt h a s t h at w e p ut o n h e r e.
Q. J u st f o r e x a m pl e, E x hi bit 1 6 0 A, i s
t r a n s a cti o n s h o wi n g t hi s --

it a b a n k

A. Y e s.
Q. -- m o n e y t r a n sf e r ?
A. Y e s.
Q. A n d t h e n w h at i s i n t h e n e xt c ol u m n ?
A. A n d t hi s h a s t o d o wit h t h e l o a n c h a rt a n d t h at
r el at e s b a c k t o t h e e x hi bit w e j u st s a w, E x hi bit 8 0,
w hi c h w e r e li st s of l o a n s.
A n d t h e n t h e l a st t w o a r e r el at e d t o t h e
Q ui c k B o o k s g e n e r al l e d g e r, h o w it w a s t r e at e d o n t h e
g e n e r al l e d g e r a n d t h e n u m b e r, t h e e x hi bit n u m b e r
f o r t h at p a g e.
Q. All ri g ht. S o if t h e y’ r e bl a n k, t h at m e a n s y o u j u st
di d n’t h a v e t h at i nf o r m ati o n ?

50a
A. W e di d n ot h a v e t h at i nf o r m ati o n, y e s.
Q. S o w h at d o e s a n “ N”
h er e?

m e a n i n t hi s c ol u m n ri g ht

A. It m e a n s n o.
Q. S o w h at d o e s t h at
wi r e --

m e a n i n r el ati o n s hi p t o t hi s

A. T h at m e a n s w e d o n’t h a v e t h at i nf o r m ati o n o n
t h at wi r e.
Q. S o t h at wi r e w a s n ot li st e d o n t h e l o a n c h a rt ?
A. C o r r e ct -- w ell, n o w ait. O n t h e l o a n c h a rt, y e s.
Q. W ell, t h e “ N” i s u n d e r n e at h -A. Y e s. N o, it w a s n ot li st e d o n t h e l o a n c h a rt.
Q. All ri g ht. S o t h e r e w e r e s o m e wi r e s f r o m t h e
St e w a rt b a n k a c c o u nt i n B e r m u d a t h at y o u
i d e ntifi e d t h r o u g h b a n k r e c o r d s t h at w e r e n ot al s o
o n t h e li st of l o a n s t h at w a s E x hi bit 8 0.
A. Y e s.
Q. All ri g ht. A n d t h e r e’ s diff e r e nt c ol o r s of t h e s e
li n e s h e r e. D o e s t h at h a v e a n y si g nifi c a n c e i n t hi s
p a rti c ul a r c h a rt ?
A. W ell, t h e r e’ s s o m a n y diff e r e nt e ntiti e s t h at w e
t h o ug ht t h at mi g ht m a k e it e a si e r t o ki n d of
r e m e m b e r a n d fi n d a s y o u g o t h r o u g h t hi n g s.

51a
Q. S o g r e e n r efl e ct s d e p o sit s i nt o K r y ot e c h ?
A. K r y ot e c h.
Q. A n d bl u e t o X Y Z, a n d s o o n ?
A. Y e s, m a’ a m.
Q. All ri g ht. A n d I’ m g oi n g t o s c r oll t h r o u g h it. Y o u
s ai d d e s c ri pti o n, if a n y. S o, f o r e x a m pl e, if w e s e e
c o n s ulti n g f e e s w ritt e n, d o e s t h at m e a n t h at if w e
l o o k at t h e e x hi bit li st e d h e r e, t h at’ s w h at w e w o ul d
s e e a s t h e d e s c ri pti o n ?
A. It w o ul d -- y e s, it w o ul d.
Q. All ri g ht. A n d if w e s e e ‘ N’ h e r e, t h at m e a n s it’ s
n ot o n t h e c h a rt ?
A. N ot o n t h e l o a n c h a rt.
Q. A n d t h e n w h at -- w h at d o e s t hi s m e a n ?
A. T h at’ s -- w h at e v e r -- t h e t r e at m e nt o n t h e g e n e r al
l e d g e r i s r e all y t h e Q ui c k B o o k s a n d s o I l o o k e d f o r
t h e r el at e d e ntit y -- o r t h e r el at e d t r a n s a cti o n; a n d if
t h er e w a s s o m et hi n g i n t h e g e n e r al l e d g e r, t h at' s
w h at I p ut d o w n.
Q. O k a y.
A.
L o a n s,
d e p o sit s o r c a pit al
w h at e v e r. T h at’ s w h at’ s t h e r e.
Q. I s a l o a n
r e ci pi e nt ?

c o nt ri b uti o n s,

-- i s a b o n a fi d e l o a n t a x a bl e t o t h e

52a
A. N o.
Q. A n d w h at’ s a c a pit al c o nt ri b uti o n ?
A. W ell, a c a pit al c o nt ri b uti o n i s t h e e q uit y o r t h e
o w n e r’ s m o n e y t h at h e’ s p ut i nt o t h e b u si n e s s.
Q. A n d w h e n a n o w n e r p ut s m o n e y i nt o a b u si n e s s,
i s t h at t h at b u si n e s s’ s i n c o m e ?
A. N o.
Q. All ri g ht. S o b ot h l o a n s a n d c a pit al c o nt ri b uti o n s
a r e n o n -n c o m e it e m s; i s t h at f ai r ?
A. T h at’ s c o r r e ct.
Q. All ri g ht. L et’ s k e e p l o o ki n g t h r o u g h. T h at y ell o w
li n e, w h at a c c o u nt w a s t h at d e p o sit e d i nt o ?
A. T h at’ s P at ri c k S ut h e rl a n d’ s i nf o r m ati o n.
Q. It w a s a p e r s o n al b a n k a c c o u nt ?
It s a y s
S ut h e rl a n d.

d e p o sit e d t o

a n d t h e r e’ s

a

P at r i c k

A. Ri g ht.
Q. D o e s t h at c o r r e s p o n d t o a b a n k a c c o u nt ?
A. Y e s.
Q. All ri g ht. S o g oi n g d o w n t o t h e l a st p a g e, w h at
w a s t h e t ot al of all of t h e s e wi r e t r a n sf e r s y o u
i d e ntifi e d ?

53a
A. T h e r e
w er e
$ 2, 1 9 7, 6 1 9. 1 8.

127

wi r e s

and

*

*

*

t hey

t ot al e d

U NI T E D S T A T E S DI S T RI C T C O U R T
W E S T E R N DI S T RI C T O F N O R T H C A R O LI N A
C E R TI FI C A T E O F R E P O R T E R
I, C h e r yl A. N u c ci o, F e d e r al Offi ci al R e alti m e
C o u rt R e p o rt e r, i n a n d f o r t h e U nit e d St at e s Di st ri ct
C o u rt f o r t h e W e st e r n Di st ri ct of N o rt h C a r oli n a, d o
h e r e b y c e rtif y t h at p u r s u a nt t o S e cti o n 7 5 3, Titl e 2 8,
U nit e d St at e s C o d e, t h at t h e f o r e g oi n g i s a t r u e a n d
c o r r e ct t r a n s c ri pt of t h e st e n o g r a p hi c all y r e p o rt e d
p r o c e e di n g s h el d i n t h e a b o v e -e nti tl e d m att e r a n d
t h at t h e t r a n s c ri pt p a g e f o r m at i s i n c o nf o r m a n c e
wit h t h e r e g ul ati o n s of t h e J u di ci al C o nf e r e n c e of t h e
U nit e d St at e s.
D at e d t hi s 2 1 st d a y of A u g u st 2 0 1 7.
s/ C h e r yl A. N u c ci o
_________________________
C h e r yl A. N u c ci o, R M R -C R R
Offi ci al C o u rt R e p o rt e r

54a

A P P E N DI X I

G O V E R N M E N T E X H I BI T 1 2 A

JA1252

JA1253

JA1254

JA1255

JA1256

JA1257

JA1258

JA1259

JA1260

JA1261

JA1262

55a

A P P E N DI X J
U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E W E S T E R N DI S T RI C T O F N O R T H
C A R O LI N A
C H A R L O T T E D I VI S I O N
) D O C K E T N O.
) 3: 1 5 -C R -2 2 5
)
) V O L U M E II
)
)
)

U NI T E D S T A T E S O F
A M E RI C A
v s.
P A T RI C K E M A N U E L
S UT H E RL A N D
D ef e n d a nt.

T R A N S C RI P T O F T RI A L P R O C E E DI N G S
B E F O R E T H E H O N O R A B L E M A X O. C O G B U R N,
J R.
U NI T E D S T A T E S DI S T RI C T C O U R T J U D G E
O C T O B E R 2 5, 2016
*

*

*

R AJ E N D E R W E S T
D I R E C T E X A M I N A T I O N ( C o nt ’d.)
B Y M R. R Y A N:
Q. A g e nt W e st, I ’m g oi n g t o s h o w y o u w h at h a s
b e e n p r e vi o u sl y a d mitt e d a s G o v e r n m e nt' s E x hi bit
8 1.

56a
I s t hi s a d o c u m e nt t h at w a s p r o vi d e d o n b e h alf of
P at ri c k S ut h e rl a n d t o t h e g o v e r n m e nt ?
A. Y e s.
Q. W h at i s t hi s d o c u m e nt ?
A. It’ s a t r a n sf e r o r a s si g n m e nt of p r o p e rt y i nt e r e st
b et w e e n P at ri c k S ut h e rl a n d a n d St e w a rt T e c h n ol o g y
S e r vi c e s d at e d D e c e m b e r 2 8, 2 0 0 7.
Q. A n d w h at’ s t h e fi r st p a r a g r a p h p r o vi d e ?
A. It s a y s t h at “ P at ri c k S ut h e rl a n d, a r e si d e nt of
N o rt h C a r oli n a, h e r e b y g r a nt s St e w a rt T e c h n ol o g y
S e r vi c e s, a B e r m u d a b a s e d c o m p a n y, t h e f oll o wi n g
i nt e r e st i n t h e p r o p e rti e s li st e d b el o w a n d o w n e d b y
m e.” A n d t h at i s # 1 0 M o u nt H a r d y i n St. L u ci a a n d
t h e n 0 0 St e el C r e e k R o a d i n B r e v a r d, N o rt h
C a r oli n a. T h e i nt e r e st g r a nt e d wit h r e s p e ct t o t h e St.
L u ci a p r o p e rt y i s . 0 4 p e r c e nt, I’ m a s s u mi n g, i nt e r e st
g r a nt e d, a n d t h e n . 0 6 p e r c e nt i nt e r e st g r a nt e d i n t h e
St e el C r e e k R o a d p r o p e rt y i n B r e v a r d, N o rt h
C a r oli n a.
Q. A n d y o u k n o w -- y o u s ai d y o u p r e s u m e it’ s . 0 4
p e r c e nt. D o y o u k n o w if it ’ s 4 p e r c e nt o r . 0 4 p e r c e nt ?
A. I d o n’t k n o w f r o m t h e w a y it’ s w ritt e n.
Q. A n d w h o i s t hi s d o c u m e nt p u r p o rt e dl y si g n e d b y ?
A. P. S ut h e rl a n d a b o v e t h e P at ri c k S ut h e rl a n d t y p e d
si g n at o r y li n e.
Q. C a n y o u m a k e o ut --

57a
A. A n d t h e n B e v e rl y -- o r B. St e w a rt i n t h e l o w e r
ri g ht h a n d -- o r l eft -h a n d c o r n e r.
Q. S h o w y o u w h at ’s b e e n p r e vi o u sl y a d mitt e d a s
G o v e r n m e nt’ s E x hi bit 8 3.
I s t hi s a si mil a r d o c u m e nt f o r 2 0 0 9 ?
A. It i s. It’ s a si mil a r “ T r a n sf e r/ a s si g n m e nt of
p r o p e rt y i nt e r e st b et w e e n P at ri c k S ut h e rl a n d a n d
St e w a rt T e c h n ol o g y S e r vi c e s” d at e d J u n e 3 0, 2 0 0 9.
Q. I s t hi s al s o a d o c u m e nt t h at w a s p r o vi d e d o n
b e h alf of M r. S ut h e rl a n d t o t h e g o v e r n m e nt ?
A. Y e s.
Q. A n d w h o’ s it p u r p o rt e dl y si g n e d b y ?
A. P. S ut h e rl a n d a n d B. St e w a rt.
Q. A n d d o e s t hi s d o c u m e nt p u r p o rt t o g r a nt i nt e r e st
i n c e rt ai n p r o p e rti e s t o St e w a rt T e c h n ol o g y ?
A. It d o e s.
Q. W h at a r e t h o s e p r o p e rti e s ?
A. T h e fi r st i s 1 1 3 S e a vi e w G a r d e n s, P h a s e 1,
Ki n g st o n, J a m ai c a. A n d t h e i nt e r e st g r a nt e d i s 2 7
p e r c e nt. A n d t h e s e c o n d i s L ot 7 1 3 6, D a rli st o n,
J a m ai c a . A n d t h e i nt e r e st g r a nt e d i s 2 6 p e r c e nt.
Q. A n d t h e a d d r e s s t h e r e, 1 1 3 S e a vi e w G a r d e n s,
P h a s e 1, Ki n g st o n, J a m ai c a, i s t h at t h e s a m e

58a
a d d r e s s w e s a w a s t h e h o m e a d d r e s s li st e d f o r
B e v e rl y St e w a rt o n t h e H S B C B e r m u d a d o c u m e nt s ?
A. Y e s, it i s.
Q.
And
w h at’ s
t hi s
G o v e r n m e nt’ s E x hi bit 8 3 ?

p ar a gr a p h

p r o vi d e

in

A. It s a y s t h at “t h e a b o v e i nt e r e st s a r e b ei n g g r a nt e d
a s p a y m e nt s i n ki n d t o off s et 1 4 4, 0 0 0 of y e a r 2 0 0 9
o ut st a n di n g l o a n o bli g ati o n s o w e d b y m e t o St e w a rt
a n d t hi s a g r e e m e nt will b e f ull y e nf o r c e a bl e b y a n y
c o u rt of l a w.”
Q.
Di d
P at ri c k
S ut h e rl a n d
p r o vi d e si mil a r
d o c u m e nt s o r w e r e si mil a r d o c u m e nt s p r o vi d e d o n
b e h alf of P at ri c k S ut h e rl a n d f o r t h e y e a r s 2 0 0 8,
2 0 0 9, a n d 2 0 1 0 ?
A. Y e s.
Q.
W as a
d o c u m e nt s ?

c h a rt

pr e p ar e d

s u m m a ri zi n g

t hose

A. Y e s.
Q. L et m e s h o w y o u w h at’ s
G o v e r n m e nt’ s E x hi bit 1 1.
D o y o u r e c o g ni z e it ?
A. I d o.
Q. W h at i s it ?

bee n

m ar k e d

as

59a
A. It’ s a s u m m a r y c h a rt of t h e t r a n sf e r a n d
a s si g n m e nt p r o p e rt y i nt e r e st d o c u m e nt s t h at w e r e
p r o vi d e d o n b e h alf of P at ri c k S ut h e rl a n d, a n d it
r efl e ct s t h e p e r c e nt a g e s t h at w e r e t r a n sf e r r e d
p u r p o rt e dl y t h r o u g h t h o s e d o c u m e nt s b et w e e n
P at ri c k
S ut h e rl a n d
and
St e w a rt
T e c h n ol o g y
S e r vi c e s.
Q. A n d t hi s -- t hi s c h a rt a s s u m e s t h at w h e n it s ai d
. 0 4, . 0 4, t h at t h at w a s a ct u all y a p e r c e nt a g e, c o r r e ct ?
A. C o r r e ct.
M R. R Y A N: I w o ul d off e r G o v e r n m e nt' s E x hi bit
1 1 a s a s u m m a r y c h a rt.
M R. D U N C A N: N o o bj e cti o n.
T H E C O U R T: L et it a d mitt e d.
( G o v e r n m e nt’ s E x hi bit N o. 1 1 w a s r e c ei v e d i nt o
e vi d e n c e.)
Q. A g e nt W e st, a g ai n, c o ul d y o u e x pl ai n f o r t h e j u r y
w h at’ s r efl e ct e d h e r e f o r 2 0 0 7.
A. S o f o r 2 0 0 7, a s s u mi n g t h at w h at w e r e vi e w e d o n
t h e p r e vi o u s d o c u m e nt i s i n di c ati v e of p e r c e nt a g e,
it’ s t h at t h e t r a n sf e r a g r e e m e nt t r a n sf e r r e d 4 p e r c e nt
i nt e r e st i n t h e # 1 0 M o u nt H a r d y, St. L u ci a p r o p e rt y,
a n d t h e 0 0 St e el C r e e k R o a d p r o p e rt y i n B r e v a r d,
N o rt h C a r oli n a, 6 p e r c e nt i n t h at r e s p e ct i n 2 0 0 7.
Q. A n d t h e n t h at i nf o r m ati o n c o m e s f r o m
b e e n m a r k e d a s G o v e r n m e nt' s E x hi bit 8 1 ?

w h at’ s

60a
A. T h at’ s c o r r e ct.
Q. A n d f o r 2 0 0 8 ?
A. 5 p e r c e nt i n t h e # 1 0 M o u nt H a r d y p r o p e rt y a n d 6
p e r c e nt f o r t h e St e el C r e e k R o a d p r o p e rt y.
Q. A n d f o r all t h o s e y e a r s c o m bi n e d, h o w m u c h
p e r c e nt a g e w a s p u r p o rt e dl y g r a nt e d i n t h e M o u nt
H a r d y, St. L u ci a p r o p e rt y ?
A. 1 8 p e r c e nt.
Q. A n d f o r t h e St e el C r e e k R o a d p r o p e rt y ?
A. 2 3 p e r c e nt.
Q. F o r t h e S e a vi e w G a r d e n s p r o p e rt y ?
A. 2 7 p e r c e nt.
Q. A n d f o r t h e D a rli st o n, J a m ai c a p r o p e rt y ?
A. 2 6 p e r c e nt .
*

*

*

U NI T E D S T A T E S DI S T RI C T C O U R T
W E S T E R N DI S T RI C T O F N O R T H C A R O LI N A
C E R TI FI C A T E O F R E P O R T E R
I, C h e r yl A. N u c ci o, F e d e r al Offi ci al R e alti m e
C o u rt R e p o rt e r, i n a n d f o r t h e U nit e d St at e s Di st ri ct
C o u rt f o r t h e W e st e r n Di st ri ct of N o rt h C a r oli n a, d o

61a
h e r e b y c e rtif y t h at p u r s u a nt t o S e cti o n 7 5 3, Titl e 2 8,
U nit e d St at e s C o d e, t h at t h e f o r e g oi n g i s a t r u e a n d
c o r r e ct t r a n s c ri pt of t h e st e n o g r a p hi c all y r e p o rt e d
p r o c e e di n g s h el d i n t h e a b o v e -e ntitl e d m att e r a n d
t h at t h e t r a n s c ri pt p a g e f o r m at i s i n c o nf o r m a n c e
wit h t h e r e g ul ati o n s of t h e J u di ci al C o nf e r e n c e of t h e
U nit e d St at e s.
D at e d t hi s 2 1 st d a y of A u g u st 2 0 1 7.
s/ C h e r yl A. N u c ci o
_________________________
C h e r yl A. N u c ci o, R M R -C R R
Offi ci al C o u rt R e p o rt e r

62a

A P P E N DI X K
U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E W E S T E R N DI S T RI C T O F N O R T H
C A R O LI N A
C H A R L O T T E D I VI S I O N
) D O C K E T N O.
) 3: 1 5 -C R -2 2 5
)
) V OL U M E V
)
)
)

U NI T E D S T A T E S O F
A M E RI C A
v s.
P A T RI C K E M A N U E L
S UT H E RL A N D
D ef e n d a nt.

T R A N S C RI P T O F T RI A L
B EF O R E T H E H O N O R A BL E
J R.
U NI T E D S T A T E S DI S T RI C
O C T O B E R 2 8,
*

*

P R O C E E DI N G S
M A X O. C O G B U R N,
T C O U RT J U D G E
2016
*

T H E C O U R T: M e m b e r s of t h e j u r y, t h a n k y o u
v e r y m u c h f o r y o u r p ati e n c e. Y o u’ v e b e e n v e r y
p ati e nt d u ri n g t hi s t ri al a n d I a p p r e ci at e it. A n d
v e r y att e nti v e, t o o. T h a n k y o u.
W e’ v e n o w c o m e t o t h e p a rt of t h e c a s e t h at’ s t h e
cl o si n g a r g u m e nt s. T h e p a rti e s n o w c a n a r g u e w h at
t h e y s a y y o u s h o ul d t hi n k t h e e vi d e n c e s h o w s. W h at
t h e e vi d e n c e d o e s s h o w i s u p t o y o u. T h e y a r e

63a
e ntitl e d a n d will p r o p e rl y m a k e a r g u m e nt a b o ut
t h ei r c o nt e nti o n s t o y o u a n d y o u s h o ul d li st e n t o
t h o s e. B ut i n t h e e n d it i s y o u r d e ci si o n t o m a k e w it h
r e g a r d t o h o w y o u vi e w t h e e vi d e n c e i n t h e c a s e. If
t h e y a r g u e s o m et hi n g t h at y o u r m e m o r y diff e r s
f r o m, y o u t a k e y o u r m e m o r y, n ot t h ei r m e m o r y.
Al s o, r e m e m b e r at all ti m e s t h at w h at t h e
att o r n e y s s a y i s n ot e vi d e n c e. T h e y’ r e a r g ui n g t h ei r
c o nt e nti o n s. T h e y c a n a r g u e w h at t h e y s a y t h e
e vi d e n c e s h o w e d. B ut t h e e vi d e n c e h a s t ol d it s st o r y
f r o m t h e st a n d a n d y o u’ll h a v e t o m a k e t h e d e ci si o n
w h e n y o u h e a r t h ei r a r g u m e nt s a s t o h o w y o u
s h o ul d vi e w t h e e vi d e n c e. A n d y o u s h o ul d li st e n t o
t hi s b e c a us e t h e y m a y b e p e r s u a si v e t o y o u i n o n e
r e g a r d o r a n ot h e r. Y o u s h o ul d li st e n t o t h e s e
t hi n g s. B ut i n t h e e n d it i s y o u r c all t o d et e r mi n e
w h at t h e e vi d e n c e i s.
N o w, w h e n w e fi ni s h wit h t h e a r g u m e nt s, I will
gi v e y o u t h e l a w. I will gi v e y o u t h e l a w i n all
r e s p e ct s t h at y o u’ r e t o a p pl y t o t h e f a ct s t h at y o u
fi n d.
S o o n c e t h at’ s h a p p e
f a ct s a r e r e a d y t o m a k e
y o u’ v e g ot t h e l a w f r o m
m a k e y o u r v e r di ct i n t h e

n e d a n d t h e j u d g e s of t h e
t h ei r c all o n t h e f a ct s a n d
m e, t h e n y o u’ll b e r e a d y t o
c a s e.

S o l et’ s g o a h e a d -- t h e g o v e r n m e nt h a s t h e
o p e ni n g a n d t h e cl o s e b e c a u s e t h e y h a v e t h e b u r d e n
of p r o of.
Y e s, si r.

64a
M R. D U N C A N: Y o u r H o n o r, I’ m n ot s u r e t h at
w e di d it, b ut t h e d ef e n s e r e st s.
T H E C O U R T: O h, I’ m s o r r y. T h e d ef e n s e -- y e s.
W e di d t h at o ut of y o u r p r e s e n c e a n d I s h o ul d h a v e
h a d it al s o d o n e i n y o u r p r e s e n c e. W e w e r e -- w e di d
all t h o s e t hi n g s w hil e y o u w e r e o ut. S o t h a n k y o u
v e r y m u c h f o r b ri n gi n g t h at u p.
M R. D U N C A N: T h a n k y o u.
T H E C O U R T: A p p r e ci at e it.
A n d t h e g o v e r n m e nt h a s n o r e b utt al.
M R. R Y A N: C o r r e ct, Y o u r H o n o r.
T H E C O U R T: All ri g ht. S o w e n o w m o v e f o r w a r d
i nt o t h e cl o si n g a r g u m e nt s a n d t h e g o v e r n m e nt will
h a v e t h e o p e ni n g a n d t h e cl o si n g b e c a u s e t h e y h a v e
t h e b u r d e n of p r o of. T h e j u r y i s wit h t h e g o v e r n m e nt
f o r cl o si n g.
M R. R Y A N: T h a n k y o u, Y o u r H o n o r.
M a y it pl e a s e t h e C o u rt:
T hi s i s a si m pl e c a s e, a si m pl e c a s e a b o ut
c h e ati n g a n d l yi n g. T h e d ef e n d a nt li e d o n hi s t a x
r et u r n s a n d h e c h e at e d U n cl e S a m. A n d w h e n t h e
g o v e r n m e nt c a m e c alli n g a n d i s s u e d s o m e g r a n d
j u r y s u b p o e n a s t o hi s c o m p a ni e s, h e li e d t o c o v e r u p
hi s t r a c k s a n d t o o b st r u ct j u sti c e.
T h e d ef e n d a nt li e d o n hi s t a x r et u r n s b y f aili n g t o
r e p o rt all of t h e i n c o m e, b ot h t h e d o m e sti c i n c o m e

65a
y o u h e a r d a b o ut a n d i n c o m e f r o m t h o s e -- f r o m t h at
b a n k a c c o u nt i n B e r m u d a, f r o m t h at c o m p a n y t h at
h e c o nt r ol l e d, St e w a rt T e c h n ol o g y.
T h r o u g h t h o s e li e s t h e d ef e n d a nt c h e at e d. H e
c h e at e d U n cl e S a m o ut of hi s f ai r s h a r e of t a x e s. I n
f a ct, i n 2 0 0 9, t h e d ef e n d a nt a ct u all y g ot a p a y m e nt
f r o m t h e U. S. T r e a s u r y b y cl ai mi n g t h e e a r n e d
i n c o m e c r e dit, a c r e dit i nt e n d e d f o r t h e p o o r a n d
di s a d v a nt a g e d.
A r e t h o s e t h e h o u s e s of a
t h e e a r n e d i n c o m e c r e dit ?

m a n w h o q u alifi e s f o r

P at ri c k S ut h e rl a n d w a s n’t p o o r a n d h e w a s n't
di s a d v a nt a g e d. H e r a n a b u si n e s s e m pi r e, n u m e r o u s
b u si n e s s e s. T o o m a n y f o r m o st p e o pl e t o k e e p t r a c k
of. A n d h e w a s li vi n g l a r g e.
Hi s si st e r, B e v e rl y St e w a rt, s h e w a s n’t li vi n g
l a r g e. W hil e t h e d ef e n d a nt w a s b uil di n g a n e m pi r e
of c o m p a ni e s s elli n g c o m pl e x lif e i n s u r a n c e p r o d u ct s
t o s o p hi sti c at e d b a n k s a n d fi n a n ci al i n stit uti o n s a n d
e a r ni n g a p r ett y p e n n y al o n g t h e w a y, hi s si st e r w a s
s p e n di n g h e r s u m m e r s w o r ki n g a s a m ai d a n d a c o o k
at a B e st W e st e r n i n C o d y, W y o mi n g, a n d s h e w a s
b a r el y m a ki n g a b o v e mi ni m u m w a g e.
W hil e t h e d ef e n d a nt w a s li vi n g i n a milli o n d oll a r
h o m e a n d v a c ati o ni n g i n hi s h o u s e i n S t. L u ci a b y
t h e o c e a n, hi s si st e r w a s li vi n g i n a h o u s e i n J a m ai c a
t h at h e o w n e d. S h e s p e nt h e r s u m m e r s li vi n g i n a
c a bi n n e xt t o t h e B e st W e st e r n i n C o d y, W y o mi n g.

66a
T h e d ef e n d a nt s e nt hi s d a u g ht e r t o a n e x p e n si v e
p ri v at e s c h o ol h e r e i n C h a rl ott e a n d i n t h e y e a r s i n
q u e sti o n h e s p e nt o v e r $ 8 4, 0 0 0 o ut of hi s o w n p o c k et
o n t h at t uiti o n. $ 8 4, 0 0 0. T h at' s al m o st $ 2 1, 0 0 0 a
y e a r.
Hi s si st e r w a s i n s c h o ol t o o. Y o u h e a r d a b o ut
t h at. S h e w a s a f ull -ti m e st u d e nt at a c o m m u nit y
c oll e g e i n B e r m u d a st u d yi n g h o s pit alit y. A n d s h e
n e e d e d t o b o r r o w m o n e y j u st t o aff o r d t h at 6 0 0
b u c k s s o s h e c o ul d g o o n t h at p r o g r a m f o r t h e
o p p o rt u nit y t o w o r k at t h at B e st
W e st e r n i n
W y o mi n g.
T h e d ef e n d a nt w a s li vi n g l a r g e, b ut t h e t a x e s h e
w a s p a yi n g, w ell, t h o s e w e r e p r ett y s m all i n
c o m p a ri s o n.
B e v e rl y St e w a rt w a s n ot li vi n g l a r g e. B ut o n hi s
p a p e r s -- o n p a p e r, hi s t a x r et u r n s, hi s b a n k
a c c o u nt s, hi s e m ail s, hi s i n s u r a n c e c o nt r a ct s, w ell, it
w o ul d b e e a s y t o c o nf u s e hi m wit h hi s si st e r i n m o r e
w a y s t h a n o n e.
N o w, m o st p e o pl e d o n ’t li k e p a yi n g t a x e s. A n d
n e a rl y e v e r y b o d y wi s h e s t h e y p ai d l e s s. B ut p a yi n g
t a x e s i s t h e p ri c e w e all h a v e t o p a y t o k e e p t hi s
c o u nt r y r u n ni n g. T h e l a w r e q ui r e s e v e r y b o d y w h o
m a k e s i n c o m e t o p a y t a x e s, t o p a y t h ei r f ai r s h a r e.
A n d t hi s d ef e n d a nt f ail e d t o d o s o.
F r o m 2 0 0 7 t o 2 0 1 0, d e s pit e r e c ei vi n g a
s u b st a nti al i n c o m e a n d m o r e t h a n 2. 1 milli o n i n
wi r e s f r o m B e r m u d a, t h e d ef e n d a nt r e p o rt e d a t ot al
of $ 2 7 6, 6 9 7 i n i n c o m e. A n d h e w a s a s s e s s e d a t ot al

67a
of $ 1 2, 4 8 3 i n t a x e s. N o w, it ’s a s s e s s e d. T h at’ s n ot
t a x e s p ai d. If y o u t hi n k a b o ut t a x e s p ai d aft e r all t h e
c r e dit s t h e d ef e n d a nt cl ai m e d, h e p ai d a t ot al i n
t h e s e f o u r y e a r s of $ 7, 3 2 2 i n t a x e s. L et’ s t a k e a
cl o s e r l o o k at s o m e of hi s r et u r n s.
2 0 0 7. 2 0 0 7 h e r e p o rt s i n c o m e of 9 8, 0 0 0 a n d
c h a n g e. B ut o n c e y o u f a ct o r i n all of hi s d e d u cti o n s
f o r hi s m o rt g a g e, hi s p r o p e rt y t a x e s, t hi n g s li k e t h at,
hi s i n c o m e g o e s d o w n t o 7 8 2 d oll a r s -- o r 6 2 d oll a r s.
H o w m u c h t a x e s di d h e h a v e t o p a y ? W ell, aft e r hi s
c r e dit s, z e r o. Z e r o d oll a r s i n t a x e s f o r 2 0 0 7. N ot a
p e n n y.
2 0 0 8. W hil e h e r e p o rt s al m o st $ 8 9, 0 0 0 i n i n c o m e - of c o u r s e, y o u h e a r d w h e r e m o st of t h at c a m e f r o m.
$ 8 4, 0 0 0 of t h at w a s a wit h d r a w al f r o m hi s I R A
a c c o u nt. B ut e v e n aft e r t h at wit h d r a w al, wit h all hi s
d e d u cti o n s, n o t a x a bl e i n c o m e a n d n o t a x.
N o w, h e di d h a v e t o p a y s o m e t a x e s o n t h at I R A
a s a p e n alt y a n d I’ m s u r e y o u’ r e g oi n g t o h e a r a b o ut
t h at. Y o u mi g ht a s k w h y -- w h y di d t h e d ef e n d a nt d o
t h at ? W h y w o ul d h e p a y a p e n alt y ? W ell, it w a s n’t
b e c a u s e t h e c o m p a ni e s n e e d e d t h e m o n e y b e c a u s e
y o u s a w w h e r e t h at m o n e y w e nt. A g e nt W e st
s h o w e d y o u t h o s e wi r e s. C a m e i n f r o m t h e I R A.
W e nt o ut t o s o m e g u y n a m e d Mi c h a el Gi z a w.
Mi c h a el Gi z a w d o e s n’t r u n hi s c o m p a ni e s. H a s
n ot hi n g t o d o wit h hi s c o m p a ni e s.
2 0 0 9,
$ 1 6, 6 6 9 i n i n c o m e.
O b vi o u sl y
hi s
d e d u cti o n s e r a s e d t h at. S o n o t a x. H e di d h a v e s o m e
s elf -e m pl o y m e nt t a x; b ut wit h all t h e c r e dit s,

68a
i n cl u di n g t h at e a r n e d i n c o m e c r e dit t h e r e of 3, 0 0 0
a n d c h a n g e, U n cl e S a m c ut hi m a c h e c k f o r $ 2, 1 7 1.
2 0 1 0, 6 2, 0 0 0 a n d c h a n g e i n i n c o m e r e p o rt e d.
Aft e r d e d u cti o n s, t a x a bl e i n c o m e w a s $ 1 4 6. T a x w a s
$ 1 4, w hi c h, of c o u r s e, w a s off s et b y hi s c r e dit s. Z e r o
d oll a r s. Z e r o d oll a r s i n t a x e s.
I s u b mit t o y o u, l a di e s a n d g e ntl e
a r e a b s u r d o n t h ei r f a c e. T h e y d o n’t
B ut e v e n p utti n g a si d e t h at t h e y ’r e
f a c e, w h at el s e d o n’t t h e y i n cl u d e
a b o ut ?

m e n, t h e s e t a x e s
m a k e a n y s e n s e.
a b s u r d o n t h ei r
t h at y o u k n o w

T h e y d o n ’t i n cl u d e t h at d o m e sti c i n c o m e y o u
h e a r d a b o ut, t h e r e nt al i n c o m e f r o m S e a n C a hill.
Y o u r e m e m b e r h e t e stifi e d. H e p ai d d ef e n d a nt
m o nt hl y c h e c k s f o r t h at r e nt. $ 4 1, 0 0 0 d u ri n g t h e
r el e v a nt p e ri o d.
M r. A dl e r, h e t al k e d a b o ut t h e c h e c k s t h at hi s
c o m p a n y, Gl o b al Fi n a n ci al S y n e r gi e s, w r ot e t o t h e
d ef e n d a nt f o r hi s i n s u r a n c e w o r k. T h at’ s a n ot h e r
$ 3 8, 0 0 0 i n i n c o m e. T h at’ s n ot o n t h e r e.
T h e n y o u’ v e g ot a n ot h e r 3 0, 0 0 0 pl u s i n p a y m e nt s
f r o m I n n o v ati o n P a rt n e r s t o t h e d ef e n d a nt’ s wif e.
T h at’ s n ot o n t h e r e.
T h at st uff al o n e i s a n ot h e r $ 1 1 0, 0 0 0 i n i n c o m e.
N ot o n t h o s e t a x r et u r n s.
T h o s e t a x r et u r n s al s o d o n ’t i n cl u d e all t h o s e
b u si n e s s p a y m e nt s y o u h e a r d a b o ut f o r t h e b e n efit of
hi s d a u g ht e r. R e m e m b e r, t h at w a s E x hi bit 1 9 B if I

69a
r e c all. T h at w a s t h e o n e t h at s h o w e d t h at o n h e r
bi rt h d a y, o n e of t h e b u si n e s s e s c ut h e r a $ 1, 3 0 0
c h e c k.
Y o u s a w a c h e c k t h e r e t o C h a rl ott e C o u nt r y D a y
f o r h e r s c h o ol.
A n d t h e n, of c o u r s e, t h e el e p h a nt i n t h e r o o m.
W e’ v e g ot t o t al k a b o ut t h at m o n e y f r o m B e r m u d a.
$ 2. 1 milli o n i n wi r e s f r o m t h e St e w a rt T e c h n ol o g y
a c c o u nt t o t h e d ef e n d a nt a n d hi s c o m p a ni e s f r o m
2 0 0 7 t o 2 0 1 0. M o r e t h a n 1 2 5 diff e r e nt wi r e s g oi n g t o
all ki n d s of a c c o u nt s, all ki n d s of c o m p a ni e s. T h e
e vi d e n c e i s cl e a r t h at t h e s e w e r e n ot l o a n s a n d t h at
t h e d ef e n d a nt h a d n o i nt e nti o n of p a yi n g t h at m o n e y
b a c k. H o w d o y o u k n o w ? W ell, l et’ s c o u nt t h e w a y s.
We k no w
m o n e y.

B e v e rl y

St e w a rt

di d n ’t

h a v e t h at

W e k n o w t h e l o a n d o c u m e nt s o n t h ei r f a c e a r e
f a ci all y a b s u r d.
W e k n o w t h at t h e d ef e n d a nt w a s n ot li vi n g t h e
lif e st yl e of s o m e o n e w h o n e e d e d t o b o r r o w all t hi s
m o n e y.
W e s a w t h e b o o k s a n d r e c o r d s of St e w a rt
T e c h n ol o g y. T h e y d o n’t h a v e t h o s e l o a n s o n t h e m.
W e s a w d ef e n d a nt ’s b o o k s a n d r e c o r d s. T h e y d o n’t
e v e n t r e at t h e s e p a y m e nt s c o n si st e ntl y.

70a
W e s a w t h e d ef e n d a nt’ s c o m p a ni e s, s o m e of t h ei r
b o o k s a n d r e c o r d s a n d t h ei r b al a n c e s h e et s. T h e y
di d n’t n e e d t h e m o n e y. W e’ll g et i nt o t h at.
Y o u s a w h o w t h o s e p a y m e nt s w e r e m a d e. All o v e r
t h e pl a c e. F r e q u e n c y v a ri e d m o nt hl y, d ail y, w e e kl y.
T h at’ s n ot h o w l o a n s o p e r at e.
Y o u al s o h e a r d all t h at e vi d e n c e f r o m all t h o s e
ni c e m e n i n i n s u r a n c e -- t h at u s e d t o b e i n t h e
i n s u r a n c e b u si n e s s t h at li k e t o t al k. Y o u h e a r d
a b o ut all t h e w o r k t h e y di d o n i n s u r a n c e c o nt r a ct s
wit h P at ri c k S ut h e rl a n d a n d h o w t h e y g ot p ai d f o r
t h at
w o r k a n d t h e y g ot p ai d f r o m St e w a rt
T e c h n ol o g y, b ut s o m e h o w h e di d n ’t.
Y o u al s o h e a r d all t h at e vi d e n c e a b o ut h o w
d ef e n d a nt
w a s t h e o n e c o nt r olli n g
St e w a rt
T e c h n ol o g y.
A n d t h e n fi n all y, h o w d o w e k n o w t h e s e l o a n s
w e r e a s h a m ? W ell, t h e y w e r e n e v e r p ai d b a c k.
S o l et’ s g et i nt o s o m e of t hi s i n m o r e d et ail.
B e v e rl y St e w a rt, b y all a c c o u nt s a w o n d e rf ul
w o m a n. H a r d w o r ki n g w o m a n. A d ri v e n w o m a n. S h e
di d w ell at h e r j o b. Y o u h e a r d M r. G a rl o w. H e w o ul d
h a v e h a d h e r b a c k a n y s u m m e r s h e w a nt e d t o c o m e.
A n d s h e c a m e t h o s e t h r e e s u m m e r s. A n d s h e e a r n e d
e v e r y p e n n y of t h at m o n e y f o r h e r h a r d w o r k. S h e
t ri e d t o c o m e t w o m o r e s u m m e r s b ut w a s d e ni e d f o r
v a ri o u s r e a s o n s.

71a
Di d s h e r e all y h a v e a c o m p a n y wit h $ 2 milli o n
l a yi n g a r o u n d t h at s h e c o ul d j u st l o a n t o t h e
d ef e n d a nt ? N ot r e q ui r e a n y p a y m e nt f o r s e v e n
y e a r s. N ot r e all y c a r e a b o ut t h e i nt e r e st. N ot r e all y
c a r e w h e n it w e nt o ut o r c a m e i n. T h at’ s j u st a b s u r d.
T h e d ef e n d a nt n e v e r i nt e n d e d t o p a y a n y of t h at
m o n e y b a c k.
I m e a n, w h e n y o u g o b a c k i n t h at j u r y r o o m t o
d eli b e r at e, t h e j u d g e i s g oi n g t o i n st r u ct y o u. Y o u’ll
g et t h e j u d g e’ s l a w. Y o u’ll g et t h e f a ct s t h at w e r e
a d mitt e d. Y o u’ll g et t h e d o c u m e nt s. Y o u’ll g et t h e
t e sti m o n y t h at c a m e i n. B ut y o u g et y o u r c o m m o n
s e n s e. Y o u g et y o u r r e a s o ni n g. Y o u d o n’t h a v e t o
c h e c k t h at at t h e d o o r. W h e n y o u u s e t h at, y o u k n o w
w h at t h o s e p a y m e nt s w e r e.
B e v e rl y St e w a rt w a s n’t s o m e q ui r k y, s e c r et
milli o n ai r e w h o alt e r n at e d h e r ti m e fl yi n g a r o u n d
E u r o p e s elli n g s oft w a r e li k e M r. P ri c e s ai d a n d t h e n
s p e nt s o m e ti m e i n B e r m u d a r u n ni n g t hi s i n s u r a n c e
c o m p a n y a n d t h e n s p e nt s o m e ti m e i n C h a rl ott e
si g ni n g p a p e r s, a p p a r e ntl y, a n d t h e n s p e nt a n ot h e r
f ai r a m o u nt of ti m e i n J a m ai c a g oi n g t o s c h o ol f ullti m e, b ut t h e n s p e n di n g h e r s u m m e r s i n C o d y,
W y o mi n g, w o r ki n g at B e st W e st e r n. D o e s t h at s o u n d
li k e a n y r ati o n al p e r s o n t h at e xi st e d e v e r ?
Y o u h e a r d f r o m M r. G a rl o w a n d M s. K e rf o ot.
T h e y b ot h m et t h e w o m a n p e r s o n all y. B ot h h a d
w o n d e rf ul t hi n g s t o s a y a b o ut h e r. B ut t h e y w e r e
b ot h v e r y c o n si st e nt. S h e di d n ’t s e e m li k e a w o m a n
w h o h a d milli o n s of d oll a r s l a yi n g a r o u n d o r o w n e d a

72a
c o m p a n y t h at h a d milli o n s of d oll a r s l a yi n g a r o u n d.
T h at t e sti m o n y i s u n c o nt r o v e rt e d.
W h y el s e d o y o u k n o w t h e d ef e n d a nt ’s l o a n s w e r e
a s h a m ? W ell, t h e l o a n d o c u m e nt s t h e m s el v e s. L et ’s
l o o k at t h e m.
B e v e rl y St e w a rt di d n’t si g n t h o s e l o a n d o c u m e nt s.
Y o u k n o w t h at. T hi s i s B e v e rl y St e w a rt’ s si g n at u r e.
T h e s e a r e t h e d o c u m e nt s f r o m M r. G a rl o w, t h e o n e s
t h at B e v e rl y St e w a rt p e r s o n all y p r o vi d e d t o hi s
c o m p a n y w h e n s h e w a s g etti n g e m pl o y e d t h e r e. H e r
p a s s p o rt. L o o k at h e r m ai d e n n a m e. It’ s S ut h e rl a n d.
L o o k at h e r o c c u p ati o n. C o s m et ol o gi st. L o o k at all
t h e s e ot h e r d o c u m e nt s s h e si g n e d. T h at si g n at u r e i s
e nti r el y c o n si st e nt a n d it’ s p r ett y di sti n ct.
T h e r e c o r d s f r o m M s. K e rf o ot, s h e h a d s o m e
r e c o r d s t o o wit h t h e e x a ct s a m e si g n at u r e. T h at’ s i n
e vi d e n c e.
L et’ s l o o k at t h o s e l o a n d o c u m e nt s. T h at d o e s n’t
l o o k li k e t h e s a m e si g n at u r e, I s u b mit. D o e s t h at
l o o k t h e s a m e t o y o u?
W h o si g n e d t h o s e d o c u m e nt s ? W a s it B e v e rl y
St e w a rt, t h e c o s m et ol o gi st, o r w a s it B e v e rl y
S ut h e rl a n d St e w a rt, t h e c o s m et ol o gi st, o r w a s it
B e v e rl y St e w a rt, t h e c o s ?
W h o si g n e d t h o s e
d o c u m e nt s ? W e k n o w it w a s n’t B e v e rl y St e w a rt.
M a y b e it w a s t h e s a m e p e r s o n w h o si g n e d t h e H S B C
B e r m u d a r e c o r d s. L et’ s l o o k at t h o s e si g n at u r e s si d e
b y si d e.

73a
W h at h a p p e n s if w e p ut o n e o n t o p of t h e ot h e r ?
P r ett y t elli n g. N ot t h at. It’ s n ot B e v e rl y St e w a rt' s
si g n at u r e. W e k n o w t h at.
H e r e’ s s o m e ot h e r d o c u m e nt s f r o m
HS B C
B e r m u d a. T h at ’s n ot B e v e rl y St e w a rt’ s si g n at u r e.
H o w el s e d o y o u k n o w t h o s e l o a n d o c u m e nt s w e r e
j u st ki n d of a b s u r d ? T h e a m o u nt s o n t h e m. T h e y
d o n ’t m a k e a n y s e n s e. Y o u h e a r d f r o m M s. P ol k. S h e
t e stifi e d t h at o n e of t h e l o a n li st s t h at w a s p r o vi d e d
t o t h e g o v e r n m e nt o n b e h alf of t h e d ef e n d a nt, t h at
w a s mi s si n g 3 5 of t h o s e wi r e s f r o m B e r m u d a
t ot ali n g a p p r o xi m at el y $ 2 8 3, 0 0 0. If t h e s e w e r e
l o a n s, h o w i s it t h o s e di d n’t m a k e t h e li st ? W e r e
t h o s e j u st gift s ? If t h e y’ r e gift s, t h e y’ r e i n c o m e.
T h e r e’ s n o l o gi c al e x pl a n ati o n f o r t h at.
T h e y al s o d o n’t m a k e a n y s e n s e. Y o u h e a r d A g e nt
W e st a d d t h at u p f o r y o u. If y o u a d d u p all t h o s e
d o c u m e nt s,
ho w
m uc h
mo ney
w as
St e w a rt
T e c h n ol o g y S e r vi c e s e ntitl e d t o f r o m t h e s al e of
d ef e n d a nt S ut h e rl a n d' s c o m p a ni e s ? 1 2 0 p e r c e nt,
pl u s p ri n ci p al, pl u s i nt e r e st. T h at d o e s n’t m a k e a n y
s e n s e.
A n d t hi n k a b o ut w h at y o u h e a r d -- t h e ot h e r
t hi n g t h o s e l o a n d o c u m e nt s s a y. W h at w a s t h e t e r m ?
S e v e n y e a r s. W h at w a s t h e p a y m e nt pl a n ? Z e r o.
Di d n't h a v e t o p a y a di m e f o r s e v e n y e a r s. E a c h o n e.
T h e n t h e n e xt o n e, s e v e n y e a r s, s e v e n y e a r s.
I s t h at h o w l o a n s t h at y o u k n o w w o r k ? D o y o u
h a v e a n y l o a n s w h e r e y o u d o n't h a v e t o p a y

74a
a n yt hi n g f o r s e v e n y e a r s ? Y o u g et t o wit h d r a w it
w h e n e v e r y o u w a nt. N o i nt e r e st. N o w o r ri e s.
H o w el s e d o y o u k n o w t h e s e l o a n s w e r e a s h a m ?
T h e D ef e n d a nt’ s lif e st yl e. H e di d n ’t li v e li k e a g u y
w h o w a s s u r vi vi n g o n l o a n s, w h o s e c o m p a ni e s w e r e
o n t h e b ri n k. If y o u l o o k at hi s it e mi z e d d e d u cti o n s
f r o m 2 0 0 7 t o 2 0 1 0, j u st hi s it e mi z e d d e d u cti o n s a n d
t h e m o n e y s p e nt o n t h at p ri v at e s c h o ol, h e s p e nt
$ 9 3, 1 6 5 m o r e t h a n hi s r e p o rt e d i n c o m e. H o w d o e s
t h at w o r k ? I m e a n, it c a n w o r k. It’ s p o s si bl e, I g u e s s.
B ut all t ol d, t h o s e f o u r y e a r s h e s p e nt -- l et m e g et
t hi s ri g ht -- $ 3 7 0, 0 0 0 o n hi s d e d u cti o n s a n d hi s
p ri v at e s c h o ol a n d hi s st at e t a x e s. S o S c h e d ul e A
d e d u cti o n s a n d t h e p ri v at e s c h o ol, y o u a d d t h o s e u p,
o v e r $ 3 7 0, 0 0 0.
2 0 0 9 al o n e h e s p e nt m o r e o n hi s d a u g ht e r’ s
p ri v at e s c h o ol e d u c ati o n t h a n h e r e p o rt e d a s i n c o m e.
1 6, 6 6 9 i n i n c o m e, 2 1, 4 7 9 i n p ri v at e s c h o ol t uiti o n.
N o w, li k e I s ai d, it’ s c e rt ai nl y p o s si bl e f o r p e o pl e
t o li v e b e y o n d t h ei r m e a n s. It h a p p e n s e v e r y d a y i n
t hi s c o u nt r y. B ut y o u w o ul d e x p e ct t h at if s o m e o n e
w a s li vi n g b e y o n d t h ei r m e a n s a n d n e e d e d t o b o r r o w
t hi s m u c h m o n e y, t h at t h ei r lif e st yl e w o ul d r efl e ct it
i n s o m e w a y.
L et ’s l o o k at s o m e of
di d n’t g o t h r o u g h t h at,
e x p e n s e s t hat w e k n o w
h u m a ns yo u h a ve t hese

hi s ot h e r e x p e n s e s. N o w, w e
b ut l et’ s j u st t al k a b o ut t h e
h e m u st h a v e h a d b e c a u s e a s
e x p e n s e s.

Ot h e r h o u si n g e x p e n s e s. T h o s e w e r e bi g h o u s e s.
G ot t o h a v e li g ht s. G ot t o h a v e el e ct ri cit y, h e at, ai r

75a
c o n diti o ni n g, m ai nt e n a n c e. H e t r a v el e d. H e n e e d e d
i n s u r a n c e. G ot t o i n s u r e t h o s e h o u s e s. S h o p pi n g,
c a r s, g a s. Y o u k n o w w h at it t a k e s t o li v e. J u st t o
li v e. G r o c e ri e s. N o n e of t h o s e e x p e n s e s a r e i n cl u d e d
i n t h at $ 9 3, 0 0 0 d efi cit.
B ut t h at’ s n ot all t h e e x p e n s e s t h at t h e d ef e n d a nt
S ut h e rl a n d h a d, p e r s o n al. N o w, w e di d n’t g o t h r o u g h
hi s b a n k r e c o r d s i n d et ail wit h t h e wit n e s s e s t o s h o w
y o u, b ut t h e y’ r e i n e vi d e n c e s o if y o u w a nt e d t o, y o u
c o ul d fli p t h r o u g h. B ut l et m e j u st g o t h r o u g h t h o s e
j u st t o hi g hli g ht s o m e of t h at st uff.
Y o u s a w t hi s o n e. 2 0 0 7, $ 2 2, 4 9 9. 9 7, si g n e d b y t h e
d ef e n d a nt, Li o n s J e w el e r s.
T h at’ s n ot all. L o o k at t hi s. Al s o i n 2 0 0 7, Y a ni q u e
L a w r e n c e’ s c r e dit c a r d. B all a nt y n e J e w el e r s, al m o st
7 5 0 0 b u c k s. B ut t h e r e' s m o r e. Li o n s J e w el e r s, 1 7 0 0
b u c k s. $ 3 2, 0 0 0 i n j e w el r y st o r e s i n 2 0 0 7 al o n e.
$ 3 2, 0 0 0.
A n ot h e r 3 0, 0 0 0 i n r et ail p u r c h a s e s: B el k, Vi ct o ri a
S e c r et, W hit e H o u s e Bl a c k M a r k et. If y o u fli p
t h r o u g h t h o s e, y o u’ll s e e it all. A n d of c o u r s e, a s y o u
w o ul d e x p e ct, t h o u s a n d s m o r e at ot h e r r et ail e r s:
T a r g et, L o w e’ s, B e st B u y, j u st li k e e v e r y b o d y el s e.
M a y b e n ot li k e e v e r y b o d y e l s e i n t e r m s of t h e
q u a ntiti e s, b ut c e rt ai nl y t h e st o r e s.
T h e d ef e n d a nt c e rt ai nl y w a s
lif e st yl e of a p e r s o n n e e di n g $ 2
si st e r. T o t h e c o nt r a r y, h e w a s li vi
s o m e b o d y w h o w a s t r e ati n g t h at

n ot li vi n g t h e
milli o n f r o m hi s
n g t h e lif e st yl e of
$ 2 milli o n a s hi s

76a
o w n p e r s o n al i n c o m e a n d n e v e r h a d a n y i nt e nti o n of
p a yi n g t h at m o n e y b a c k.
H o w el s e d o w e k n o w t h e l o a n s w e r e s h a m s ? Li k e
I s ai d, St e w a rt T e c h n ol o g y di d n’t a c c o u nt f o r t h e
p a y m e nt s a s l o a n s. I t hi n k y o u r e m e m b e r, l et m e
j u st s h o w y o u t h e e x a m pl e s. T h e s e t w o e x hi bit s,
G o v e r n m e nt’ s E x hi bit s 1 6 2 a n d 1 6 7, t h o s e a r e
b al a n c e s h e et s p r o vi d e d b y St e w a rt T e c h n ol o g y t o
H S B C B e r m u d a. O n e of t h e m i s e v e n n ot a ri z e d h e r e
i n U ni o n C o u nt y, of c o u r s e. T h e ot h e r o n e i s si g n e d
b y, a m o n g ot h e r s, P at ri c k S ut h e rl a n d. S e e a n y l o a n s
o n t h e r e ? S e e a n y i n di c ati o n of l o a n s o n t h e r e ?
D ef e n d a nt’ s o w n b o o k s a n d r e c o r d s di d n ’t t r e at
t h e m a s l o a n s c o n si st e ntl y. Y o u h e a r d t h at. O v e r
$ 5 3, 0 0 0 i n t r a n sf e r s f r o m B e r m u d a w e r e r e c o r d e d o n
d ef e n d a nt' s b o o k s a s c o m mi s si o n s a n d f e e s r at h e r
t h a n l o a n s. H o w d o y o u e x pl ai n t h at ? C o ul d n’t e v e n
k e e p hi s o w n li e s i n o r d e r.
A n d y o u h e a r d t h at t h e d ef e n d a nt’ s c o m p a ni e s
di d n’t n e e d t h e m o n e y. Y o u s a w s o m e of t h ei r
fi n a n ci al r e c o r d s. Y o u h e a r d M r. J o n e s. H e w a s a
p a rt of t h o s e c o m p a ni e s f o r a w hil e. W e w e r e n’t i n
di r e st r ait s.
W e w e r e at l e a st b r e a ki n g e v e n.
C e rt ai nl y di d n’t k n o w a b o ut $ 2 milli o n i n l o a n s w e
n e e d e d. I t hi n k t h at’ s w h at h e t ol d y o u.
H o w el s e d o y o u k n o w ?
P a y m e nt s
w er e
h a p h a z a r d a n d s c att e r e d. I’ v e al r e a d y c o v e r e d t h at.
I’ m n ot g oi n g t o c o v e r t h at a g ai n. B ut u nli k e a n y
l o a n I’ m s u r e m o st p e o pl e h e a r d a b o ut.

77a
H o w el s e d o y o u k n o w it ? M a n y of t h e l o a n s -w ell, j u st t o g o i nt o t h o s e. L o o k w h o g ot t h o s e. Fi v e
diff e r e nt c o m p a ni e s, t h e d ef e n d a nt di r e ctl y -- t h e s e
a r e t h e wi r e t r a n sf e r s f r o m B e r m u d a -- hi s wif e
di r e ctl y. A n d w hi c h t w o e ntiti e s of hi s g ot t h e m o st
m o n e y ? W a s it t h e o n e s w h o w e r e d oi n g all t h e w o r k,
t h e o n e s y o u h e a r d s o m u c h a b o ut i n t h e lif e
i n s u r a n c e w o rl d ? N o, it’ s t h e t w o t h at n o o n e c o ul d
e x pl ai n. T h e y h e a r d of t h e m. N o o n e k n e w w h at t h e y
di d. T h o s e a r e t h e o n e s w h e r e all t h e m o n e y w e nt t o.
H o w di d t h at m a k e a n y s e n s e ? A n d t h e n t h e y
s o m eti m e s g ot i m m e di at el y t r a n sf e r r e d t o o n e of t h e
ot h e r e ntiti e s f o r n o a p p a r e nt r e a s o n.
H o w el s e d o y o u k n o w t h e l o a n s a r e s h a m s ? W ell,
y o u h e a r d all t h o s e g u y s g et u p t h e r e a n d t ell y o u
a b o ut t h e i n s u r a n c e w o r k t h e y di d f o r P at ri c k
S ut h e rl a n d a n d y o u s a w all t h o s e e x a m pl e s w h e r e
t h e wi r e t r a n sf e r s o r t h e c h e c k s s a y e x a ctl y w h at t h e
m o n e y i s f o r. It w a s f o r i n s u r a n c e w o r k. It w a s n’t a
l o a n. T he wi r e s a y s “i n s u r a n c e” o r it s a y s “ S ali e nt”
o r a g u y' s n a m e, M u r p h y o r D al e y. T h at w a s f o r
p a rti c ul a r w o r k d o n e. T h at w a s n’t a l o a n.
Y o u h e a r d Ji m P ri c e t al k a b o ut t h at. Y o u h e a r d
M r. -- I k n o w y o u r e m e m b e r M r. D u n k e r. Y o u h e a r d
M r. D u n k e r t al k a n d t al k an d t al k a b o ut s o m e of
t h at st uff. M r. D u n k e r t ol d y o u, I o nl y g et p ai d if h e
g et s p ai d. I o nl y g et p ai d if h e g et s p ai d. W ell, w e
s a w -- w e k n o w M r. D u n k e r g ot p ai d. S o w h at d o e s
t h at m e a n ? T h at m e a n s h e g ot p ai d.

78a
Y o u h e a r d M r. P ri c e t al k a b o ut all hi s cli e nt s a n d
si mil a r a r r a n g e m e nt s. It’ s cl e a r
w h at t h o s e
p a y m e nt s w e r e. T h at w a s d ef e n d a nt’ s i n c o m e.
A n d y o u al s o k n o w t h o s e l o a n s w e r e a s h a m
b e c a u s e t h e d ef e n d a nt w a s t h e o n e c o nt r olli n g
St e w a rt T e c h n ol o g y. A g ai n, I d o n’t w a nt t o b el a b o r
t hi s. Y o u s a w e n o u g h . B ut y o u k n o w t h at t h e
d ef e n d a nt w a s f o r gi n g -- y o u k n o w t h at B e v e rl y
St e w a rt’ s n a m e w a s f o r g e d. A n d y o u k n o w d ef e n d a nt
w a s c o nt r olli n g B e v e rl y St e w a rt’ s e m ail a d d r e s s.
D o u g B oi k t ol d y o u t h at. B ut e v e n if h e h a d n’t, y o u
s a w t h o s e e x a m pl e s w h e r e it w a s cle a r a s d a y it w a s
P at ri c k S ut h e rl a n d w riti n g t h o s e e m ail s o n b e h alf of
B e v e rl y. D o y o u r e m e m b e r t hi s e x a m pl e ? O n e
mi n ut e a p a rt. Al m o st t h e e x a ct s a m e e m ail. S a m e e m ail a d d r e s s, B e v e rl y St e w a rt. O o p s, I si g n e d it
P at ri c k. I s t h at s o m et hi n g y o u w o ul d d o ? Y o u e v e r
si g n s o m e b o d y el s e ’s n a m e a c ci d e ntl y o n a n e m ail ?
W h at a b o ut t h e e m ail s h e s e nt a b o ut Citi z e n s
H o m e L o a n s ? Y o u h e a r d M r. D u n k e r a n d M r. J o n e s
t al k a b o ut t h at. S h e h a d n o i n v ol v e m e nt i n Citi z e n s
H o m e L o a n s. W h y i s s h e s e n di n g e m ail s a b o ut
Citi z e n s H o m e L o a n s ? It ’s b e c a u s e it w a s n’t h e r, it
w a s hi m.
Y o u s a w h o w t h e d ef e n d a nt w a s t h e p ri m a r y
c o nt a ct at H S B C B e r m u d a. G ot t h e st at e m e nt s. H e
h a d o nli n e a c c e s s t h r o u g h o ut t h e e nti r e p e ri o d. H e
al s o h a d si g n at o r y a ut h o rit y f r o m t h e v e r y
b e gi n ni n g.

79a
H e r e’ s F e b r u a r y 1 9, 2 0 0 7. Offi c e r a n d a di r e ct o r.
H e' s g ot si g n at o r y a ut h o rit y.
S a m e t hi n g i n 2 0 1 0. M a y 1 7, 2 0 1 0, di r e ct o r,
offi c e r, p o w e r t o si g n o v e r o n t h at a c c o u nt. W a s t h at
e v e r di s cl o s e d o n hi s t a x r et u r n s ? N o p e. Y o u h e a r d
A g e nt W e st t e stif y a b o ut t h at.
H o w el s e d o y o u k n o w t h at d ef e n d a nt w a s
r u n ni n g St e w a rt T e c h n ol o g y ? W ell, y o u h e a r d t h at
e vi d e n c e a b o ut t h e F e d E x -- F e d E x st uff. I d o n’t
k n o w if y o u c a u g ht it, b ut w h e n M r. P ri c e n e e d e d
B e v e rl y St e w a rt’ s si g n at u r e, h e w o ul d s e n d t h e
d o c u m e nt s h e r e t o C h a rl ott e a n d t h at v e r y s a m e d a y
t h e y’ d g et F e d E x e d o ut b y t h e d ef e n d a nt t o t h e
i nt e n d e d r e ci pi e nt b e a ri n g h e r si g n at u r e w h e n w e
k n o w s h e w a s n’t h e r e. S h e w a s eit h e r i n C o d y,
W y o mi n g, o r s h e w a s i n J a m ai c a o r s h e w a s
g al a v a nti n g a r o u n d t h e w o rl d, I g u e s s, m a y b e. B ut
s h e w a s n’t i n C h a rl ott e.
A n d fi n all y, M r. J o n e s t ol d y o u. M r. J o n e s t ol d
y o u t h at M r. S ut h e rl a n d t ol d hi m h e c r e at e d St e w a rt
T e c h n ol o g y s o t h e y c o ul d d o t h ei r off s h o r e w o r k
b e c a u s e, a s y o u h e a r d ti m e a n d ti m e a n d ti m e a n d
ti m e a g ai n, y o u h a d t o h a v e s o m e o n e i n B e r m u d a t o
d o t hi s w o r k. H a d t o b e i n B e r m u d a.
T h e d ef e n d a nt n e v e r i nt e n d e d t o r e p a y t h e s e
l o a n s. A n d h e n e v e r di d.
N o w, y o u’ v e s e e n s o m e d o c u m e nt s w h e r e, I m e a n,
t h e l o a n s w e r e p ai d off, b ut t h e r e w a s n’t m o n e y
c h a n gi n g h a n d s. A n d y o u k n o w a b o ut t h o s e
d o c u m e nt s. T h o s e w e r e t h e d o c u m e nt s t h at s h o w e d

80a
u p i n 2 0 1 5 aft e r t h e 2 0 0 7 l o a n w a s s u p p o s e dl y d u e
a n d s h o ul d h a v e b e e n p ai d a c c o r di n g t o t h e o ri gi n al
l o a n d o c u m e nt s.
Gr a n d j ur y s u b p o e n as w er e iss u e d t o t h e
d ef e n d a nt’ s
c o m p a ni e s,
and in
r et u r n t h e
g o v e r n m e nt
w as
p r o vi d e d
wit h t h e
p a y off
d o c u m e nt s. T h o s e a r e a b s u r d t o o. Y o u k n o w t h e y’ r e
a b s u r d b e c a u s e t h e o ri gi n al l o a n d o c u m e nt s g a v e
St e w a rt T e c h n ol o g y S e r vi c e s a 2 0 p e r c e nt i nt e r e st,
pl u s -- it g a v e t h e m p ri n ci p al p a y m e nt s, i nt e r e st
p a y m e nt s, pl u s a 2 0 p e r c e nt i nt e r e st. E a c h l o a n
d o c u m e nt g a v e h e r a 2 0 p e r c e nt i nt e r e st i n t h e s al e
of a n y of d ef e n d a nt ’s e ntiti e s i n t h e f ut u r e. T h at’ s
w h at t h e y s a y. Y o u c a n l o o k at t h e m. P ri n ci p al,
i nt e r e st, pl u s -- pl u s 2 0 p e r c e nt of a n y of hi s e ntiti e s.
A n d s h e d e c i d e s m a y b e I g ot t o o g o o d a d e al,
a p p a r e ntl y, s o s h e a g r e e s -- s h e a g r e e s f o r m u c h l e s s.
M u c h l e s s.
If y o u l o o k at t h e o n e s t h e y s h o w e d y o u, I t hi n k
t h e m o st -- m o st i nt e r e st s h e e v e r g ot i n l e s s t h a n all
of t h o s e c o m p a ni e s, i n p a rti c ul a r c o m p a ni e s, t w o
p a rti c ul a r c o m p a ni e s, w a s 1 5 p e r c e nt. A n d y o u
h e a r d t h ei r e x p e rt t e stif y a b o ut h o w w o rt h w hil e t h at
w a s at t h e ti m e s h e p u r p o rt e dl y si g n e d t h e s e
d o c u m e nt s. A c o u pl e h u n d r e d b u c k s.
H o w el s e d o y o u k n o w t h o s e l o a n s w e r e a
c o m pl et e f a r c e, t h o s e l o a n p a y off s w e r e a c o m pl et e
f a r c e ? L et’ s l o o k at t h e s e t w o, G o v e r n m e nt’ s E x hi bit s
1 0 4 a n d 1 0 5 d at e d D e c e m b e r 3 1, 2 0 1 1, D e c e m b e r 3 1,
2 0 1 2. W h at d o t h e y t al k a b o ut ? W h e r e a s, c e rt ai n
e ntiti e s i n w hi c h P at ri c k S ut h e rl a n d h a s a n

81a
o w n e r s hi p i nt e r e st
St e w a rt T e c h n ol o g y
2 0 1 3. T h e y k n o w t h e
d u e a n d p a y a bl e i n
a n y s e n s e.

r e c ei v e d, r e c ei v e d l o a n s f r o m
S e r vi c e s i n 2 0 1 1, 2 0 1 2, a n d
f ut u r e ? R e c ei v e d l o a n s, i nt e r e st
t w o y e a r s. T h at d o e s n’t m a k e

N o w, l a di e s a n d g e ntl e m e n, y o u’ r e g oi n g t o b e
a s k e d t o c o n si d e r f o u r c o u nt s a g a i n st t h e d ef e n d a nt.
A n d t h e fi r st t h r e e a r e f o r fili n g a f al s e t a x r et u r n i n
t h e y e a r s 2 0 0 8, 2 0 0 9, a n d 2 0 1 0, a n d t h e l a st o n e i s
f o r o b st r u cti n g t h e g r a n d J u r y’ s i n v e sti g ati o n o n
t h o s e t a x a c c o u nt s. A n d I w a nt t o b ri efl y g o o v e r
t h o s e el e m e nt s wit h y o u. A n d t h e j u d g e, a s h e
al r e a d y i n di c at e d, h e’ s t h e o n e w h o c a n i n st r u ct y o u
o n t h e l a w. If h e s a y s a n yt hi n g t h at’ s diff e r e nt t h a n
m e, y o u li st e n t o hi m. B ut I t hi n k it’ s g oi n g t o b e
s o m et hi n g li k e t hi s.
F o r t h e f al s e t a x c o u nt s, t h e d ef e n d a nt m a d e o r
c a u s e d t o b e m a d e a n d s u b s c ri b e d t o a t a x r et u r n f o r
t h e y e a r i n q u e sti o n t h at c o nt ai n e d f al s e i nf o r m ati o n
a s t o a m at e ri al m att e r.
S u b s c ri b e d, y o u’ll b e i n st r u ct e d, t h at’ s a f a n c y
w o r d f o r si g n e d. I n t o d a y’ s w o rl d t h at c a n b e e si g n e d. T h e r e’ s
n o q u e sti o n t h at
d ef e n d a nt
s u b s c ri b e d t o t h e s e t a x r et u r n s.
M at e ri al. T h at j u st m e a n s i m p o rt a nt t o t h e I R S.
C o ul d b e i m p o rt a nt i n a v a ri et y of w a y s, a n d y o u ’ll
g et a n i n st r u cti o n o n t h at, b ut o n e of t h e w a y s it
c o ul d b e i m p o rt a nt t o t h e I R S i s if it c o ul d h a v e
aff e ct e d t h e t a x e s.

82a
D ef e n d a nt k n e w t h e i nf o r m ati o n
t hi n k y o u ’v e s e e n t h at.

w a s f al s e. I

T h e t a x r et u r n w a s m a d e u n d e r t h e p e n alti e s of
p e rj u r y. W e k n o w t h at’ s t h e c a s e. A g e nt W e st t ol d
y o u a b o ut t h at. T h e j u r at, r e m e m b e r it’ s c all e d a
j u r at. U n d e r p e n alti e s of p e rj u r y I d e cl a r e t h at I
h a v e e x a mi n e d t hi s r et u r n a n d a c c o m p a n yi n g
s c h e d ul e s a n d, a n d t o t h e b e st of m y k n o wl e d g e a n d
b eli ef, t h e y a r e t r u e, c o r r e ct a n d c o m pl et e. A n d
t h at’ s hi s el e ct r o ni c si g n at u r e ri g ht t h e r e.
T h e l a st t hi n g y o u’ v e g ot t o fi n d i n o r d e r t o
c o n vi ct t h e d ef e n d a nt o n t h e t a x c h a r g e s i s t h at h e
a ct e d willf ull y. A n d willf ull y, y o u’ll b e i n st r u ct e d, I
b eli e v e, m e a n s t h e i nt e nti o n al vi ol ati o n of a k n o w n
l e g al d ut y. I n ot h e r w o r d s, di d t h e d ef e n d a nt
i nt e nti o n all y vi ol at e t h e l a w b y f aili n g t o r e p o rt all
of hi s i n c o m e ? Di d h e k n o w h e w a s r e q ui r e d a n d di d
h e i nt e nti o n all y f ail t o d o it ?
H o w d o y o u k n o w h e a ct e d willf ull y ? W ell, all t h e
o b st r u cti o n e vi d e n c e i s al s o willf ul e vi d e n c e. If h e ’s
p r o vi di n g f a k e l o a n d o c u m e nt s, t h at’ s p r ett y g o o d
e vi d e n c e t h at h e k n e w t h e y w e r e n’t l o a n s. B ut b ef o r e
w e g et -- a ct u all y, l et’ s w al k t h r o u g h hi s t a x r et u r n s
a n d w h y t h e y’ r e f al s e i n d et ail.
2 0 0 8, a g ai n, r e p o rt e d i n c o m e, 8 8, 9 7 9. T h at
d o e s n’t i n cl u d e at l e a st 6 6, 0 0 0 i n d o m e sti c i n c o m e.
A n d al s o d u ri n g t h at y e a r, n e a rl y $ 6 5 0, 0 0 0 i n wi r e s
f r o m B e r m u d a.

83a
2 0 0 9, 1 6, 6 6 9 r e p o rt e d. At l e a st 4 9, 8 4 0 i n d o m e sti c
i n c o m e n ot i n cl u d e d. A n ot h e r 5 5 0 s o m e a n d c h a n g e
i n wi r e s f r o m B e r m u d a t h at y e a r.
2 0 1 0, 7 2, 4 1 5 r e p o rt e d.
A n ot h e r 3 9, 3 0 0 i n
d o m e sti c i n c o m e n ot i n cl u d e d. A n d 4 0 0 pl u s -4 0 0, 0 0 0 pl u s i n wi r e s f r o m B e r m u d a t h at y e a r.
S o h o w d o y o u k n o w h e a ct e d willf ull y ? W ell, h e
w a s n’t di s cl o si n g c o nt r ol of t h e B e r m u d a a c c o u nt a s
w a s r e q ui r e d. F o r g e d si g n at u r e s, i n cl u di n g hi s
si st e r’ s. H e d o ct o r e d h e r p a s s p o rt. A n d t h e n h e li e d
a n d h e t ri e d t o c o v e r u p hi s t r a c k s. H e t ri e d t o
c o n c e al hi s b e h a vi o r.
Y o u h e a r d t h e sti p ul ati o n. I n A p ril -- a r o u n d
A p ril of 2 0 1 2 t h e d ef e n d a nt’ s c o m p a ni e s r e c ei v e d
g r a n d j u r y s u b p o e n a s. S h o rtl y t h e r e aft e r, w h at
st a rt e d h a p p e ni n g ? T hi s o n e f r o m D o u g B oi k A u g u st
1 6, 2 0 1 2: H e y, l et’ s t r y t o g et St e w a rtt e c h n ol o g y. c o m
off o u r i n v oi c e. T h at’ s w ei r d.
F e b r u a r y 1 8, 2 0 1 5, D o u g B oi k: H e y, l et’ s c h a n g e
t h e o w n e r s hi p f o r St e w a rtt e c h n ol o g y. c o m t o St e w a rt
T e c h n ol o g y S e r vi c e s. W e d o n’t w a nt it i n I n n o v ati o n
P a rt n e r s’ n a m e a n y m o r e.
B a n k of B e r m u d a. L et’ s r e w rit e hi st o r y. A u g u st 6,
2 0 1 2, pl e a s e m a k e B e v e rl y St e w a rt t h e p ri m a r y
c o nt a ct p e r s o n. M a y b e t h at’ s si g n e d b y B e v e rl y
St e w a rt.
A p ril 2 0 1 3, “ M s. St e w a rt a n d I h a d s e v e r al
t el e p h o n e c o n v e r s ati o n s o v e r t h e p a st f e w d a y s. S h e
w a nt e d u s t o p r o vi d e a l ett e r i n di c ati n g t h at s h e a n d

84a
M s. Ki n g a r e t h e o nl y a ut h o ri z e d si g n at o ri e s o n t h e
St e w a rt T e c h n ol o g y a c c o u nt a n d h a v e b e e n t h e o nl y
si g n at o ri e s o n t h e a c c o u nt si n c e i n c e pti o n.”
T h at’ s n ot t r u e a n d y o u k n o w t h at’ s n ot t r u e. A n d
H S B C k n e w it w a s n’t t r u e.
W h at’ s t h e n e xt hi g hli g ht e d p o rti o n ? “ I w a s a bl e
t o p r o vi d e t h e l ett e r st ati n g o nl y t h at s h e a n d M s.
Ki n g a r e t h e c u r r e nt a ut h o ri z e d si g n at o ri e s.’ W e’ r e
n ot g oi n g t o sti c k o u r n e c k o ut.
T h e n y o u g ot t h at t o p e m ail. I’ m a U. S. citi z e n. I
d o n ’t w a nt y o u s h a ri n g t a x e s -- m y i nf o r m ati o n wit h
t h e I R S.
H e r e’ s t h e el e m e nt s of t h e o b st r u cti o n c o u nt.
T h e y b oil d o w n t o t hi s.
Di d t h e d ef e n d a nt
i nt e nti o n all y p r o vi d e d o c u m e nt s t o t h e
U. S.
Att o r n e y’ s Offi c e h e r e t o o b st r u ct t h ei r g r a n d j u r y’ s
i n v e sti g ati on ? Di d h e c a u s e o r p r o vi d e -- di d h e
p r o vi d e o r c a u s e t o b e p r o vi d e d d o c u m e nt s t h at
i m p e d e d o r i nfl u e n c e d t h e g r a n d j u r y i n v e sti g ati o n ?
At t h e e n d of t h e d a y, l a di e s a n d g e ntl e m e n, t hi s
i s a si m pl e c a s e. T h e d ef e n d a nt li e d o n hi s t a x e s a n d
h e c h e at e d U n cl e S a m. H e i nt e nti o n all y f ail e d t o
r e p o rt all of hi s i n c o m e; a n d w h e n h e w a s c all e d o n
t h at f ail u r e, h e li e d a b o ut it a n d h e f a b ri c at e d
d o c u m e nt s t o c o v e r it u p.
All t h e e vi d e n c e i n t hi s c a s e p oi nt s
di r e cti o n. N ot o nl y t h e e vi d e n c e I j u st s u m
b ut all t h e e vi d e n c e y o u' v e h e a r d o v e r t h e
d a y s, y o u r c o m m o n s e n s e, it all p oi nt s

i n o ne
m a ri z e d,
l a st f e w
i n o ne

85a
di r e cti o n. T hi s n u m b e r a n d t h e n u m b e r s o n t h e
2 0 0 8, 2 0 0 9, a n d 2 0 1 0 t a x r et u r n s w e r e f al s e. T h e y
w e r e m at e ri all y f al s e a n d t h e d ef e n d a nt i nt e n d e d
t h e m t o b e m at e ri all y f al s e.
A
o
t
t

S o I a s k y o u o n b e h alf of
m e ri c a t o g o b a c k i nt o t h at
nl y v e r di ct T h at’ s c o n si st e nt
h at y o u’ v e s e e n a n d fi n d t h e
h e c o u nt s. T h a n k y o u.

t h e U nit e d St at e s of
r o o m a n d r e n d er t h e
wit h all t h e e vi d e n c e
d ef e n d a nt g uilt y o n all

T H E C O U R T: T h e j u r y i s wit h t h e d ef e n s e.
M R. D U N C A N: T h a n k y o u, Y o u r H o n o r.
M s. S u g a r, M r. R y a n, l a di e s a n d g e ntl e m e n of t h e
j u r y:
T h a n k y o u v e r y m u c h f o r y o u r att e nti o n a n d t h e
ti m e Y o u’ v e t a k e n o ut of y o u r li v e s t o c o n si d e r t hi s
c a s e. It i s o b vi o u sl y v e r y , v e r y i m p o rt a nt f o r M r.
S ut h e rl a n d a n d
we
a p p r e ci at e y o u r c a r ef ul
c o n si d e r ati o n of t h e e vi d e n c e, w hi c h c e rt ai nl y w e
t hi n k d o e s n ot p oi nt o nl y i n o n e di r e cti o n. W e t hi n k
it p oi nt s i n t h e ot h e r di r e cti o n.
I w a nt t o v e r y q ui c kl y b ef o r e I f o r g et r e m a r k t o
y o u t h at M r. R y a n p ut u p f o r y o u t h e el e m e nt s of
w h at it t a k e s t o o b st r u ct. A n d t h e j u d g e will, a s h e
s ai d, i n st r u ct y o u. Y o u d e ci d e. B ut o n e of t h o s e i s
p r o vi d e d o c u m e nt s t o t h e g r a n d j u r y. A n d if y o u l o o k
at t h e sti p ul ati o n, t h e d o c u m e nt s t h at t h e
g o v e r n m e n t r eli e s o n w e r e n ot s u b mitt e d t o t h e
g r a n d j u r y. T h e y w e r e s u b mitt e d t o t h e U. S.
Att o r n e y ’s Offi c e.

86a
If y o u l o o k at E x hi bit 7 9, a n d I u r g e y o u t o d o
t h at, w hi c h i s a l ett e r f r o m M r. W y att w h o w a s M r.
S ut h e rl a n d’ s att o r n e y at t h e ti m e, h e m a k e s it cl e a r
t h at h e i s s u b mitti n g t h o s e u n d e r a r ul e of e vi d e n c e
w hi c h h e h o p e s will p e r s u a d e t h e U nit e d St at e s
att o r n e y n ot t o i n di ct. T h e y w e r e n ot s u b mitt e d t o
t h e g r a n d j u r y.
N o w, M r. R y a n s ai d e v e r yt hi n g t h at I s a y h e r e i s
a r g u m e nt. E v e r yt hi n g t h at y o u c o n cl u d e i s f a ct. Y o u
a r e t h e j u d g e s of t h e e vi d e n c e. If y o u d o n’t a g r e e
wit h a n yt hi n g I s a y a b o ut w h at y o u h e a r d, it’ s w h at
y o u r e m e m b e r t h at c o nt r ol s.
T h e j u d g e i s t h e r ul e r of t h e l a w. H e’ s t h e o n e
t h at gi v e s y o u t h e l a w. If I s a y s o m et hi n g t h at h e
c o nt r a di ct s, y o u d o n’t c o m e b a c k a n d s a y, w ell, M r.
D u n c a n s ai d o n e t hi n g, y o u s ai d a n ot h e r, w hi c h i s
t r u e ? W h at e v e r t h e j u d g e s a y s i s w h at y o u h a v e t o
f oll o w.
B ut w h at d o t h e y h a v e t o s h o w ? T h e y h a v e t o
s h o w willf ul a n d i nt e nti o n al f al s e st at e m e nt s, a n d
t h at m e a n s n ot n e gli g e n c e, n ot mi st a k e. A n d t h e y
m u st s h o w t hi s all b e y o n d a r e a s o n a bl e d o u bt. Y o u
m u st all b e s ati sfi e d, u n a ni m o u sl y,
beyo n d a
r e a s o n a bl e d o u bt of M r. S ut h e rl a n d ’s willf ul a n d
i nt e nti o n al f al s e st at e m e nt.
A n d w h at i s it ? It ’s li n e 2 2 of t h e t a x r et u r n s f o r
2 0 0 8, 2 0 0 9, 2 0 1 0. A n d I w a nt e d t o st r e s s, b e c a u s e
t h e y h a v e a n e x hi bit, t h e 2 0 0 7 t a x r et u r n. M r. R y a n
t al k e d a b o ut j e w el r y p u r c h a s e s i n 2 0 0 7 t o e st a bli s h
a hi g h fl yi n g lif e st yl e. B ut t h e y h a v e n’t p ut a

87a
s ci ntill a of e vi d e n c e, n ot a s ci ntill a of e vi d e n c e o n t o
s h o w a n y c h a n g e i n lif e st yl e f r o m t hi s m o n e y t h at’ s
c o mi n g i n f r o m St e w a rt T e c h n ol o g y S e r vi c e s. A n d I
s u b mit t o y o u t h at it’ s cl e a r w h y.
C a n w e p ut t h at u p ?
W hil e it’ s c o mi n g u p, it’ s cl e a r t h e c o m p a ni e s a n d
t h e s e t w o i n di vi d u al s, Y a ni q u e L a w r e n c e a n d
P at ri c k S ut h e rl a n d, w e r e i n h e a v y d e bt d u ri n g t h e s e
y e a r s. H e a v y d e bt.
S o w h o i s P at ri c k S ut h e rl a n d ? A n d a g ai n, y o u c a n
l o o k at E x hi bit 7 9, a n d M r. W y att l ai d o ut s o m e of
t h e bi o g r a p h y. H e w a s b o r n i n J a m ai c a. H e’ s a n
i m mi g r a nt. H e’ s n o w a citi z e n. H e w a s li vi n g t h e
A m e ri c a n d r e a m. H e c o m e s f r o m p o v e rt y a n d h e di d
w ell. H e e x c ell e d i n s c h o ol. H e w a s a w a r d e d a
c o m m o n w e alt h s c h ol a r s hi p,
w hi c h i s a v e r y
p r e sti gi o u s s c h ol a r s hi p i n t h e W e st I n di e s. W e nt t o
C a n a d a. St u di e d at t h e U ni v e r sit y of W at e rl o o. H e
b e c a m e a n a ct u a r y. I w a nt t o b e cl e a r, h e b e c a m e a n
a ct u a r y. H e di d n’t b e c o m e a n M B A. H e di d n’t
b e c o m e a n a c c o u nt a nt.
R o g e r D u n k e r, y o u h e a r d h e r e c r uit e d hi m t o
C h a rl ott e i n 1 9 9 9 o r s o a n d h e ’s b e e n h e r e e v e r
si n c e. A n d H e’ s b uilt u p a s u c c e s sf u l c o m p a n y. A n d
t h e g o v e r n m e nt s a y s, o h, wit h all t hi s m o n e y a n d
t hi s hi g h lif e st yl e, w h at d o y o u t hi n k t hi s m o n e y i s
f o r ? A n d t h e g o v e r n m e nt s a y s t h e y’r e gi vi n g t h e s e
p a y b a c k s t h at a r e w o rt h n ot hi n g, $ 1 1 0.
W ell, I w a nt y o u t o t hi n k a b o ut t h o s e v al u ati o n s
th at y o u h e a r d j u st t hi s m o r ni n g. A n d i n 2 0 1 2 t h e

88a
c o m p a n y w a s w o rt h $ 1 0, 0 0 0. D o e s t h at s u g g e st t o
y o u t h at 2 0 0 8 t o 2 0 1 0 w e r e n’t v e r y g o o d y e a r s ? T h e n
it g o e s u p a n d it g o e s u p t o t h e p oi nt w h e r e it’ s
w o rt h $ 7 milli o n i n 2 0 1 6. A l ot of w o r k, b ut h e b uil d s
t hi s c o m p a n y u p. If y o u w e r e -- if y o u r b r ot h e r s ai d
t o y o u, C a n y o u l o a n m e s o m e m o n e y a n d I’ll p a y y o u
b a c k wit h a pi e c e of m y c o m p a n y a n d y o u w at c h
y o u r b r ot h e r a n d y o u t hi n k y o u r b r ot h e r i s g o o d a n d
y o u t hi n k hi s c o m p a n y i s g oi n g s o m e w h e r e, w o ul d
y o u t a k e it ?
A n d it’ s y o u r b r ot h e r o r y o u r si st e r. Y o u’ v e g ot t o
r e m e m b e r t h at t h e s e a r e l o a n s b et w e e n f a mil y
m e m b e r s. T h e s e a r e n’t l o a n s f r o m A I G o r f r o m t h e
B a n k of A m e ri c a. T h e y’ r e l o a n s f r o m a si st e r t o a
b r ot h e r.
A n d y o u s h o ul d c o n si d e r t h e st ell a r r e p ut a ti o n
t h at M r. S ut h e rl a n d h a s wit h e v e r y o n e h e w o r k s
wit h. E v e r y o n e h e w o r k s wit h. M r. M oi s o n y o u
h e a r d, M r. N o w ot n y y o u h e a r d, M s. Gilli a m w h o
w o r k e d f o r hi m y o u h e a r d.
P et e r B a r n ett, g o v e r n m e nt wit n e s s, s ai d m y
c o m p a n y f o r bi d s m e f r o m c o nt a cti n g hi m s o I di d n’t.
B ut h e g et s l ai d off, h e c o nt a ct s P at ri c k S ut h e rl a n d
t o l o o k i nt o a n n uiti e s.
M r. D u n k e r s a y s h e di d t h e hi g h e st q u alit y w o r k
h e’ d s e e n. A n d w h e n M r. D u n k e r r eti r e s, w h e r e d o e s
h e g o t o w o r k ? H e g o e s t o w o r k f o r P at ri c k
S ut h e rl a n d. A n d h e s a y s h e g et s hi s c o m mi s si o n s
w h e n t h e y’ r e s u p p o s e d t o c o m e.

89a
A n d b y t h e w a y, t h e g o v e r n m e nt s a y s, W h at
a b o ut t h o s e c o m mi s si o n s ? D o e s n’t t h at t ell y o u it h a s
t o b e c o mi n g f r o m St e w a rt T e c h n ol o g y S e r vi c e s ? Y o u
h e a r d M r. M oi s o n t e stif y t h at t h e r e w a s a v e r y, v e r y
i m p o rt a nt pi e c e of t h ei r c o m p a n y w hi c h i s t h e
r ei n s u r a n c e t h at M r. S ut h e rl a n d g ot f r o m it a n d
t h at h e w a s p ai d q u a rt e rl y, a n d y o u h a v e t h e
e x hi bit s wit h t h o s e p a y m e nt s. A n d t h e y w e nt t o
I n n o v ati o n P a rt n e r s a n d R o g e r D u n k e r w a s e ntitl e d
t o a p e r c e nt a g e of t h o s e.
Y o u h e a r d t h at M r. S ut h e rl a n d di d u n d e r w riti n g,
$ 1, 9 6 5 p e r p e r s o n, a n d t h at s o m e of t h e m p ai d
i n di vi d u all y. O n e of t h e m g ot p ai d t h r o u g h
C a stl e R E.
Y o u h e a r d M r. P ri c e s a y t h e s a m e t hi n g.
S ut h e rl a n d di d s o m e of t h e u n d e r w riti n g.
D u n k e r w a s e ntitl e d t o hi s p e r c e nt a g e of t h o s e.
S o n o, it di d n’t
T e c h n ol o g y S e r vi c e s.

h a v e t o c o m e fr o m

M r.
M r.

St e w a rt

A n d y o u n oti c e all of t h e g o v e r n m e nt wit n e s s e s
t h at k n e w hi m s e e m e d t o li k e a n d r e s p e ct hi m
e x c e pt o n e: Mi c h a el J o n e s. W e’ll r et u r n t o M r. J o n e s.
I w a nt y o u t o t hi n k a b o ut t hi s. 2 0 0 8 t h r o u g h
2 0 1 0, I m e a n, I s u p p o s e y o u c o ul d s a y u s e y o u r
c o m m o n s e n s e, b ut al s o u s e y o u r lif e e x p e ri e n c e. W e
all li v e d t h r o u g h t h at. It w a s c all e d t h e G r e at
R e c e s si o n a n d it c a m e v e r y cl o s e t o b ei n g a s e c o n d
d e p r e s si o n. A n d y o u h e a r d e v e n f r o m M r. J o n e s t h at
t h e r e w a s a $ 9 milli o n s al e t h at w a s s c h e d ul e d of a
c o m p a n y t h at t h e y o w n e d t o A I G a n d t h at M r. J o n e s

90a
-- I c a n’t r e m e m b e r -- h e w a s g oi n g t o t a k e a b o ut 2 1/ 2 milli o n o r 2. 6 milli o n a n d M r. S ut h e rl a n d w a s
g oi n g t o g et a b o ut 3 milli o n . W e nt n o w h e r e. B ut
n e v e r mi n d, M r. J o n e s s a y s t h o s e c o m p a ni e s w e r e
d oi n g o k a y. T h e y j u st l o st a $ 9 milli o n s al e, b ut t h e y
w e r e d oi n g o k a y. L o st Citi z e n s H o m e L o a n s. D o e s it
h a v e t h e ri n g of t r ut h w h e n M r. J o n e s s a y s, O h,
Citi z e n s H o m e L o a n s w a s d oi n g o k a y i n 2 0 0 8. W a s
t h e r e a si n gl e m o rt g a g e c o m p a n y i n t hi s c o u nt r y
t h at w a s d oi n g w ell i n 2 0 0 8 ? A n d t h e p r o of of t h e
p u d di n g i s it g et s s h ut d o w n.
C a n y o u p ut t h at o n n o w.
M S. R A U S C H E R: Y e s, it’ s o n n o w.
M R. D U N C A N: S o y o u s h o ul d -- y o u h a v e t o a s k
y o u r s elf, t hi s c o m p a n y -- a n d Li n d a P ol k s ai d it.
S h e’ s n e v e r s e e n a n yt hi n g li k e it. T h e y a r e
b o r r o wi n g a g ai n st t h ei r c r e dit c a r d s t o t h e t u n e of 2 - 1 5 0, 2 0 0 t h o u s a n d d oll a r s a m o nt h a n d c y cli n g
b a c k a n d p a yi n g it b a c k. W h y d o y o u t hi n k t h e y’ r e
b o r r o wi n g a ll t h at m o n e y at c r e dit c a r d r at e s ?
B e c a u s e t h e c o m p a ni e s d o n’t n e e d it ? W h e r e i s it
g oi n g ? I s u b mit t o y o u it' s g oi n g t o p a y f o r t h e
o p e r ati o n s of t h o s e c o m p a ni e s. A n d I s u b mit t o y o u
t h at t h e m o n e y c o mi n g i n f o r S T S i s t o all o w hi m t o
p a y t h o s e b a c k.
T h e g o v e r n m e nt h a s n’t gi v e n y o u o n e pi e c e of
e vi d e n c e t h at M r. S ut h e rl a n d i s s u d d e nl y b u yi n g
f a n c y c a r s o r a m a n si o n s o m e w h e r e. H e’ s g ot a
h o u s e. It’ s a ni c e h o u s e. It’ s a v e r y ni c e h o u s e. I d o n’t
w a nt t o s u g g e st t h at h e w a s n’t d oi n g w ell i n t h e

91a
e a rl y 2 0 0 0 s. H e w a s. A n d h e di d h a v e a ni c e h o u s e.
B ut b y t h e ti m e y o u g et o ut i n 2 0 1 1, h e’ s g ot a
c o m p a n y t h at’ s v al u e d at $ 1 0, 0 0 0.
T h e c r e dit c a r d -- if y o u l o o k y o u'll s e e, st a rti n g i n
J a n u a r y of 2 0 0 8, w e’ r e l o o ki n g at $ 2 5 0, 0 0 0 i n d e bt.
N o w, t hi s i s c o m bi n e d, i n di vi d u al a n d c o m p a n y. It
g et s a s b a d b y F e b r u a r y of 2 0 0 9 a s $ 3 5 0, 0 0 0 i n d e bt.
A n d t h e n w e g et t o J u n a n d J ul y, it l e v el s off at a
m e r e $ 1 5 0, 0 0 0 i n d e bt. A n d if y o u a d d it all u p, it’ s
g oi n g t o c o m e p r ett y cl o s e, I t hi n k, t o t h at $ 2. 2
milli o n t h at c a m e f r o m S T S .
I’ m g oi n g t o eli mi n at e w h at I t hi n k a r e s o m e r e d
h e r ri n g s M r. R y a n t h r e w at y o u.
T hi s i s n’t a c a s e a b o ut
w h et h e r P at ri c k
S ut h e rl a n d w a s hi di n g hi s i n v ol v e m e nt i n S T S f r o m
a n i n s u r a n c e c o m p a n y. A n d it’ s n ot a b o ut w h et h e r
h e w a s si g ni n g hi s si st e r ’s n a m e o n a d o c u m e nt o r
u si n g h e r e m ail a d d r e s s. It’ s a b o ut t a x f r a u d. It’ s
a b o ut t a x f r a u d. T h e y d o n’t h a v e a n y e vi d e n c e. A n d I
s u b mit t o y o u t hi s i s hi s si st e r. S h e k n o w s hi m. H e
k n o w s h e r. W h y w o ul d n’t h e h a v e p e r mi s si o n t o si g n
h e r n a m e ? W h y w o ul d n’t h e ? H a s s h e e v e r -- y o u c a n
l o o k t h r o u g h all t h e d o c u m e nt s t h at t h e y s u b mitt e d
f r o m t h e b a n k, o n t h e t r e at y, a n d y o u c a n l o o k at
t h at t el e p h o n e c o n v e r s ati o n M r. R y a n p ut u p w h e r e
s h e’ s c alli n g a n d c o m pl ai ni n g a n d s a yi n g I w a nt t hi s,
I w a nt t h at. I s t h at s o m e o n e w h o s ai d, O h, m y G o d,
m y n a m e h a s b e e n f o r g e d ? N o, it' s n ot.
All ri g ht. W h at d o w e h a v e h e r e ? W e h a v e a v ali d
c o r p o r ati o n i n B e r m u d a. It p e rf o r m s a v ali d f u n cti o n.

92a
T h e r e i s n o di s p ut e a b o ut t h at. It’s a s e p a r at e
t a x p a y e r. T h e m o n e y t h at c o m e s i nt o St e w a rt
T e c h n ol o g y S e r vi c e s i s i n c o m e t o St e w a rt T e c h n ol o g y
S e r vi c e s. It ’s n ot i n c o m e t o P at ri c k S ut h e rl a n d. A n d
it i s n ot i n c o m e t o t h e s h a r e h ol d e r s a n d t h e
s h a r e h ol d e r s a r e B e v e rl y St e w a rt a n d K ell y -A n n
Ki n g. Y o u c a n l o o k at E x hi bit D 2 1 if y o u w a nt,
d o c u m e nt s p r o vi d e d b y t hi s t r e at y, a n d t h e o w n e r s
a r e li st e d, B e v e rl y St e w a rt a n d K ell y -A n n Ki n g.
T h e y w a nt t o s u g g e st, w ell, t h e y ’r e n ot r e all y t h e
o w n ers b ec a us e s h e g o es a n d s p e n ds h er s u m m ers i n
C o d y, W y o mi n g. S h e ’s g ot t h e st o c k c e rtifi c at e. I
m e a n, I c o u l d b e r u n ni n g a c o m p a n y a n d I c o ul d b e
r u n ni n g it f o r m y 7 9 -y e a r -ol d m ot h e r w h o d o e s n ’t
h a v e a cl u e, b ut s h e o w n s all t h e st o c k. S h e’s t h e
o w n e r, n ot m e.
T h e s h a r e s t ell y o u w h o t h e o w n e r i s. If t h e o w n e r
w a k e s u p o n e m o r ni n g a n d s a y s, Y o u k n o w w h at, I' m
h a vi n g a f alli n g o ut wit h m y b r ot h e r. I d o n’t li k e hi m
a n y m o r e. Y o u c all u p t h e b a n k a n d s a y st o p t h e
p r e s s e s. N o b o d y el s e c a n t a k e m o n e y o ut e x c e pt f o r
m e. W h e r e i s all t h e m o n e y ? It ’s wit h h e r.
A n d b y t h e w a y, w h at -- w h at c o m mi s si o n s a r e w e
t al ki n g a b o ut? M r. R y a n s u g g e st s, o h, t hi s $ 2 milli o n
i s all i n c o m e of P at ri c k S ut h e rl a n d. It i s n’t. T h e y
h a v e Ji m P ri c e st a n d u p a n d s a y – h e ’s g ot a w h ol e
li st a n d it’s -- I d o n ’t r e m e m b e r w h at e x hi bit it i s. I ’m
s o r r y. I t h o u g ht I h a d w ritt e n it d o w n. B ut d o y o u
r e m e m b e r hi s h a n d w ritt e n li st of all of t h e m o ni e s h e
g ot wi r e d f r o m St e w a rt T e c h n ol o g y S e r vi c e s ? A b o ut
$ 4 0 0, 0 0 0 i n 2 0 0 8, 2 0 0 9, 2 0 1 0. A n d m a y b e a b o ut a
t hi r d of t h at 1 4 0, 1 5 0 t h o u s a n d d oll a r s i s t h e a m o u nt

93a
t h at’s r et ai n e d i n St e w a rt T e c h n ol o g y S e r vi c e s.
T h at ’s it. T h at ’s t h e o nl y e vi d e n c e y o u h a v e of
c o m mi s si o n s. T h at ai n ’t $ 2. 1 milli o n.
S o w h at i s t h e m o n e y c o mi n g o ut ? I s u b mit t o y o u
it’s l o a n s. M r. R y a n s a y s, O h, h e n e v e r i nt e n d e d t o
r e p a y it, b ut h e c o nt r ol s it t h e y s a y. H e c o nt r ol s it,
b ut h e n e v e r i nte n d e d t o r e p a y it. W h y n ot if h e
c o nt r ol s it ? Y o u h a v e t o a s k y o u r s elf if t hi s m o n e y i s
c o mi n g o v e r t o a v oi d t a x e s, w h y d o y o u r u n t o w a r d
t h e p r o bl e m ? Y o u g ot t h e m o n e y i n B e r m u d a. It ’s
sitti n g i n a c o r p o r ati o n t h at i s n ot t a x e d b y t h e
U nit e d St at e s. I n st e a d of l e a vi n g it t h e r e, i n st e a d of
s a yi n g, o k a y, t hi n g s a r e b a d h e r e, I ’ll s h ut m y
c o m p a ni e s d o w n a n d I ’ll g o t o B e r m u d a a n d li v e off
t h at, y o u wi r e it i n. W h at di d h e s a y, 2 0 0 s o m e o d d
wi r e s. Y o u w a nt t o att r a ct t h e att e nti o n of t h e
a ut h o riti e s, wi r e m o n e y f r o m o v e r s e a s t o t h e U nit e d
St at e s m o nt h aft e r m o nt h aft e r m o nt h aft e r m o nt h
aft e r m o nt h i n 3 0, 4 0 t h o u s a n d d oll a r q u a ntiti e s.
T h e y di d it o p e nl y.
A n d t h e y h a d a n i n v e st m e nt a c c o u nt, a n d y o u c a n
l o o k at E x hi bit 1 4 3, a g ai n, p r o vi d e d b y t h e t r e at y.
T h e s e a r e t h e b a n k ’s d o c u m e nt s. T h e y h a d a $ 3. 2
milli o n i n v e st m e nt a c c o u nt. O k a y. S o t h e r e ’s $ 3. 2
milli o n. F o r g et a b o ut i n c o m e. F o r g et a b o ut a n yt hi n g
el s e. T h e r e ’s $ 3. 2 milli o n sitti n g t h e r e.
B ut t h at ’s n ot all. Y o u c a n l o o k at E x hi bit 1 3 9.
T h e r e ’s a $ 7 5 0, 0 0 0 c r e dit li n e. A n d y o u h e a r d Li n d a
P ol k s a y m o ni e s c a m e o ut of t h at c r e dit li n e. T h e s e
a r e n't c o m mi s si o n s.

94a
E v e r y bit of t h at $ 2. 1 milli o n c o ul d h a v e b e e n p ai d
o ut wit h o ut l o o ki n g at t h o s e c o m mi s si o n s.
A n d w e d o n ’t h a v e a n y e vi d e n c e i n t h e c a s e a b o ut
w h e t h e r t h e c o m p a n y w a s p r ofit a bl e o r n ot, v e r y
p r ofit a bl e, s o s o. It ’ s d oi n g w o r k. It ’s d oi n g w o r k. It ’s
g etti n g p ai d. W e d o n't k n o w h o w m u c h.
I s u b mit t o y o u t h at, y e s, P at ri c k S ut h e rl a n d w a s
p r ett y h e a vil y i n v ol v e d i n t h at c o m p a n y. Y e s, h e w a s
a n offi c e r. Y e s, h e n e g oti at e d c o nt r a ct s f o r t h e m.
T h e y w a nt t o s a y h e di d e v e r yt hi n g. W ell, di d h e ?
T h e y ’r e ki n d of c o nfl ati n g, a s t h e y di d hi s a ct u a ri al
w o r k t h at h e di d wit h M r. M oi s o n, wit h t hi s w o r k,
i nt e r m e di a r y
w o r k, t h at
St e w a rt T e c h n ol o g y
S e r vi c e s di d.
I s it s o diffi c ult t h at a c oll e g e g r a d u at e, B e v e rl y
St e w a rt -- p ut E x hi bit 1 u p.
S h e g et s v e r y, v e r y hi g h a c c ol a d e s w h e n s h e g o e s
o ut t o W y o mi n g. A n d b y t h e w a y, s h e ’s i n a c oll e g e
p r o g r a m a n d s h e ’s g ot t o d o t hi s f o r c oll e g e c r e dit s,
e x p e ri e n c e. A n y b o d y n ot w a nt t o g o a n d s p e n d a
s u m m e r i n C o d y, W y o mi n g ? I d o n ’t k n o w. M a y b e,
y o u k n o w, s h e' s n e v e r s e e n h o r s e s, n e v e r s e e n
b r o n c o s, n e v e r s e e n a n yt hi n g. It ’s n ot s u c h a b a d
t hi n g. It ’s n ot s u c h a diffi c ult t hi n g. A n d t h e
g o v e r n m e nt s u g g e st s s h e c o ul d n ’t b e d oi n g wh at s h e
w a s d oi n g a n d still g o o ut t o C o d y, W y o mi n g. B ut
M r. M oi s o n w h o r u n s a n i n s u r a n c e c o m p a n y i n
B e r m u d a li v e s i n C ol o r a d o. Y o u c a n d o it. T h e r e ’s t h e
i nt e r n et. T h e r e a r e t el e p h o n e s.

95a
A n d b y t h e w a y, y o u h e a r d M r. P ri c e s a y h e ’s o n
t h e p h o n e wit h M s. St e w a rt s e v e r al ti m e s a m o nt h.
A s k s h e r q u e sti o n s. A n s w e r s h e r q u e sti o n s. G et s
f o r m s. S h e a r r a n g e s f o r l o a n s f o r hi s cli e nt s. S h e’s
n ot i n c o m p et e nt. S h e ’s n ot i n c o m p et e nt. A n d s h e’s
n ot a m ai d.
D o y o u h a v e t h at pi ct u r e u p ?
I m e a n, y o u c a n s e e -- w h at d o w e h a v e u p ?
d o n ’t y o u p ut t h e s e c o n d o n e u p t o o.

W hy

Li vi n g i n a ni c e h o u s e.
J U R O R: W e d o n ’t s e e it.
M R. D U N C A N: Y o u d o n ’t s e e a n yt hi n g ?
J U R O R: T h e r e it i s.
M R. D U N C A N: N o w y o u d o.
T h at ’s h e r, B e v e rl y St e w a rt.
S o St e w a rt T e c h n ol o g y S e r vi c e s i s n ot d oi n g
a ct u a ri al w o r k. V e r y cl e a rl y a ct u a ri al w o r k i s
c o m pli c at e d. I d o n ’t u n d e r st a n d it. B ut -- a n d it p a y s
w ell. M r. M oi s o n t ol d y o u t h at f o r g etti n g a r ei n s u r e r
o n b o a r d w hi c h w a s P at ri c k ’s d oi n g, t h e y p ai d hi m
all of t h ei r r e b at e s f o r t h e fi r st y e a r a n d a p e rc e nt a g e
aft e r t h at.
A n d I w a nt t o b e cl e a r, b y t h e w a y, b e c a u s e all of
t h e m o n e y t h at w e nt f r o m M r. M oi s o n w e nt t o
I n n o v ati o n P a rt n e r s. Y o u s a w h e h a d a s e p a r at e
c o nt r a ct
wit h I n n o v ati o n P a rt n e r s. I n n o v ati o n

96a
P a rt n e r s i s a n a u dit e d b r o k e r -d e al e r a n d t h e r e’s n o
i s s u e it p ai d it s t a x e s. T a x e s w e r e p ai d f o r t hi s w o r k.
M r. D u n k e r w a s e ntitl e d t o hi s s h a r e of it.
W h at p r o of d o t h e y off e r y o u t h at t hi s m o n e y i s n ’t
l o a n s ? T h at t h e l o a n d o c u m e nt s d o n’t l o o k ri g ht
b e c a u s e it s a y s 2 0 p e r c e nt of t h e c o m p a n y i n e a c h
o n e of t h e m. S o t h e y c o pi e d t h e l o a n d o c u m e nt. I
s u b mit t o y o u w h at t h at m e a n s i s 2 0 p e r c e nt t ot al.
D o e s n ’t m e a n 1 2 0 p e r c e nt.
If h e t o o k t h e m o n e y i nt e n di n g t o r e p a y it, t h at
m a k e s it a l o a n. I s t h e r e a n y r e a s o n y o u w o ul d n ’t
e v e n o n t h ei r vi e w of w h at t hi s c o m p a n y w a s, w h y
w o ul d n ’t h e r e p a y t h e l o a n ? G oi n g b a c k t o e x a ctl y
w h e r e h e c o nt r ol s it. W h y w o ul d n ’t h e ?
A n d t h e y s a y t h e r e ’s n o e vi d e n c e of r e p a y m e nt.
W ell, y o u l o o k at G o v e r n m e nt ’s E x hi bit 1 1 w hi c h i s a
s u m m a r y c h a rt of m o n e y -- n ot m o ni e s, b ut of
p r o p e rti e s t h at
w e r e t r a n sf e r r e d, i nt e r e st i n
p r o p e rti e s. A n d o n e of t h e m i s t h at f a n c y vill a i n St.
L u ci a t h at h e p oi nt e d t o a s M r. S ut h e rl a n d, wit h o ut
e vi d e n c e, t a ki n g v a c ati o n s i n. T h e o nl y e vi d e n c e w e
h a v e t h at a n y b o d y t o o k a v a c ati o n i n t h e r e w a s D o u g
B oi k w h o t o o k a v a c ati o n. S o t h e y di d p a y t h at b a c k.
A n d t h e n w e h a v e t h e t r a n sf e r of i nt e r e st, 1 5
p e r c e nt i nt e r e st i n I n n o v ati o n P a rt n e r s a n d I n si g n e
A d vi s o r C o n s ulti n g. O h, y o u k n o w, w o ul d y o u t r a d e
y o u r $ 2. 2 milli o n pl u s i nt e r e st f o r a 1 5 p e r c e nt
i nt e re st i n t hi s c o m p a n y w hi c h a s of 2 0 1 6 w a s v al u e d
at a b o ut $ 1. 2 4 4 milli o n ? A n d if y o u l o o k at t h e
g r o wt h r at e f r o m 2 0 1 1 t o 2 0 1 6, it ’s a p r ett y g o o d b et

97a
t
A
M
i

h at it’s g oi n g t o b e w o rt h a l ot m o r e g oi n g f o r w a r d.
l ot m o r e. A n d m u c h, m u c h m o r e t h a n $ 2. 1 milli o n.
u c h, m u c h m o r e t h a n $ 2. 1 milli o n pl u s 6 p e r c e nt
nt e r e st.

A n d h e s a y s h a v e y o u e v e r g ott e n a l o a n t h at l et
y o u g o f o r 7 p e r c e nt -- 7 y e a r s at 6 p e r c e nt ? Y o u
k n o w, p e o pl e l o a n t h ei r f a mil y m e m b e r s all t h e ti m e.
S o m eti m e s it ’s z e r o p e r c e nt. S o m eti m e s t h e y n e v e r
s e e t h e m o n e y b a c k, b ut t h e y l o a n it. A n d t h e y l o a n it
wit h o ut s a yi n g, o h, y o u h a v e t o p a y m e b a c k n o w. I ’ll
l o a n y o u t h e m o n e y f o r y o u r c oll e g e e d u c ati o n a n d
y o u p a y m e b a c k w h e n y o u c a n. I ’ll l o a n y o u m o n e y
f o r m e di c al s c h o ol, y o u p a y m e b a c k w h e n y ou c a n.
I s n ’t t h at s o m et hi n g p e o pl e d o ?
A n d y o u h e a r d f r o m M r. S mit h. Y o u d o n ’t e v e n
n e e d a w riti n g f o r a l o a n. A g ai n, t h e y m a k e a bi g
d e al. Di d h e f o r g e B e v e rl y St e w a rt’s si g n at u r e o n
t h o s e l o a n a g r e e m e nt s ? D o e s t h at m a k e t h e m
o b st r u cti v e ? T h e y w e r e n ’t e v e n p r e s e nt e d t o t h e
g r a n d j u r y. W ell, t h e y m a y h a v e b e e n p r e s e nt e d, w e
d o n ’t k n o w. T h e r e’s n o e vi d e n c e of t h at. W h at t h e r e
i s e vi d e n c e of i s t h e y w e r e p r e s e nt e d t o t h e U. S.
Att o r n e y' s Offi c e. B ut f o r g e d. Y o u d o n ’t t hi n k
B e v e rl y St e w a rt w o ul d s a y, Y e a h, h e c a n si g n m y
n a m e?
S o w h y di d h e b o r r o w $ 2. 1 milli o n ? W e s a w. Hi s
c r e dit c a r d d e bt w a s e n o r m o u s. Di d h e k e e p hi s
d a u g ht e r i n p ri v at e s c h o ol w h e r e s h e h a d st a rt e d
a n d b e e n si n c e 2 0 0 1 ? Y e s, h e di d. H e f o u n d a w a y t o
d o t h at, y e s, h e di d. Di d h e h a v e p u r c h a s e s, t h e lif e
p u r c h a s e s t h at t h e y ’r e t al ki n g a b o ut o n t o p of, I

98a
t hi n k i n t h ei r c h a rt, a b o ut $ 2 3, 0 0 0 a y e a r i n e x c e s s of
r e p o rt e d i n c o m e w hil e t h e y w e r e c a r r yi n g a b o ut a
h u n d r e d t h o u s a n d d oll a r s i n c r e dit c a r d d e bt ? I
a s k e d Li n d a P ol k, c a n y o u li v e o n c r e dit c a r d s ? Y e a h.
P e o pl e d o it. S o m e p e o pl e -- m a y b e s o m e of y o u h a v e
d o n e it s o m e of y o u r li v e s, I d o n’t k n o w. B ut I k n o w
p e o pl e d o.
D o y o u k e e p y o u r d a u g ht e r i n p ri v at e s c h o ol
w h e r e s h e ’s b e e n si n c e 2 0 0 1 ? Y e s. Y e s. W h at d o y o u
d o f o r y o u r c hil d r e n ? Y o u t r y t o k e e p y o u r c hil d r e n i n
t h e b e st pl a c e p o s si bl e f o r t h e m. A b s ol ut el y. T h e y
h a v e n ’t gi v e n y o u a n y e vi d e n c e of bi g p u r c h a s e s, j u st
bi g d e bt. T h at ’s all.
A n d M r. R y a n i s ri g ht, y o u a r e g oi n g t o h e a r a b o ut
t h at $ 8 4, 0 0 0 i n 2 0 0 8. D o y o u r e m e m b e r t h at ? H e
t o o k $ 84, 0 0 0 o ut of hi s I R A a n d h e s a y s, W ell, it
w e nt t o M r. Gi z a w. I b eli e v e t h e y s h o w e d t h at
$ 6 0, 0 0 0 of it w e nt t o I n si g n e C o n s ulti n g. I n ot h e r
w o r d s, h e t o o k it o ut of hi s I R A a n d h e s h ot it i nt o
hi s c o m p a n y. N o w, if y o u ’v e g ot o n t a p $ 2. 1 milli o n
a n d y o u c a n j u st t u r n t h e s pi g ot o n a n d g et it, w h y
a r e y o u d oi n g t h at a n d p a yi n g a 1 0 p e r c e nt p e n alt y,
1 0 p e r c e nt p e n alt y ri g ht u p f r o nt, a n d all of t h e t a x
d ef e r r e d b e n efit s of t h at m o n e y i s g o n e ? Y o u h a v e
$ 8 4, 0 0 0. Y o u d o n ’t p a y t a x e s o n t h e g ai n s of t h at.
Y o u d o n ’t p a y t a x e s o n t h e i nt e r e st o n t h at. It sit s
t h e r e a n d g r o w s wit h o ut t a x ati o n u ntil y o u wit h d r a w
it at a g e 5 9-1/ 2 o r l at e r a n d t h e n y o u p a y o r di n a r y
i n c o m e t a x o n it. W h y d o y o u gi v e t h at u p if y o u' v e
g ot all t hi s ot h e r m o n e y c o mi n g a r o u n d ? I s u b mit t o
y o u y o u gi v e it u p b e c a u s e y o u ’r e d e s p e r at e, b e c a u s e
it’s 2 0 0 8, 2 0 0 9, 2 0 1 0. T h e e c o n o m y i s i n f r e e f all.

99a
Y o u r c o m p a ni e s – y o u ’r e s c r a m bli n g t o k e e p t h e m
g oi n g. T h at ’s w h y. Y o u j u st d o n ’t d o t h at if milli o n s
a r e r olli n g i n.
A n d t h e n t h e r e w a s -- I t hi n k I p oi nt e d o ut t o M s.
P ol k o n E x hi bit -- w ell, n o. I ’m n ot s u r e -- I t o o k – I
p oi nt e d o ut t o M s. P ol k t h at t h e r e w e r e s o m e
t r a n sf e r s f r o m Citi z e n s H o m e L o a n s t o K r y ot e c h i n
2 0 0 8. Y o u c a n l o o k at t h e b o o k s. M a y b e s o m e of y o u
a r e b ett e r at l o o ki n g at t h e s e t h a n I a m. B ut t h e r e
w e r e Citi z e n s H o m e L o a n s t r a n sf e r s. A n d M r. S mit h
t e stifi e d t h at t h e a u dit e d fi n a n ci al s f o r C H L i n 2 0 0 7,
t h e y e a r b ef o r e it c oll a p s e d, t h e r e w a s a milli o n
d oll a r s i n p ai d -i n c a pit al. H e t o o k s o m e of hi s p ai d-i n
c a pit al o ut of o n e b u si n e s s a n d h e m o v e d it t o t h e
ot h e r s. H e di d n ’t t a k e it o ut a n d b u y a h o m e i n t h e
B a h a m a s. H e di d n ’t t a k e it o ut a n d b u y a h o m e i n
M o nt a n a. H e p ut it i n hi s b u si n e s s e s.
S o y o u h a v e t h e b o o k s of t h e c o m p a n y, a n d y o u
h e a r d Li n d a P ol k s a y t h e s e b o o k s a r e p r ett y b a d.
T h e y ’r e a m e s s. N ot hi n g i s d o n e ri g ht. Y o u h e a r d M r.
S mit h s a y P hilli p S ut h e rl a n d w a s k e e pi n g t h e b o o k s.
N ot v e r y g o o d at it.
A n d I w e nt t h r o u g h wit h Li n d a P ol k t h at t h e
c r e dit c a r d s, t h e s e 1 2 5, 0 0 0, 1 5 0, 0 0 0, 5 0, 0 0 0 d oll a r
c r e dit c a r d p a y m e nt s w e r e b ei n g b o o k e d a s n e g ati v e
c a pit al. T h at ’s n ot w h e r e t h e y ’r e s u p p o s e d t o b e
b o o k e d. N o n e of t h e p a y m e nt s i n si d e of t h e m a r e
b r o k e n o ut. N o n e of t h e fi n a n c e c h a r g e s w e r e b r o k e n
o ut. Y o u p ut t h at i n a s a bi g l u m p a n d y o u ’r e l o si n g
d e d u cti o n s.

100a
I p oi nt e d h e r t o a $ 7 9, 0 0 0 p a y m e nt t o t h e I R S
f r o m s o m e o n e w h o i s t r yi n g t o a v oi d hi s t a x e s li k e
t h e pl a g u e. $ 7 9, 0 0 0 t o t h e I R S f r o m a t a x e v a d e r.
C o ul d h a v e b e e n p a y r oll t a x e s. It w o ul d h a v e b e e n
d e d u cti bl e. C o ul d h a v e b e e n a t a x t h e c o m p a n y o w e d.
W e d o n ’t k n o w w h at it w a s. B ut it w e nt t o t h e I R S.
W h y ? W h y a r e y o u t r yi n g t o hi d e y o u r i n c o m e f r o m
t h e I R S h e r e a n d j u st gi vi n g it t o t h e m o v e r t h e r e
a n d n ot t a ki n g t h e d e d u cti o n if y o u ’r e e ntitl e d t o it ?
D o e s t h at m a k e s e n s e t o y o u ? D o e s n ’t m a k e s e n s e t o
m e.
A n d r e m e m b e r, y o u s e e t h e s e mi st a k e s a n d t h e
mi st a k e s g o b ot h w a y s a n d t h e y ’r e bi g b ot h w a y s.
Y o u ’v e g ot t o fi n d willf ul n e s s. Y o u ’v e g ot t o fi n d a
willf ul, i nt e nti o n al, k n o wi n g vi ol ati o n of t h e l a w.
A n d all of t h e s e mi st a k e s aff e ct t h e s e e ntiti e s. A n d
t h e e ntiti e s p a s s t h ei r i n c o m e o r t h ei r l o s s t h r o u g h t o
M r. S ut h e rl a n d. I b eli e v e t h e y t al k e d a b o ut S c h e d ul e
E, a n d t h at fl o w s i nt o li n e 2 2. S o li n e 2 2 i s t r u e o r
f al s e d e p e n di n g o n w h at c o m e s o ut of t h e s e
c o m p a ni e s. A n d willf ul n e s s d e p e n d s o n w h et h e r
t h e r e w a s willf ul vi ol ati o n i n t h e m o ni e s c o mi n g f r o m
S T S, w e r e t h e y l o a n s o r n ot ? A n d i n t h e s e ot h e r
m o ni e s, w e r e t h e s e d e d u cti o n s willf ull y f o r e g o n e ?
D o e s n ’t m a k e s e n s e.
W h at a b o ut o b st r u cti o n ? W ell, t h e o b st r u cti o n i s
o b st r u cti o n -- w ell, fi r st of all, I s u b mit t o y o u y o u
c a n ’t fi n d o b st r u cti o n b e c a u s e t h e s e d o c u m e nt s
w e r e n ’t p r o vi d e d t o t h e g r a n d j u r y. T h e y w e r e
p r o vi d e d t o t h e U. S. att o r n e y. Hi s l a w y e r s w e r e
h o pi n g w h at t h e y c o ul d d o w a s k e e p M s. S u g a r f r o m
w al ki n g d o w n t h e c o r ri d o r t o t h e g r a n d j u r y a n d

101a
i n di cti n g hi m. T h e y w e r e di r e ct e d t o h e r. T h e y w e r e
n ot di r e ct e d t o t h e g r a n d j u r y. A n d I s u b mit t o y o u
o n t h at b a si s al o n e, y o u h a v e t o a c q uit.
B ut w h at a b o ut t h e d o c u m e nt s ? T h e y ’r e o nl y
o b st r u cti v e if t h e y ’r e f al s e. A n d I s u b mit t o y o u y o u
c a n n ot fi n d b e y o n d a r e a s o n a bl e d o u bt t h at t h e y’r e
f al s e.
T h e y' r e l o a n a g r e e m e nt s. A r e t h e y sl o p p y ? Y e a h,
t h e y’r e sl o p p y. Di d m a y b e h e si g n f o r hi s si st e r ?
M a y b e, b ut w h at d o e s it m att e r. T h e m o n e y c a m e. If
t h e y s a y, w ell, t h e m o n e y c a m e b e c a u s e h e c o nt r oll e d
it, t h e n w h y w o ul d n’t h e r e p a y it ? H e c o nt r ol s it
t h e r e, h e c o nt r ol s it h e r e. T h e y ’r e s a yi n g h e ’s n ot
g oi n g t o r e p a y it ? H e ’s u si n g it f o r hi s c o m p a ni e s.
H e g a v e t h e s e d o c u m e nt s k n o wi n g t h e r e w a s a n
i n v e sti g ati o n g oi n g o n, b ut t h at ’s n ot all h e g a v e. H e
g a v e t h e m all of hi s b a n k a c c o u nt n u m b e r s. All of t h e
c h e c k s t h at t h e y’v e s h o w n y o u, all of t h e j e w el r y -- b y
t h e w a y, t h e j e w el r y i n 2 0 0 7 t h at t h e y g a v e y o u, all
of t h at w a s o n hi s b a n k a c c o u nt s w hi c h h e g a v e t h e m
a n d t h e y w e nt a n d f o u n d. D o y o u t hi n k h e t h o u g ht
w h e n t h e g r a n d j u r y s u b p o e n a e d hi s c o m p a ni e s ’
d o c u m e nt s a n d h e s ai d, o k a y, I ’ll gi v e y o u t h o s e, a n d
h e r e, b y t h e w a y, a r e all m y b a n k a c c o u nt s, t h at t h e y
w e r e n ’t g oi n g t o g o l o o k at t h e m ? M a y b e t h e y w o n ’t
g o l o o k at t h e m, b ut I’ll gi v e t h e m t o t h e m.
T h e y m a k e a bi g
of l o a n s t h at t h e y
s m all e r t h a n w h at
a g e nt s w o r ki n g o n

d e al o ut of t h e f a ct t h at t h e li st
g ot f r o m St e w a rt T e c h n ol o g y i s
t h e -- I d o n ’t k n o w h o w m a n y
t hi s c a s e f o r I d o n’t k n o w h o w

102a
m a n y y e a r s, w e st a rt e d i n 2 0 1 2, h e r e w e a r e i n 2 0 1 6
-- c a m e u p wit h. T h e y c a m e u p wit h all of t h e m
c o m bi n g t h r o u g h t h at d at a. Di d n ’t h a v e t h e m all.
W h at a b o ut J o n e s ? J o n e s s a y s S T S, it w a s f o r m e d
t o d o o u r off s h o r e w o r k. W e f o r m e d it. I w a s i n o n all
of t hi s. Y o u k n o w, I w a s t al ki n g t o all t h o s e p e o pl e.
H e c all s u p P ri c e a n d s a y s, Y o u o w e m e m o n e y,
b u d d y. P ri c e s a y s, I d o n ’t o w e y o u a n y m o n e y. I d o n ’t
h a v e a n yt hi n g t o d o wit h y o u. I d o n ’t h a v e a n yt hi n g
t o d o wit h y o u. T h e r e ’s n o b o d y t h at y o u h e a r d -- all
t h e p e o pl e h e s ai d h e t al k e d t o, t h e y di d n ’t t al k t o
hi m o r t h e y di d n ’t s a y t h e y di d.
H e s a y s h e o w n s S T S n o w. H e s a y s h e o w n s t h e
s oft w a r e t h at S T S li c e n s e s t o p e o pl e. W h e r e w a s t h at
i n hi s l a w s uit ? I m e a n, y o u h e a r d s o m e of t h e e m ail s
t h at h e s e nt t o M r. S ut h e rl a n d, y o u k n o w, S e a vi e w
d o g, dil ut e d, S e a vi e w t h u g, li a r, y o u r f a mil y a r e
li a r s, w h e r e y o u c o m e f r o m t h e y’r e li a r s. H e h at e s
hi m. B ut h e ’s n ot g oi n g t o p ut it i n b e c a u s e hi s
l a w y e r s a y s, W ell, w e c a n’t p r o v e t h e r e i s a n y m o n e y
t h e r e s o w e c a n ’t c e rtif y it. W a s t h at n o n s e n s e ? H e
n e v e r o w n e d S T S. H e di d n ’t o w n a n yt hi n g a b o ut
S T S. A n d h e w a s l yi n g, I s u b mit t o y o u, l yi n g a b o ut
e v e r yt hi n g h e s ai d.
H e li e d t o g et hi s, w h at di d h e c all, a J a m ai c a n
ni e c e, t h at ’s ri g ht. H e s a y s s h e ’s hi s ni e c e. I ’m
s p o n s o ri n g m y ni e c e t o c o m e i nt o t h e c o u nt r y. S h e
g et s h e r e. H e m a r ri e s h e r. N o w s h e ’s hi s J a m ai c a n
ni e c e.
H e li e s a b o ut hi s i n c o m e t o g et hi s n e p h e w i n.

103a
H e w o r k s o ut a ki c k b a c k s c h e m e wit h a c oll e a g u e
t o g et i n s u r a n c e f r o m hi s o w n c o m p a n y t h at t h e y
d o n ’t all o w a n d k e e p s t h e c o m mi s si o n.
H e fil e s a $ 1 milli o n s uit pl u s p u niti v e d a m a g e s
a n d s a y s, I ’m g oi n g t o g et e v e r yt hi n g f r o m y o u. I ’m
g oi n g t o b a c k m y t r u c k u p t o y o u r h o u s e a n d t a k e all
of y o u r f u r nit u r e e x c e pt I ’ll l e a v e y o u r d a u g ht e r’s.
T h e n h e s ettl e s it f o r a h u n d r e d fift y t h o u s a n d
o v e r ti m e. A n d a s s o o n a s h e si g n s t h e a g r e e m e nt,
t h e i n k i s n’t d r y, h e r e n e g e s o n it. H e s a y s t h at
w a s n ’t m e; t h at w a s U S A H ol di n g s. I fil e d a F I N R A
a r bit r ati o n o n t h ei r b e h alf b e c a u s e t h e y w e r e o w e d
m o n e y.
S o M r. S ut h e rl a n d h a s t o g o b a c k, fil e a s e c o n d
s uit. H e si g n s a s e c o n d s ettl e m e nt a g r e e m e nt a n d
t h at F I N R A a r bit r ati o n i s di s mi s s e d b e c a u s e it ’s t h e
s a m e t hi n g. A n d h e ’s still t r yi n g. H e ’s still t r yi n g.
Y o u d o n ’t t hi n k h e h o p e s f o r a c o n vi cti o n a n d h o p e s
t h at m a y b e h e c a n s o m e h o w l e v e r a g e t h at t o g et
m o n e y?
A n d y o u c a n l o o k at t h e
E x hi bit D 4. S T S o w n s a n d
c a n ’t b eli e v e it. H e ’s t h e
h e r e a n d s ai d b a d t hi n g s
O nl y o n e.

s oft w a r e a g r e e m e nt t h at ’s
li c e n s e s t h e s oft w a r e. Y o u
o nl y p e r s o n w h o c a m e i n
a b o ut P at ri c k S ut h e rl a n d.

S o w h at a b o ut t h e s e ot h e r bit s a n d pi e c e s t h at t h e
g o v e r n m e nt c o m e s u p wit h ? A dl e r, C a hill, Y a ni q u e. I
m e a n, y o u l o o k at t h e A dl e r p a y m e nt s a n d t h e y ’r e
b o o k e d t h r e e diff e r e nt w a y s. Y o u k n o w, if w h at
y o u ’r e t r yi n g t o d o i s hi d e t h at i n c o m e, w h y n ot j u st

104a
b o o k it all a s c a pit al c o nt ri b uti o n s ? B ut n o, a b o ut
h alf of it i s b o o k e d a s i n c o m e. S o m e of it i s b o o k e d a s
c a pit al c o nt ri b uti o n s. S o m e of it i s b o o k e d a s c r e dit
c a r d l o a n s. T h at d o e s n ’t s u g g e st t h at s o m e o n e i s
d oi n g s o m et hi n g i nt e nti o n al. T h at ’s j u st n ut s.
A n d w h at a b o ut S e a n C a hill ? H e p a y s hi s m o n e y
t o K r y ot e c h a n d it g et s b o o k e d a s c a pit al
c o nt ri b uti o n s, $ 2, 0 0 0 a m o nt h. A n d y o u ’ll h a v e s o m e
e x hi bit s -- o k a y. S o y o u will h a v e t h e E x hi bit s 5 6, 5 7,
5 8, 5 9, 6 0, 6 1, 6 2, 6 3, a n d I ’m a s s u mi n g p r o p e rt y t a x
i s 6 4, t o s h o w y o u th at t h e r e w e r e m o rt g a g e s o n t h ei r
p r o p e rt y. T h e r e w e r e p r o p e rt y t a x e s p ai d. N o n e of
t h o s e t hi n g s g ot d e d u ct e d a g ai n st it. A n d t h at ’s w h at
y o u d o. Y o u h e a r d Li n d a P ol k s a y if y o u g et i n c o m e
f r o m a r e nt al p r o p e rt y, y o u ’r e all o w e d t o d e d u ct
e x p e n s e s a g ai n st i t. W e h a v e n o i d e a. T h e r e m a y
h a v e b e e n n o t a x d u e o n t h at. B ut it w a s c e rt ai nl y -t h e c h e c k s w e nt t o K r y ot e c h. T h e c h e c k s g ot b o o k e d
b y K r y ot e c h. T h e r e w a s n ot a v e r y g o o d b o o k k e e p e r
t h e r e.
A n d w h at a b o ut Y a ni q u e L a w r e n c e ? W ell, fi r st of
all, Y a ni q u e L a w r e n c e i s n ot o n t ri al h e r e. P at ri c k
S ut h e rl a n d i s o n t ri al. S h e g ot m o n e y p ai d o ut a s
c o m mi s si o n s. A n d y o u s a w t h at I s h o w e d s e v e r al
c h e c k s t h at w e nt ri g ht b a c k i nt o t h e c o m p a ni e s. S o
it’s n ot all i n c o m e. A n d w h at e v e r it i s, t h at ’s Y a ni q u e
L a w r e n c e. Y o u c a n n ot h ol d t h at a g ai n st P at ri c k
S ut h e rl a n d a n d it ’s n ot cl e a r t h at t h e r e w a s a n yt hi n g
i nt e nti o n al.
W h at a b o ut p a y m e nt s f o r hi s d a u g ht e r ? A f e w
t h o u s a n d, 1 5, 0 0 0, 1 0, 0 0 0. I c a n ’t r e m e m b e r w h at it

105a
w a s. A n d y o u h e a r d Li n d a P ol k s a y y o u c a n m a k e
p a y m e nt s f o r ot h e r p e o pl e o ut of y o u r c a pit al
a c c o u nt. $ 1 5, 0 0 0.
S o i n t h e e n d, l a di e s a n d g e ntl e m e n of t h e j u r y, I
h a v e t ri e d t o t ell y o u w h at I s e e i n t h e e vi d e n c e, b ut
it’s u p t o y o u w h at y o u s e e i n t h e e vi d e n c e. I ’v e t ri e d
t o t ell y o u w h at I t hi n k t h e e vi d e n c e i s. It ’s u p t o y o u
w h at t h e e vi d e n c e i s. It ’s u p t o y o u w h o t o b eli e v e. I
t ell y o u – I s u b mit t o y o u M r. J o n e s i s a li a r. If y o u
t hi n k h e’s t elli n g t h e t r ut h, t h at’s y o u r d e ci si o n.
I a s k, b e c a u s e t hi s i s a v e r y, v e r y, v e r y i m p o rt a nt
d e ci si o n f o r M r. S u t h e rl a n d, t h at y o u gi v e it all t h e
dili g e n c e t h at I k n o w y o u h a v e, t h at y o u b ri n g all
y o u r lif e e x p e ri e n c e s t o t hi s, a n d t h at y o u c o m e b a c k
wit h a v e r di ct w hi c h I t hi n k y o u s h o ul d of n ot g uilt y
o n all c o u nt s. T h a n k y o u.
T H E C O U R T: All ri g ht.
g o v e r n m e nt f o r r e b utt al.

T h e j ur y is

wit h t h e

M S. S U G A R: T h a n k y o u, Y o u r H o n o r.
T h e b u r d e n i s o n t h e g o v e r n m e nt f o r e v e r y
el e m e nt of e a c h of t h e s e c ri m e s b e y o n d a r e a s o n a bl e
d o u bt. W e e m b r a c e t h at b u r d e n a n d w e h a v e m et it.
Fi r st I w a nt t o t al k a b o ut t h e o b st r u cti o n c o u nt
b e c a u s e w h at y o u j u st h e a r d i s sill y. G r a n d j u r y
s u b p o e n a s w e nt t o t h e d ef e n d a nt ’s c o m p a ni e s a n d
w h at h a p p e n s n e xt ? A l ett e r c o m e s t o t h e U. S.
Att o r n e y ’s Offi c e t h at s a y s d o n ’t i n di ct hi m, h e r e’s
t h e s e l o a n d o c u m e nt s. H e r e ’s t h e li st a b o u t t h e b a n k

106a
a c c o u nt s f o r t h e v e r y s a m e c o m p a ni e s li st e d o n t h e
s u b p o e n a s. W h o i n di ct s ? T h e g r a n d j u r y.
T h e j u d g e will i n st r u ct y o u t h at it ’s al s o c h a r g e d
a s ai di n g a n d a b etti n g. S o e v e n if h e di d n't di r e ctl y
gi v e it t o t h e j u r y, if h e ai d e d a n d a b ett e d, y o u
c o n vi ct hi m. T h at' s j u st sill y, l a di e s a n d g e ntl e m e n.
W h at i s St e w a rt T e c h n ol o g y S e r vi c e s ? It m o r p h s
i nt o w h at e v e r t h e d ef e n d a nt n e e d s t o k e e p hi s o w n
n a m e off of st uff. It ’s t h e I C A S c o m p ut e r s y st e m. It ’s
St e w a rt I nf o r m ati o n S e r vi c e s. It s ell s i n s u r a n c e. B ut
it’s j u st u s e d a s a s h ell t o hi d e t h e m o n e y t h at t h e
d ef e n d a nt g et s.
T h e n t h e r e ’s s o rt of a n e w st o r y c o mi n g h e r e. Of
c o u r s e h e c o nt r ol s it. Of c o u r s e h e ’s i n v ol v e d h e a vil y.
B ut t h at’s n ot w h at ’s o n t h e B e r m u d a d o c u m e nt s.
W h e n t h e y a s k e d a b o ut k n o w y o u r cli e nt, d e s c ri b e
t h e s o u r c e of t h e s e f u n d s, w h at d o e s it s a y ? T hi s i s
f r o m B e v e rl y St e w a rt a n d h e r e i s h e r b a c k g r o u n d.
C o v e ri n g u p t h at s h e i s a c o s m et ol o gi st.
T h at ’s n ot w h at M r. P ri c e t h o u g ht. H e t h o u g ht
t h at B e v e rl y St e w a rt w a s off t r a v eli n g a r o u n d t h e
gl o b e, w a s a ct u all y si g ni n g t h e s e d o c u m e nt s. W h y i s
it b ei n g c o n c e al e d ?
A n d it ’s still b ei n g c o n c e al e d t o d a y. T h e
d ef e n d a nt ’s o w n e x hi bit s,
D ef e n d a nt ’s 6 5, a
c o r r e s p o n d e n c e s u b mitt e d t o F I N R A i n 2 0 1 6 a s k s f o r
i nf o r m ati o n a b o ut B e v e rl y St e w a rt a n d Y a ni q u e
L a w r e n c e, a n d w h at d o e s it s a y ? W h at i s t h e
p r of e s si o n al b a c k g r o u n d of B e v e rl y St e w a rt ?

107a
R e s p o n s e: “B e v e rl y St e w a rt i s a n e nt r e p r e n e u r
a n d i nt e r n ati o n al b u si n e s s p r of e s si o n al. S h e h ol d s a
b a c h el o r ’s d e g r e e a n d v a ri o u s ot h e r p r of e s si o n al
c e rtifi c a ti o n s. B e v e rl y St e w a rt w e nt t o si mil a r
e d u c ati o n al i n stit uti o n s a s P at ri c k S ut h e rl a n d u p t o
t he
s e c o n d a r y l e v el, ” a n d
p r o vi d e s
si mil a r
i nf o r m ati o n a b o ut K ell y-A n n Ki n g. T h e li e c o nti n u e s,
l a di e s a n d g e ntl e m e n.
W h at a b o ut t h e s e c r e dit c a r d l o a n s ? N o w, y o u r
r e c oll e cti o n c o nt r ol s, b ut w h at I s u b mit t o y o u M s.
P ol k s ai d i s it w a s j u st a fl o at. W e s a w t h e c h e c k s
d e p o sit e d i nt o t h e U. S. b a s e d St e w a rt T e c h n ol o g y
S e r vi c e s a c c o u nt, t h e n it w e nt t o K r y ot e c h a n d t h e n
K r y ot e c h p ai d t h e
m o n e y b a c k. N ot hi n g w a s
h a p p e ni n g . It w a s j u st l o o pi n g a r o u n d. A n d t h e s e
w e r e n ’t f u n d s u s e d t o r u n t h e b u si n e s s e s. Y o u c a n
l o o k at t h e i n c o m e a n d e x p e n s e it e m s o n a n y of t h o s e
g e n e r al l e d g e r s. T h o s e n u m b e r s a r e p r ett y l o w. T h e
bi g n u m b e r s a r e w h at ’s g oi n g b a c k t o hi m. If y o u l o o k
at a l ot of t h o s e g e n e r al l e d g e r s, m o n e y c o m e s i n.
W h e r e d o e s it g o ? O ut t o P at ri c k S ut h e rl a n d. M o n e y
c o m e s i n. W h e r e d o e s it g o ? O ut t o p a y f o r o n e of hi s
p e r s o n al e x p e n s e s.
If w e c o ul d p ull u p E x hi bit 1 3 D.
It s h o w s t h e n ot ati o n s o n t h at m o n e y c o mi n g f r o m
B e r m u d a. T h e r e w a s s o m e di s c u s si o n, w h at i s t h at
m o n e y f r o m ? W h at i s t hi s all a b o ut ? W ell, I ’ll t ell y o u
-- o r I s u b mit t o y o u t hi s i s w h at t h o s e b a n k e x hi bit s
s h o w. T h at m o n e y wi r e d i n i n 2 0 1 0, it s a y s it’s f o r
m a r k eti n g a n d a d v e rti si n g f e e s. W h o o p s, t hi s i s o n
t h e l o a n li st b ut it ’s b o o k e d a s m a r k eti n g f e e s. T h e

108a
n e xt o n e c o m e s i n, it s a y s c o n s ulti n g f e e s o n t h e wi r e.
L o a n s d e p o sit e d. It ’s all o v e r t h e pl a c e. H o w c o ul d
y o u d o t h e b o o k s ? H o w c o ul d y o u d o t h e b o o k s f o r a
c o m p a n y if t hi n g s a r e w ritt e n t o c h e c k s t h at s a y
t h e y' r e c o n s ulti n g f e e s ?
J U R O R: W e c a n ’t s e e it.
T H E C O U R T: Y o u ’r e s e ei n g it, b ut n o b o d y el s e i s.
T h e r e w e g o.
M S. S U G A R: S o r r y a b o ut t h at.
T h e d e s c ri pti o n s o n t h e b a n k wi r e s s a y f e e s. H o w
c a n a n y o n e k n o w t o b o o k t h os e as l o a ns?
A n d t h e n t o s u g g e st t h at t h e g o v e r n m e nt ’s
s c o u ri n g t h e r e c o r d s f o u n d all t h e s e wi r e s a n d t h at ’s
w h y t h e y w e r e o n t h e l o a n r e c o r d s. If y o u g et -- if y o u
l o a n s o m e o n e a h u n d r e d t h o u s a n d d oll a r s, w o ul d y o u
j u st mi s s it ? N o, b e c a u s e t h at’s n ot w h at h a p p e n s i n
a r e al l o a n b e c a u s e t h at ’s n ot w h at t h e y w e r e.
A n d of c o u r s e, t h e r e w a s a n i n v e st m e nt a c c o u nt.
C e rt ai nl y s o m e of t h e m o n e y c o mi n g t o P at ri c k
S ut h e rl a n d w a s m o n e y n ot j u st f r o m c o m mi s si o n s.
Y o u s e e i n t h e b a n k r e c o r d s t h e p u r p o s e of t h at
a c c o u nt w a s t o g e n e r at e a r e v e n u e st r e a m, a n d t h e y
s ai d it' s g oi n g t o g o t o K r y ot e c h H ol di n g s.
D ef e n s e w a s al s o p r ett y di s mi s si v e of 1 3 0, 0 0 0 i n
c o m mi s si o n s. O h, t h at ’s j u st 1 3 0, 0 0 0. T h at ’s r e al
m o n e y. M a y b e n ot t o t h e d ef e n d a nt. B ut w h e n y o u ’r e

109a
m a ki n g $ 1 6, 0 0 0
o v e rl o o k it.

d oll a r s

a

y e a r,

y o u c a n ’t j u st

R e m e m b e r M r. N o w ot n y, t h e d ef e n d a nt ’s o w n
wit n e s s: I o nl y w o r k wit h I n n o v ati o n P a rt n e r s.
T h at ’s w h o I w o r k wit h. T h e n w h at di d y o u s e e ? H e
g ot p ai d f r o m St e w a rt T e c h n ol o g y S e r vi c e s.
L o o k at E x hi bit 1 4. W e di d n ’t e v e n t al k a b o ut t hi s
o n e i n cl o si n g. B ut r e m e m b e r, t h e r e w e r e c h e c k s
w ritt e n t o St e w a rt T e c h n ol o g y S e r vi c e s a n d t h e n
d e p o sit e d i nt o t h e K r y ot e c h H ol di n g s a c c o u nt. T hi s
w a s j u st a n a m e t h e y u s e d t o g et c e rt ai n p a y m e nt s.
Y o u n oti c e t h o s e l o a n d e p o sit s w e nt i nt o e v e r y
b a n k a c c o u nt e x c e pt f o r o n e: I n n o v ati o n P a rt n e r s.
W h y ? B e c a u s e it w a s b ei n g a u dit e d. B e c a u s e t h e
d ef e n d a nt k n e w w h e n p e o pl e w e r e l o o ki n g t o d o
t hi n g s ri g ht -- a n d t h at g o e s b a c k t o t h at w h ol e I R A
di st ri b uti o n w hi c h i s j u st sill y. W h y w o ul d y o u t a k e
o ut y o u r I R A ? B e c a u s e y o u c o ul d m a k e m o r e m o n e y
s o m e w h e r e el s e. A n d t h e f e e, t h at w a s t h e o nl y
m o n e y h e p ai d t o t h e I R S t h at y e a r. T h at di d n ’t s e e m
t h at bi g i n t h e s c h e m e of t hi n g s. T h at w a s t h e o nl y
m o n e y h e r e p o rt e d o n hi s t a x r et u r n. A n d t h e m o n e y
c a m e i nt o I n si g n e j u st li k e all t h e s e l o a n s t h at w e r e
s u p p o s e dl y t o P at ri c k S ut h e rl a n d p e r s o n all y. I d o n ’t
k n o w w h y t h e y n e e d e d t o g o t o 1 2 diff e r e nt a c c o u nt s,
b ut m o n e y w e nt b a c k o ut a n d y o u s a w f r o m t h at
D o u g B oi k e m ail, t h at w a s a b o ut a w h ol e n ot h e r
i n v e st m e nt.
I s t hi s t h e f a ult o f a b a d b o o k k e e p e r ? Y o u h e a r d
f r o m M r. S mit h. I s u b mit t o y o u t h at h e s ai d t h e r e

110a
w e r e n ’t t h at m a n y c h a n g e s t o m a k e f r o m w h at
P hilli p S ut h e rl a n d di d. If y o u l et s o m e o n e d o y o u r
b o o k s c o nti n u o u sl y f o r t e n y e a r s w h o i s t h at b a d,
t h e n y o u h a v e y o u r h e a d i n t h e s a n d.
T h e r e w a s al s o t al k of t h e d ef e n d a nt ’s r e p ut ati o n
i n t hi s i n d u st r y, a n d it ’s st ell a r. H e c a m e u p wit h
B e r m u d a i n s u r a n c e p r o d u ct s, w hi c h I s u b mit t o y o u
m e a n s -- a n d t h at s h o w s it ’s li k el y t h at t hi s i s hi s
m o n e y a n d n ot t h e si st e r ’s. B ut it al s o m e a n s w h o
a r e g o o d b u si n e s s m e n ? T h e o n e s w h o a r e m a ki n g
p e o pl e m o n e y.
Of c o u r s e t h e d ef e n d a nt ’s r e c o r d s a n d a c c o u nt s
a r e c o nf u si n g. W h e n y o u h a v e a f o r ei g n b a n k a c c o u nt
i n s o m e o n e el s e ’s n a m e, y o u d o n ’t h a v e a p r o bl e m
d o ct o ri n g a p a s s p o rt t o o p e n, w h e n y o u li e a b o ut
b ei n g i n v ol v e d i n T L I B c o nt r a ct s, w h e n y o u s e n d
e m ail s p r et e n di n g t o b e y o u r si st e r, w h e n y o u f o r g e
d o c u m e nt s i n Mi k e J o n e s ’ a n d R o g e r D u n k e r ’s a n d
B e v e rl y St e w a rt ’s n a m e, of c o u r s e y o u w a nt t o m a k e
t hi n g s c o nf u si n g. D o n ’t l et hi m c o nf u s e y o u, l a di e s
a n d g e ntl e m e n.
N o w, t hi s w h ol e r e p a y m e nt t hi n g i s sill y. T h e w a y
it' s fi r st s et u p, s h e g et s all of t h e m o n e y b a c k a n d
i nt e r e st a n d 2 0 p e r c e nt of t h e s al e. A n d n o w b a s e d o n
t h e s e n e w d o c u m e nt s of t r a n sf e r, s h e ’s g oi n g t o g et
1 5 p e r c e nt. Vi rt u all y, a n yt hi n g s h e w a s s u p p o s e d t o
g et w e nt a w a y. It ’s n o n s e n s e.
T H E C L E R K: Y o u h a v e fi v e mi n ut e s.
M S. S U G A R: T h a n k y o u.

111a
A n d I w o ul d s u b mit t o y o u t h at y o u c a n l o o k at
t h e c r e dit c a r d r e c o r d s t h at a r e i n e vi d e n c e t o s e e t h e
w a y t h e d ef e n d a nt w a s li vi n g i n t h e l at e r y e a r s. Y o u
m a y h a v e o nl y s e e n e x a m pl e s i n 2 0 0 7, b ut y o u h a v e
t h e r e c o r d s. L o o k at w h at w a s b ei n g s p e nt i n 2 0 0 8,
2 0 0 9, a n d 2 0 1 0. A n d y o u ’ll s e e c h a r g e s i n St. L u ci a
m a d e b y t h e d ef e n d a nt.
W h at a b o ut J o n e s ? E v e n if h e ’s a b a d g u y, t h at ’s
w h o t h e d ef e n d a nt d e ci d e d t o d o b u si n e s s wit h f o r
m o r e t h a n t e n y e a r s. A n d t h e b e st t h e y g ot i s t h at h e
li e d o n a n i m mi g r ati o n d o c u m e nt b a c k i n ‘9 9. W h at
w a s hi s t e sti m o n y t h at w a s n ’t s u p p o rt e d b y ot h e r
r e c o r d s y o u s a w ? T h at P at ri c k S ut h e rl a n d u s e d
B e v e rl y St e w a rt ’s e m ail ?
W ell, t h at c e rt ai nl y
h a p p e n e d.
T h at
P at ri c k
S ut h e rl a n d
f or g e d
d o c u m e nt s ? T h at c e rt ai nl y h a p p e n e d.
Di d h e g o b a c k a n d r e c r e at e w h at t h e B e r m u d a
d o c u m e nt s s ai d, w h at t h e d ef e n d a nt' s t a x r et u r n
s ai d ? N o w a y.
D ef e n d a nt c o ul d h a v e a p pli e d f o r a s c h ol a r s hi p f o r
hi s d a u g ht e r. H e di d n ’t b e c a u s e h e di d n’t n e e d o n e.
E v e n if t h e d ef e n d a nt di d gi v e s h a r e s of hi s
c o m p a ni e s, 1 5 p e r c e nt, t o St e w a rt T e c h n ol o g y
S e r vi c e s, t h at ’s a littl e sill y a s a r e p a y m e nt, i s n ’t it ?
It' s li k e t a ki n g m o n e y o ut of o n e p o c k et a n d p utti n g
it i n t h e ot h e r. It' s ri di c ul o u s.
T h e d ef e n d a nt h a s a n e x c u s e f o r e v e r yt hi n g. H e
li v e s a lif e st yl e t h at m o st p e o pl e d r e a m of a n d
d o e s n ’t p a y hi s f ai r s h a r e. Milli o n s of d oll a r s c o mi n g
i nt o hi s a c c o u nt m a r k e d a s f e e s b ut t r e at e d a s

112a
n o nt a x a bl e. T h e r e ’s a w o r d f o r it, l a di e s a n d
g e ntl e m e n. It ’s a p p alli n g. Fi n d t h e d ef e n d a nt g uilt y
o n all c o u nt s.
*

*

*

U NI T E D S T A T E S DI S T RI C T C O U R T
W E S T E R N DI S T RI C T O F N O R T H C A R O LI N A
C E R TI FI C A T E O F R E P O R T E R
I, C h e r yl A. N u c ci o, F e d e r al Offi ci al R e alti m e
C o u rt R e p o rt e r, i n a n d f o r t h e U nit e d St at e s Di st ri ct
C o u rt f o r t h e W e st e r n Di st ri ct of N o rt h C a r oli n a, d o
h e r e b y c e rtif y t h at p u r s u a nt t o S e cti o n 7 5 3, Titl e 2 8,
U nit e d St at e s C o d e, t h at t h e f o r e g oi n g i s a t r u e a n d
c o r r e ct t r a n s c ri pt of t h e st e n o g r a p hi c all y r e p o rt e d
p r o c e e di n g s h el d i n t h e a b o v e -e ntitl e d m att e r a n d
t h at t h e t r a n s c ri pt p a g e f o r m at i s i n c o nf o r m a n c e
wit h t h e r e g ul ati o n s of t h e J u di ci al C o nf e r e n c e of t h e
U nit e d St at e s.
D at e d t hi s 2 1 st d a y of A u g u st 2 0 1 7.
s/ C h e r yl A. N u c ci o
_________________________
C h e r yl A. N u c ci o, R M R -C R R
Offi ci al C o u rt R e p o rt e r

